<html>
<title> - INCREASING OUR NONPROLIFERATION EFFORTS IN THE FORMER SOVIET UNION</title>
<body><pre>[Senate Hearing 107-685]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-685
 
   INCREASING OUR NONPROLIFERATION EFFORTS IN THE FORMER SOVIET UNION
=======================================================================




                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                             APRIL 23, 2002
                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                       U. S. GOVERNMENT PRINTING OFFICE
81-833                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                                  (ii)








                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     2
Cohen, Hon. William S., former Secretary of Defense, chairman, 
  and chief executive officer of the Cohen Group, Washington, DC.    12
    Prepared statement...........................................    16
Enzi, Hon. Mike, U.S. Senator from Wyoming, prepared statement 
  and informational letter.......................................     9
Hecker, Dr. Siegfried S., senior fellow, Los Alamos National 
  Laboratory, Los Alamos, NM.....................................    33
    Prepared statement...........................................    36
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     6
    Letter to Secretary of State Colin Powell, dated April 18, 
      2002.......................................................     7
Menges, Dr. Constantine C., senior fellow, The Hudson Institute, 
  Washington, DC.................................................    43
    Prepared statement...........................................    48
    Article from the Washington Post, July 29, 2002, entitled 
      ``Russia, China and What's Really on the Table''...........    55

                                 (iii)










   INCREASING OUR NONPROLIFERATION EFFORTS IN THE FORMER SOVIET UNION

                              ----------                              


                        TUESDAY, APRIL 23, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:27 a.m., in 
room SD-419, Dirksen Senate Office Building, the Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Bill Nelson, Lugar and Enzi.
    The Chairman. The committee will please come to order.
    Over the past 2 years, the Committee on Foreign Relations 
has held a series of hearings outlining the threat posed by 
weapons of mass destruction to U.S. national security. We have 
listened to witnesses testify on a broad array of threats from 
the hypothetical smallpox attack on the United States to the 
potential dangers posed by dirty bomb and improvised nuclear 
devices.
    We have also held two closed hearings for the Senate as a 
whole, on the last two subjects. In the course of these 
hearings, one simple fact has stood out: That is, there are 
many sources for weapons of mass destruction. And it can take 
years to obtain or build them. But there is one place that has 
it all, and that place is Russia. It is far from our only 
problem. But when we talk about confronting the 
nonproliferation challenges head on, we have to look at Russia.
    When the Soviet Union collapsed, a massive military 
infrastructure geared toward a global confrontation lost its 
purpose overnight. Huge stockpiles of nuclear weapons and 
fissile material, poisonous chemical munitions, and illegally 
produced biological pathogens were no longer needed. As the 
culture of centralized control withered away in the newly 
democratic Russia, the security and safeguards for weapons 
storage facilities and laboratories began to weaken. Weapons 
scientists, who had devoted their careers to the Soviet state, 
were left to drift and forced to moonlight to make a living.
    To the lasting credit of two of my colleagues, Senators 
Nunn and Lugar, and aided and abetted by our former Secretary 
before us when he was here in the Senate, Senator Cohen, they 
recognized the threat posed by a collapsing superpower with 
thousands of nuclear weapons. They led the way in creating a 
set of programs known as the Cooperative Threat Reduction to 
help Russia and other states in the former Soviet Union secure 
and destroy nuclear warheads, missile launchers, and other 
strategic delivery systems.
    In 1996, they were joined by Senator Pete Domenici in 
establishing the lab-to-lab programs under the Department of 
Energy to secure Russia's nuclear materials and help its 
weapons scientists find socially useful concerns--or careers, I 
should say.
    Next month we will celebrate the 10th anniversary of the 
Nunn-Lugar programs. And as we mark that occasion, we have to 
face the sobering reality that much more has to be done. Let us 
take a quick look at what still exists. As a matter of fact, in 
the interest of time, we will not take a quick look, except to 
suggest just a couple of broad things.
    Approximately 1,000 metric tons of excess highly enriched 
uranium, enough to produce 20,000 nuclear weapons, remains; 
approximately 160,000 tons of excess weapons grade plutonium; 
approximately 40,000 tons of declared chemical weapons. And, 
according to a recent Carnegie Endowment study, a population of 
120,000 scientists and skilled personnel in Russia's nuclear 
cities, where 58 percent of them were surveyed, are forced to 
moonlight at second jobs. And 14 percent have indicated a 
desire to work abroad.
    A little more than a year ago, this committee heard from 
former Senator Baker and former White House counsel Lloyd 
Cutler as they presented findings on the Blue Ribbon Task Force 
on U.S. Nuclear Nonproliferation Programs in the former Soviet 
Union. I risk making myself hoarse by repeating it, but the 
primary finding is this, and I quote, and I will end with this, 
``The most urgent unmet national security threat to the United 
States today is the danger that weapons of mass destruction or 
weapons useable material in Russia could be stolen and sold to 
terrorists or hostile nations and used against American troops 
abroad or citizens at home.''
    I say to my colleagues: We are fortunate today to have a 
very, very first-rate set of witnesses, none whom we know 
better or have greater respect for than our first witness, the 
distinguished former Senator from Maine and former Secretary of 
Defense.
    In 1974, Time magazine singled out Bill as one of America's 
200 future leaders. Others were in that list, but few proved 
Time magazine to be as correct as Bill Cohen did.
    I welcome you, Mr. Secretary. Thank you for being here. And 
it is really very good to see you. The floor is yours.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Over the past two years, the Committee on Foreign Relations has 
held a series of hearings outlining the threat posed by weapons of mass 
destruction (WMD) to U.S. national security. We have listened to 
witnesses testify on a broad array of threats, from a hypothetical 
smallpox attack on the United States to the potential dangers posed by 
``dirty bombs'' and improvised nuclear devices.
    In the course of these hearings, one simple fact has stood out. 
There are many sources for weapons of mass destruction, and it can take 
years to obtain or build them. But there's one place that has it all. 
That place is Russia. It's far from our only problem, but when we talk 
about confronting the nonproliferation challenge head on, we must begin 
with Russia.
    When the Soviet Union collapsed, a massive military infrastructure 
geared toward a global confrontation lost its purpose overnight. Huge 
stockpiles of nuclear weapons and fissile materials, poisonous chemical 
munitions, and illegally-produced biological pathogens were no longer 
needed. As the culture of centralized control withered away in a newly 
democratic Russia, the security and safeguards for weapons storage 
facilities and laboratories began to weaken. Weapons scientists, who 
had devoted their careers to the Soviet state, were left adrift and 
forced to moonlight to make a living.
    To the lasting credit of two of my colleagues, Senators Sam Nunn 
and Dick Lugar immediately recognized the threat posed by a collapsing 
superpower with thousands of nuclear weapons. They led the way in 
creating a set of programs known as Cooperative Threat Reduction to 
help Russia and the other states of the former Soviet Union secure and 
destroy nuclear warheads, missile launchers and other strategic 
delivery systems. In 1996, they were joined by Senator Pete Domenici in 
establishing lab-to-lab programs under the Department of Energy to 
secure Russian nuclear materials and help its weapons scientists find 
socially useful careers.
    Next month, we will celebrate the tenth anniversary of the Nunn-
Lugar programs. As we mark that occasion, we must also face the 
sobering reality that much remains to be done. Let's take a quick look 
at what still exists in Russia today, a decade after the Soviet Union 
fell:

  <bullet> Approximately 1000 metric tons of excess highly enriched 
        uranium, enough to produce roughly 20,000 nuclear weapons.
  <bullet> Approximately 160 metric tons of excess weapons grade 
        plutonium.
  <bullet> Approximately 40,000 metric tons of declared chemical 
        weapons.
  <bullet> According to a recent Carnegie Endowment study, a population 
        of 120,000 scientists and skilled personnel in the Russian 
        nuclear cities where 58% of those surveyed are forced to 
        moonlight at second jobs and 14% have indicated a desire to 
        work abroad.

    A little more than a year ago, this Committee heard from Senator 
Howard Baker and former White House counsel Lloyd Cutler as they 
presented the findings of a blue ribbon task force on U.S. nuclear 
nonproliferation programs in the former Soviet Union. I risk making 
myself hoarse, but let me once again repeat their primary finding:

          The most urgent unmet national security threat to the United 
        States today is the danger that weapons of mass destruction or 
        weapons-usable material in Russia could be stolen and sold to 
        terrorists or hostile nation states and used against American 
        troops abroad or citizens at home.

    To address this critical threat, the Baker-Cutler report had called 
for the United States to spend $30 billion over the next eight to ten 
years to secure and/or neutralize all nuclear weapons-usable material 
located in Russia and to prevent the outflow of Russian scientific 
expertise necessary for weapons of mass destruction.
    And that is why I decided to call this hearing today. Working with 
my colleagues, I plan to make a strong push during this session for 
expanded funding for U.S. nonproliferation assistance to Russia. Before 
we do that, however, we need to focus any increased funding on specific 
objectives. Simply throwing money at the problem is not a solution.
    I know that Secretary Cohen and our other witnesses will have their 
own creative proposals to share with the Committee. I would also like 
to solicit their thoughts on the following ideas, which have emerged 
during the past year:

          (1) Accelerating the pace of the Materials Protection, 
        Control, and Accounting program so that we will not have to 
        wait until the end of the decade before all Russian fissile 
        material is stored at securely guarded facilities. As of 2001, 
        comprehensive security upgrades had been completed at only 37 
        out of 95 nuclear sites in the former Soviet Union. Expanding 
        the MPC&A program will allow us to implement comprehensive 
        upgrades at more Russian sites.
          (2) Expanding the scope and the pace of the 1993 Highly 
        Enriched Uranium (HEU) Purchase Agreement so that the United 
        States purchases processed nuclear fuel from additional Russian 
        stocks of highly enriched uranium. Today, Russia is obligated 
        to down blend 500 metric tons of HEU, or approximately 30 
        metric tons per year, for eventual sale in the United States to 
        commercial nuclear reactors. There is no reason why we cannot 
        double that total amount to 1000 metric tons to further reduce 
        a proliferation risk. After all, one metric ton of HEU is 
        sufficient to produce approximately 20 nuclear weapons.
          (3) Providing greater financial assistance to jump-start the 
        destruction of Russian chemical weapons under the Chemical 
        Weapons Convention. Russia has declared approximately 40,000 
        metric tons of chemical weapons at seven storage sites across 
        the country. I applaud the Administration's request for a 
        significant increase in the FY 2003 budget request for these 
        efforts, but we may need to do more. We also need to pressure 
        our European allies, in particular, to step up to the plate 
        with further support for this effort.
          (4) Expanding programs like the International Science and 
        Technology Centers and Bio Redirect to provide more Russian 
        weapons scientists with greater opportunities for collaborative 
        projects with Western counterparts. I have suggested that we 
        should organize Russian biological scientists into a public 
        health corps to clean up dangerous former test sites, develop 
        and produce new vaccines, and defeat multi-drug resistant 
        tuberculosis and other diseases.

    Apart from new proposals, we should also consider new funding 
mechanisms. Senator Lugar and I have worked to develop the authority 
for the President to offer ``debt-for-nonproliferation'' swaps to the 
Russian Federation. In exchange for our forgiveness of part or all of 
the Russia's official Soviet-era debt obligations to the United States, 
Russia would in turn use these proceeds for mutually agreed 
nonproliferation programs. It is our hope that a U.S. offer along these 
lines will encourage similar initiatives on the part of our European 
allies, who carry the vast majority of Russian debt.
    Let me clarify one issue. When I refer to Russia as having one-stop 
shopping for weapons of mass destruction, I do not mean to slander the 
Russian government or the Russian people. Frankly, I think we have been 
very lucky that the overwhelming majority of Russian scientists and 
military officers are real patriots and recognize the perils of 
cooperating with foreign governments and terrorist groups. Given the 
economic misery and porous security in Russia over the past decade, we 
should all be grateful that large-scale defections of materials or 
personnel to foreign nations have not occurred. With our help and 
assistance, the Russians are mounting a noble effort to keep a tight 
noose on weapons of mass destruction. Both we and they can do more, 
however, and al-Qaeda's efforts are a reminder that we must do more.
    At the same time, I am glad the Administration is engaged in a 
frank dialogue with Russia on the need to curb its cooperation with 
Iran in the nuclear and missile fields, which do raise serious 
proliferation concerns. That conversation must continue, and I am 
hopeful the United States and Russia can reach some initial 
understandings before next month's meetings between the two Presidents.
    Our first witness today will be the Honorable William S. Cohen, the 
former Secretary of Defense and a former member of this body for 
eighteen years. In 1974, Time Magazine singled out Bill as one of 
``America's 200 Future Leaders.'' I think the past quarter of a century 
has borne out the wisdom of that prediction. As Secretary of Defense in 
the last Administration, Bill was among the first to recognize the 
likelihood of a potential terrorist attack against the U.S. homeland 
involving a nuclear, chemical, or biological weapon. He has worked with 
Russian leaders on the implementation of Nunn-Lugar programs. I look 
forward to his insights on how we can move to the next level of 
cooperation.
    Dr. Siegfried ``Sig'' Hecker, a Senior Fellow at the Los Alamos 
National Laboratory, and Dr. Constantine Menges, a Senior Fellow at the 
Hudson Institute, will appear on our second panel. Dr. Hecker served as 
Director of the Los Alamos lab from 1985 to 1997 and participated in 
some of the initial ``lab-to-lab'' exchanges between the United States 
and Russia during the early 1990s. Last summer, Dr. Hecker published an 
article on ``An Integrated Strategy for Nuclear Cooperation with 
Russia'' and offered a number of intriguing proposals. I hope that Dr. 
Hecker will expand on these proposals and give us a sense of which 
ideas deserve immediate action in the next year. Dr. Constantine Menges 
has previously served as a Professor at the George Washington 
University, where he directed the Program on Transitions to Democracy 
and initiated a project on U.S. relations with Russia. He has also 
served on the National Security Council and as a National Intelligence 
Officer.
    With that, I turn to our ranking member for today, Senator Lugar.

    The Chairman. Excuse me. Let me yield to the Senator from 
Indiana for a statement.
    Senator Lugar. Well, thank you very much, Mr. Chairman, for 
your comments about Cooperative Threat Reduction.
    I join the witnesses that we saw last year, Senator Baker 
and Lloyd Cutler, believing that the No. 1 national security 
threat facing our country is the proliferation of weapons of 
mass destruction and their means of delivery.
    The problem we face today is not just terrorism. It is the 
nexus between terrorists and these weapons of mass destruction. 
There is little doubt that Osama bin Laden and al-Qaeda would 
have used those weapons of mass destruction on September 11, if 
they had possessed them. It is equally clear that they made an 
effort to obtain them.
    Victory in this war must be defined not only in terms of 
destroying terrorist cells in this or that country. We must 
also undertake the ambitious goal of comprehensively preventing 
the proliferation of weapons of mass destruction. For many 
years, I and others have promoted the concept of a multi-layer 
defense. And this first layer of defense must target the most 
likely source of proliferation, namely, as you pointed out, Mr. 
Chairman, the former Soviet Union.
    Efforts to prevent the leakage of weapons of mass 
destruction from falling into the hands of rogue nations and 
terrorist groups are cheaper and more effective than responses 
after transfer. Nevertheless, we must also prepare for the 
leakage of these dangers and their possible use against 
American targets. This requires us to prepare to interdict 
weapons and materials abroad and at our borders and respond to 
an attack here at home through consequence management efforts.
    Finally, I believe a complete defense must include missile 
defenses. I have spent considerable time over the last decade 
working to advance this multi-layer defense. In 1991, with 
former Senator Sam Nunn of Georgia, we introduced the Nunn-
Lugar Cooperative Threat Reduction legislation. The program was 
designed to assist the states of the former Soviet Union in 
dismantling weapons of mass destruction and establishing 
verifiable safeguards against their proliferation.
    For more than 10 years, Nunn-Lugar has been the country's 
principal response to disintegration of the custodial system 
guarding the Soviet weapons legacy. Nunn-Lugar has also been 
used to upgrade the security surrounding dangerous substances 
and to provide civilian employment to tens of thousands of 
Russian weapons scientists. Unfortunately, complete Russian 
accountability and transparency in the chemical and biological 
arena has been lacking. And this has resulted in the 
administration's request for a waiver for a certification 
requirement that Russia is committed to arms control goals.
    This has led to a freeze on new dismantlements and 
nonproliferation projects in Russia. This is a dangerous 
situation. I am hopeful the Congress will quickly respond by 
granting this waiver on the supplemental appropriation bill. 
But we must also be clear with Russia that full transparency 
and accountability must be forthcoming with respect to former 
Soviet stockpiles of weapons of mass destruction.
    Last month I introduced legislation to permit and 
facilitate the Secretary of Defense's use of Nunn-Lugar 
expertise and resources when nonproliferation threats around 
the world are identified. Beyond the former Soviet Union, Nunn-
Lugar-styled programs aimed at weapons and dismantlement and 
counter proliferation do not exist. The ability to apply the 
Nunn-Lugar model to states outside the former Soviet Union 
would provide the United States with another tool to confront 
the threats associated with weapons of mass destruction.
    My bill is designed to empower the administration to 
respond to both emergency proliferation risks and less urgent 
cooperative opportunities to further nonproliferation goals. 
The precise replication of the Nunn-Lugar program will not be 
possible ever.
    And clearly, many states will continue to avoid 
accountability. When nations resist, other options must be 
explored. When governments continue to contribute to weapons of 
mass destruction threats facing the United States, we must be 
prepared to apply diplomatic and economic power, as well as 
military force.
    The experience of Nunn-Lugar in Russia has demonstrated the 
threat of weapons of mass destruction can lead to extraordinary 
outcomes based on mutual interest. No one would have predicted 
in the 1980's that American contractors and DOD officials would 
be on the ground in Russia destroying thousands of strategic 
systems. And if we were to protect ourselves during this 
incredibly dangerous period, we must create new 
nonproliferation partners and aggressively pursue any 
nonproliferation opportunities that appear.
    I believe increasing the administration's flexibility in 
dealing with these threats is the first step down that road. 
And I can think, as you have pointed out, Mr. Chairman, of no 
better witness to those efforts the United States has been 
implementing in the former Soviet Union than former Secretary 
of Defense Bill Cohen.
    Secretary Cohen was personally engaged in these efforts 
throughout his tenure at the Pentagon. He is a great leader, 
and I want personally to thank him for his leadership of these 
vitally important programs. And I join you in looking forward 
to his testimony.
    The Chairman. Thank you. And before we begin, I will ask 
unanimous consent that an opening statement by Senator Helms be 
put in the record at this point, as well as a letter, he has 
asked to be put in the record, a letter he sent to Secretary of 
State Powell.
    [The prepared statement of Senator Helms and letter 
follow:]

               Prepared Statement of Senator Jesse Helms

    Mr. Chairman, I appreciate your scheduling this important hearing 
today; and I appreciate the distinguished witnesses for agreeing to 
come and assist in our evaluating the significant matter of U.S. 
nonproliferation assistance to Russia.
    President Bush has taken many steps during the past year in moving 
the United States toward a new relationship with Russia, and thereby 
beyond the legacy resulting from the confrontation with the Soviet 
Union during the Cold War.
    Since the first Cooperative Threat Reduction project began the 
dismantling of Russia's excess nuclear infrastructure nearly a decade 
ago, there have been numerous successes--missiles destroyed, bombers 
dismantled, submarines disassembled, and nuclear warheads downloaded 
and safeguarded.
    But the success of the Cooperative Threat Reduction program spurred 
expansion into broader areas that, while significant, have been 
nonetheless difficult to verify, such as securing nuclear materials, 
eliminating chemical and biological weapons, and stemming the flow of 
scientific expertise out of the former Soviet Union.
    While all of the Cooperative Threat Reduction programs have 
experienced fraud, waste, and abuse, these newer initiatives also ran 
into a Russian bureaucracy that has consistently denied the United 
States access to essential information, and in doing so gave little 
confidence in the Russians' commitment to reducing the threat of 
proliferation.
    The President has decided--and rightly so--that he cannot certify 
to Congress that Russia is committed to complying with its relevant 
arms control agreements, particularly the Biological Weapons Convention 
and the Chemical Weapons Convention.
    While I happen to believe that nonproliferation assistance programs 
in Russia can benefit U.S. national security interests, we cannot 
direct our energies toward preventing potential proliferation while 
turning a blind eye to the actual proliferation that is ongoing. I am 
referring specifically to Russia's continued nuclear and ballistic 
missile assistance to Iran.
    According to the most recent National Intelligence Estimate, Iran 
is likely to possess an ICBM by mid-decade, and could potentially have 
a nuclear weapon by the end of the decade. This is a chilling prospect.
    At the same time, Russia is providing Iran with advanced 
conventional weaponry that could help Teheran sink U.S. warships and 
shoot down allied planes in the Persian Gulf. Because of Russian aid, 
Iran will soon present a clear and direct threat to the United States 
and to our friends and interests in the region.
    Russian proliferation to Iran is a must among the central issues of 
the upcoming meeting in Moscow between Mr. Bush and Mr. Putin. I have 
recently written a letter to Secretary Powell--which I ask to appear in 
the record of this meeting today. The letter urges the administration 
to put the issue of Russian proliferation to Iran at the top of the 
agenda.
    I look forward to hearing today's witnesses' on these matters, as 
to how we might take action to rectify them.

                              United States Senate,
                            Committee on Foreign Relations,
                                    Washington, DC, April 18, 2002.

The Honorable Colin L. Powell
Secretary of State
Washington, DC, 20520

    Dear Mr. Secretary:

    With the May Summit between Presidents Bush and Putin rapidly 
approaching, I do hope that this meeting will provide the opportunities 
to outline a firm and coherent strategy to stop the proliferation of 
missile technology, nuclear materials and expertise being sent by 
Russia to Iran.
    Additionally, Moscow's reluctance to full compliance with its arms 
control commitments (such as the Biological and Chemical Weapons 
Conventions) raises serious doubts about not only its attitude 
regarding long-term U.S.-Russian relations, but its intentions as well.
    I am confident that you are greatly concerned, as am I, about the 
Intelligence Community reports regarding illicit transfers to Iran 
continuing--if not increasing--despite protests from our government and 
contrary statements by senior Russian officials. I'm confident that you 
saw the National Intelligence Estimate that, unless Russian assistance 
is curtailed, Iran could attempt to launch an ICBM in the next few 
years.
    A similar estimate can be applied to the Iranian nuclear weapons 
program, which also is benefitting from Russian assistance (albeit 
under the cover of peaceful nuclear cooperation).
    Mr. Secretary, I fear that unless all Russian assistance is 
stopped, Iran will present a clear and direct threat to the United 
States (as well as to our friends and interests in the region) through 
the combination of long-range missiles and nuclear warheads.
    Moreover, ongoing reports by the Intelligence Community and 
independent experts, coupled with the Administration's decision not to 
certify that Russia is complying with its arms control commitments, 
gives me great concern about the extent of Russia's biological and 
chemical weapons (BW and CW) research efforts, production facilities, 
and stockpiles.
    Needless to say, I applaud the Administration's wise decisions (1) 
to withdraw from the ABM Treaty and (2) to restructure our nuclear 
forces. I also support the President's desire for a new relationship 
with Russia, so essential to America's security in the 21st Century. 
However, it makes no sense to build missile defenses and more flexible 
strategic forces on one hand, while ignoring the sources of the threats 
we are trying to deter and defend against on the other.
    Similarly, it makes no sense for the United States to fund threat 
reduction programs helping Russia meet her international obligations if 
Moscow continues to pursue illicit WMD programs with freed-up Russian 
funds. Russian proliferation to Iran, and its dangerous BW and CW 
programs, must be central issues at the upcoming summit in Moscow, and 
integral to any agreement reached between our two countries.
    As the United States begins to forge this new relationship with 
Russia, our resolve and commitment to these issues through sound 
policies and strategies employing the full-range of diplomatic and 
economic tools at our disposal irrespective of political exigencies is 
essential.
    Mr. Secretary, a note and/or a telephone call from you should be 
most helpful.
    Kindest personal regards.
            Sincerely,
                                                Jesse Helms

    The Chairman. Did you want to make a brief comment?
    Senator Enzi. May I?
    The Chairman. Please.
    Senator Enzi. Thank you, Mr. Chairman. I would ask that a 
full copy of my statement be made a part of the record----
    The Chairman. It will be.
    Senator Enzi [continuing]. As well as a letter, an 
informational letter, that I handed out.
    I am pleased that you called this hearing. The 
proliferation of weapons of mass destruction, as well as the 
unauthorized sharing of weapons-grade technologies are 
significant threats to national security. As you know, I 
recently visited Russia to discuss export controls and 
nonproliferation. The main objective of my trip was to have a 
new U.S./Russia working group that would expand legislative 
cooperation between our countries, in order to better control 
weapons of mass destruction technology.
    Growing up during the cold war, if anybody would have told 
me that at some point in my life I would sit down across the 
table from Russians and talk about cooperation, I would not 
have believed it. I have done that. We have a letter of 
agreement.
    The main points of the letter are the ones with the bullets 
on them: Improvement of export control legislation and its 
implementation and enforcement in both countries; facilitation 
and reinforcement of the spirit of cooperation between Russia 
and U.S. legislators following the events of September 11, 
2001; creation of an atmosphere of mutual trust and 
understanding between the Russian and U.S. legislators crucial 
for joint resolution international security problems.
    And the letter is not only signed by me, but it is also 
signed by Vladimir Melnikov, who is the Chairman of the 
Committee on Defense and Security of the Federation Council, 
and Nikolay Kovalev, who is the Deputy Chairman of the 
Committee on Security of the State Duma. So I was able to meet 
with both the Duma and the Federation, I had some great 
discussions and I learned a lot.
    We went through our export control legislation, looked at 
the final pieces of the export control legislation they are 
putting together, which are not final pieces, but for them they 
are final pieces. There is a lot of work that needs to be done. 
If we sell items that have dual use technologies and we keep 
them out of the hands of bad actors, but the Russians do not, 
we do not have security. And they recognize that.
    Of course, the way the Russians put it is that if they have 
technologies that they keep out of the hands of bad actors, but 
we sell, the world is not safe either.
    We also talked about deemed exports. And I was fascinated 
to learn that they have 20 closed cities over there. These 
closed cities house 30,000 nuclear physicists, engineers, and 
scientists, who are not allowed to leave those cities. And for 
us to visit or anyone else to visit those cities, you have to 
apply at least 2 months in advance for a visa, and it has to 
fit into a 2-year plan of visitations to those places.
    But they have 30,000 engineers that are interested in 
getting into the new economy. And there are countries around 
the world with their hands outstretched to receive these 
nuclear armament engineers to do work for them. And it presents 
a tremendous challenge for us and the Russians to make sure 
that those people, the people, do not fall into the wrong 
hands, let alone the weapons, let alone the weapons technology 
and all of the parts that go with that. I found that to be one 
of the most scary things that I ran into over there.
    I also sat down and visited with some small businessmen, 
small businessmen that could be employing some of those same 
people. But I have to tell you: Russia has a long way to go yet 
for free enterprise. But I think that as fascinated as I was in 
talking with the Russians, these people were pretty fascinated 
to be talking to a Western capitalist about free enterprise.
    The Chairman. From Wyoming.
    Senator Enzi. Yes, from Wyoming.
    And small business over there, I think, hold some of the 
answers to these closed cities, but the answers include some of 
the need for export controls. We also talked about some of the 
inventions they are working on, one of which is a floating 
nuclear reactor that would be put at Vladivostok. And if you 
think about the tsunamis and typhoons that could hit that and 
some of the dangers that could be prevalent in it, we have a 
lot of things that we need to talk about. But I am glad that we 
established some realm of cooperation there.
    I would like for my full statement to be in the record.
    The Chairman. The entire statement will be placed in the 
record.
    [The prepared statement of Senator Enzi and informational 
letter follow:]

             Prepared Statement of Senator Michael B. Enzi

    Mr. Chairman, I am very pleased you called this hearing. The 
proliferation of weapons of mass destruction as well as the 
unauthorized sharing of weapons-grade technologies are significant 
threats to our national security. As you may know, I recently visited 
Russia to discuss export controls and nonproliferation. I believe 
today's hearing is timely and an important issue for the Committee to 
address. As we all know, nonproliferation is not a new issue and 
neither are the threats posed by unsafe and unsecure nuclear 
technologies.
    The main objective of my trip was to form a U.S.-Russia working 
group that would expand legislative cooperation between our countries 
in order to better control the transfer of weapons of mass destruction 
technology.
    I am pleased to share with everyone on the Committee a copy of the 
agreement signed by the Chairman of Russia's Federation Council 
Committee on Defense and Security and the Deputy Chairman of the State 
Duma Committee on Security. It is my hope that our agreement to form a 
joint working group will help maintain an open dialogue between our 
countries. As you will note in the agreement, Russian officials do 
recognize the threat posed to international security by terrorism and 
the need for more effective export control regulations.
    I believe if both the United States and Russia produce an item that 
can be detrimental and aid proliferation and only one of the countries 
restricts its sale, countries who are bad actors can wind up with 
dangerous items. I have been working on the reauthorization of the 
Export Administration Act (EAA) which would modernize our export 
controls. Russia recently adopted its own export control law to 
regulate the transfer of certain technologies. Russian officials, 
however, have had problems implementing and enforcing many aspects of 
their export controls legislation. With EAA pending in the U.S. House 
of Representatives and Russians unable to implement their legislation, 
it is imperative that the United States enact its own legislation and 
work with Russia to control the export of items designed for civilian 
use, but which can have military applications.
    While in Russia, I traveled with a highly intelligent professor 
from the University of Georgia in Athens, Mr. Igor Khripunov. Mr. 
Khripunov is an expert in international trade and security. When 
discussing the status of the military and related technologies, Mr. 
Khripunov points out that, ``This desperate situation is caused not 
only by underfunding and economic dislocation, but also by lack of 
motivation and moral values that were supposed to replace the communist 
ideology.'' The situation faced by Russia after the fall of the Soviet 
Union, combined with the low moral values of those seemingly in charge 
of Russia's military technologies, led to a very dangerous status for 
nuclear safety and security.
    While I am very pleased that Russian legislators see the need to 
deal with export controls, cooperation in this one area will not 
address all of the threats posed by weapons of mass destruction. The 
threats come in a variety of areas and threaten international safety 
and security in a number of ways.
    One such threat is the lack of qualified people to handle nuclear 
technologies. Each year, both the United States and Russia have fewer 
and fewer nuclear engineering schools. This leaves both our countries 
with fewer and fewer experts who can help us address the permanent 
threats created by having nuclear technologies. We need to have people 
highly educated in nuclear engineering to work on the safety of the 
nuclear facilities and the security of the nation. In the United 
States, we can begin developing programs where students receive funding 
for school in exchange for working for the U.S. Department of Energy or 
the National Security Council. We have the opportunity and the ability 
to create and re-enforce an educated group of experts whose knowledge 
and experience will help protect our nation.
    In Russia, the continued isolation of the so-called ``closed 
cities'' creates another security threat. Scientists and experts in 
these cities do not currently have opportunities to advance their 
ideas. By offering these experts a business opportunity, their 
knowledge can be utilized to achieve better economic possibilities. 
Small business development should be brought to these Russian cities to 
encourage the scientists to use their ideas to enhance their personal 
economic status and their families' well being. It would also prevent 
the experts from seeking employment or support from a party that should 
not have access to their knowledge.
    This brings up another significant threat to international 
security: the sharing of highly sensitive nuclear information and 
machinery with nations who pose a threat to international stability. 
Our view on many countries differ from the Russian view. Based on our 
cloudy history, we cannot be surprised. We cannot, however, sit back 
and allow dangerous technologies to be shared with adversarial nations. 
Again, only by working with our Russian counterparts to encourage 
Russian scientists to remain in Russia and not share information with 
rogue nations, can we help ensure the technologies will not be given 
away.
    As non-proliferation is discussed, we must also address recent 
missile-defense related issues. To address the threats of the 21st 
century, we need a new concept of deterrence that includes both 
offensive and defensive forces. Today, the list of countries with 
weapons of mass destruction and ballistic missiles includes some of the 
world's least responsible nations. These nations seek weapons of mass 
destruction to intimidate their neighbors and to keep the United States 
and other responsible nations from helping allies and friends in 
strategic parts of the world. When rogue nations such as these gain 
access to this kind of technology, it illustrates just how important it 
is for us to protect our nation and our troops abroad. In the less 
predictable world of the 21st century, our challenge is to deter 
multiple potential adversaries not only from using weapons of mass 
destruction, but to dissuade them from acquiring weapons of mass 
destruction and missiles in the first place.
    I believe that the limited national missile defense system that the 
United States is contemplating is not aimed at the Russian offensive 
capability. The U.S. has been willing to provide Russia with 
information about what our thinking is, what our development prospects 
have been for missile defense, and also to engage them in cooperative 
kinds of activities, because in many respects, the threats that the 
United States is concerned about from rogue states are threats that are 
likewise faced by Russia.
    I support President Bush's willingness to work with Russia to craft 
a new strategic framework that reflects our nations' common interests 
and cooperation. I believe the new strategic framework should be 
premised on openness, mutual confidence, and real opportunities for 
cooperation, including the area of missile defense. This framework 
should allow both countries to share information so that each nation 
can improve its early warning capability and its capability to defend 
its people and territory. Furthermore, the framework should focus on 
cooperation to strengthen and enlarge bilateral and multilateral non- 
and counterproliferation measures.
    I believe these missile defense capabilities are not an alternative 
or substitute for traditional deterrence, but rather an essential means 
to enhance deterrence against the new threats of today, not those of 
the past.
    While much press has been given to missiles and military 
technology, some threats to international security can come from 
seemingly domestic areas, like energy. As we all know, the energy 
debate in the United States has been highly contentious. Representing a 
state like Wyoming with many natural resources, I was very curious 
about Russia's energy future. Coal, which is a staple of Wyoming's 
economy, has been a substantial part of Russia's energy resources. 
While the United States considers technologies like clean coal, I was 
shocked when the Russian representatives informed me of the 
possibilities of how to address Russia's future energy needs. In areas 
like Vladivostok, they are considering using floating reactors! Imagine 
the safety and security issues of such a energy source. The reactors 
would literally float in the dock of Vladivostok.
    This example is a prime reason the United States must remain 
actively involved with our Russian counterparts on the issue of non-
proliferation. If the Russian government can find no way, other than 
floating nuclear reactors, to address its energy needs, the United 
States and the international community must be prepared to help.
    The United States had been involved in Russia attempting to halt 
the dissemination and proliferation of nuclear knowledge. There is, 
however, much more to be done. In their Annual Report to Congress, the 
National Intelligence Council noted, ``Through Cooperative Threat 
Reduction Program and the U.S. Department of Energy's Material 
Protection, Control, and Accounting Program, the United States 
continues to assist Russia in improving security at nuclear 
facilities.'' Unfortunately, upon my return from Russia, I found out 
that all new program funding from the United States is being held until 
certification of Russia's compliance with the Cooperative Threat 
Reduction Program. While I understand the need for cooperation 
certification and I applaud the State Department for doing its job, I 
do not think this is the appropriate time to send this message to the 
Russian government. According to the State Department, Congress passed 
the legislation for the Cooperative Threat Reduction Program without 
including a presidential waiver. I hope my colleagues will support the 
presidential waiver included in the President's fiscal year 2002 
emergency supplemental appropriations legislation. I also hope 
President Bush and the State Department will take all available steps 
and find a way to certify Russia's cooperation as soon as possible.
    As President Bush prepares to travel to Moscow in May, I know non-
proliferation will be an issue high on the agenda. It is my hope that 
as a legislative body, we can continue to support the President's 
efforts while also addressing the threats of proliferation with our 
Russian counterparts. Thank you, once again, Mr. Chairman, for your 
willingness to discuss this threat to our national safety and 
international security.

                              Senator Michael Enzi,
                                      United States Senate,
                                             Moscow, April 5, 2002.

                          Informational Letter

    The Russian and U.S. parties recognize the grave threat to 
humankind posed by militant religious extremists, nationalistic 
terrorist organizations, and criminal groups seeking to obtain weapons 
of mass destruction (WMD). Of particular concern to the modern world is 
the emergence of international terrorism. One of the key elements in 
combating this threat is effective export controls in conjunction with 
international cooperation and enhancement to the existing WMD 
nonproliferation regimes.
    The meetings conducted between Vladimir Melnikov, Chairman of the 
Committee on Defense and Security of the Federation Council, Nikolay 
Kovalev, Deputy Chairman of the Committee on Security of the State Duma 
(Russian Federal Assembly), and U.S. Senator Michael Enzi, point to a 
similarity in the positions of the two countries on a range of issues 
regarding WMD nonproliferation, export controls, and strengthening 
international stability.
    As a result of the exchange of opinions, the parties have reached 
an understanding of the need to pursue further discussions among 
representatives of both countries' legislative bodies involving, if 
necessary, representatives of the executive branch, non-governmental 
organizations, and industry, regarding the following:

  <bullet> Improvement of export control legislation and its 
        implementation and enforcement in both countries;

  <bullet> Facilitation and reinforcement of the spirit of cooperation 
        between the Russian and U.S. legislators following the events 
        of September 11, 2001;

  <bullet> Creation of an atmosphere of mutual trust and understanding 
        between the Russian and U.S. legislators, crucial for joint 
        resolution international security problems.

    In accordance with the above, the parties consider strengthening 
and enhancing ties between the legislators of the Russian Federation 
and the United States of America, and participation of representatives 
of the executive branch and nongovernmental organizations to be long-
warranted and urgent, and agree on joint meetings and negotiations 
seeking positive solutions in combating international terrorism and WMD 
proliferation, as well as in cooperation for the development of 
legislative and normative mechanisms for advanced technology transfers.

                               Vladimir Melnikov, Chairman,
                                 Committee on Defense and Security,
                                                Federation Council.

                          Nikolay Kovalev, Deputy Chairman,
                                             Committee on Security,
                                                        State Duma.

                                              Michael Enzi,
                                             United States Senator.

    The Chairman. And I must say to you, Senator, I am really 
personally enthused with your interest and passion in this and 
your work. And I thank you for it.
    Bill.

    STATEMENT OF HON. WILLIAM S. COHEN, FORMER SECRETARY OF 
  DEFENSE, CHAIRMAN AND CHIEF EXECUTIVE OFFICER OF THE COHEN 
                     GROUP, WASHINGTON, DC

    Mr. Cohen. Mr. Chairman, first of all, thank you for 
inviting me to testify, Senator Lugar, Senator Enzi. I regret 
that Senator Helms is not here, because I wanted----
    The Chairman. He sincerely wanted to be here, but he is 
unable.
    Mr. Cohen. I know that to be the case. I had hoped to see 
him.
    This is the first time I have had a chance to testify 
before this committee since leaving public office myself. It 
may be the last opportunity I will have before he enters the 
private world with me.
    But I wanted to say, at least for the record, how much I 
enjoyed my service with Senator Helms, both as a Senator but 
also when serving as Secretary of Defense. I know that most 
people in this body understand that he is a man of great 
tenacity. What many may not understand is that he is also a man 
of great gentility. And I think he has treated this institution 
with the reverence it certainly deserves.
    And I know that everyone who has ever served with him would 
understand what contribution he has made, even though we did 
not always agree, for example. He always deferred to each and 
every one of us with great consideration for our roles and our 
rights.
    And I can tell you, as one of his colleagues, I used to 
have that spinal shiver whenever he stood up on the floor and 
said, ``This Senator sends an amendment to the desk and asks 
for its immediate consideration.'' We never quite knew what it 
was going to be, but we knew it would be strongly debated.
    In any event, Mr. Chairman, again I thank you.
    I would like to say also something else for the record 
about the Chairman. His devotion to this issue is not something 
of mere passing concern. Along with Senator Lugar, I would 
indicate that Joe Biden goes back a very long way. And I cite a 
personal experience, which I have not discussed before. And it 
goes back to 1984, when I worked with Senator Nunn when I was a 
member of the Senate Armed Services Committee and helped 
develop something called the Guaranteed Nuclear Build-down.
    I published an article, along with Senator Nunn, in the 
Washington Post. President Reagan endorsed the concept 
immediately. And then I set off to go to Moscow to try and 
persuade the Soviet counterparts, so to speak, that this was 
the way in which we should proceed into the future as far as 
modernizing our nuclear forces while reducing the levels that 
we had in our respective inventories.
    I did not really want to go alone, because it would look as 
if it was simply a Reagan Republican initiative that would be 
immediately rejected by the Russians--or the Soviets, I should 
say. I went to Senator Biden. And even though he had a 
commitment in Wilmington, Delaware, within 24 hours, he 
immediately agreed to fly to Moscow overnight, attend the 
meetings just so he could represent to the Soviet 
representatives that this was not a partisan issue, that this 
was an issue that affected certainly our countries, but most 
certainly our respective parties.
    After flying all night to go to that meeting, he turned 
around and kept his commitment to his constituents in Delaware.
    And it is something, Mr. Chairman, that has stayed with me 
in terms of your long-standing devotion to this issue. So when 
you called to invite me to testify, I would never hesitate.
    All of you have already summarized the need for my 
testimony. Frankly, I would submit it for the record and try to 
summarize it very quickly, because I know that you have a vote 
scheduled, I believe, at 11:15. And I will try to just 
summarize them and----
    The Chairman. But you know the Senate. That could be two.
    Mr. Cohen. It could. And there could be back-to-back 
amendments, and we would never get back.
    So I will try to summarize. I know you have several witness 
to follow me.
    On the Cooperative Threat Reduction Program, I think it is 
perhaps the premier issue that we have to address today. The 
levels of nuclear, biological, and chemical weapons available 
throughout the world, but most particularly in the former 
Soviet Union, are truly staggering.
    And when you think about one of the initial successes of 
the Nunn-Lugar legislation, the fact that nuclear weapons were 
eliminated from three former Soviet republics, in Belarus, in 
Ukraine, in Kazakhstan, it is naturally assumed that, taken as 
a given, this was an inevitable result of the breakdown of the 
Soviet Union. It was not. And it was Nunn-Lugar who led the 
effort in eliminating these weapons from these three countries.
    And I have laid out in my testimony the option of thinking 
about what the world would look like if that had not occurred. 
And I will not take the time here this morning to elaborate on 
it. But I think all of us would understand that the world might 
be somewhat different, and there might be greater tensions were 
it not for Nunn-Lugar and the impetus it gave to eliminating as 
much of the nuclear stockpile as we could under those 
circumstances.
    You pointed out the numbers are pretty clear, Mr. Chairman, 
500 air launch cruise missiles, 400 ICBMs, 300 submarine launch 
ballistic missiles, 200 nuclear tunnel tests, and 100 long-
range bombers. Those are very significant numbers. But there is 
a lot more that needs to be done. And I think September 11 has 
focused our attention on this with greater and greater 
intensity.
    Al-Qaeda is dedicated to acquiring weapons of mass 
destruction. Osama bin Laden has made that very clear. As you 
know, during my tenure in the Clinton administration, we 
launched an attack upon some terrorist camps in Afghanistan 
back in 1998. We killed a number of terrorists. We missed Osama 
bin Laden.
    We also hit a facility, the Shifa facility, in Khartoum. 
And I know that there were a number who questioned the 
advisability of that. But there was no doubt in my mind and no 
doubt in the minds of other policymakers that Osama bin Laden 
was dedicated then, as he is now, to acquiring chemical, 
biological, indeed even nuclear, materials. And so we struck 
that plant, as well as the striking of the terrorist camps at 
that time.
    And I think that since that date it has become even more 
imperative that we intensify our efforts to reduce the amount 
of nuclear, chemical, and biological materials that would be 
available to these terrorist groups, because they know that the 
fastest route to acquiring them is not to develop them 
indigenously and not necessarily to link up in some kind of a 
partnership with a country, but basically to buy them or steal 
them.
    And you have material in the former Soviet Union. You have 
as much as 1,000 metric tons of highly enriched uranium. You 
have anywhere from 150 to 200 metric tons of plutonium. And it 
is a fairly frightening prospect, when you think about the 
levels of security, or lack thereof, in the former Soviet 
Union, when these materials might be easily obtained by al-
Qaeda or by other terrorist groups.
    And if you read the Washington Post this morning, you will 
see that there is a discussion on one of the more recent people 
who have been apprehended that that is indeed what they have in 
mind, is to explode a radiation bomb, as such, and to kill as 
many Americans as they possibly can through the use of that 
kind of device. So it is important that we continue the 
Cooperative Threat Reduction Program.
    I also think it is important that we not link it to other 
issues. And I know, as one who has served in this body, how 
important human rights, the human rights issue, is. But the 
first human right in my judgment is that we have a right to 
life. And the second one is that we have the right to expect 
that we live in liberty.
    But the notion that we would tie this particular program 
inextricably to the human rights issue or a failure on the part 
of Russia to live up to our standards to an exacting degree, I 
think puts us in a position of jeopardizing the continuation of 
the lives of thousands, if not millions, of people.
    So I would hope that we would not tie the Cooperative 
Threat Reduction Program inextricably to our insistence on 
human rights. We still should insist upon human rights whenever 
we can, but that should not be the dispositive issue when you 
are dealing with something of mass casualties on a fairly wide 
basis, and perhaps even globally.
    No. 2, we should try to keep the program as flexible as 
possible, to give the Secretary of Defense as much flexibility 
as you can consistent with maintaining proper oversight 
responsibilities.
    I know, Senator Enzi, you come from a background in which 
you look at numbers. And you have a very scrutinizing eye in 
terms of the disposition of assets and so forth. We should look 
very carefully at how these funds are used.
    But I think the need for greater flexibility is also in 
order. And there were many times when I was serving as 
Secretary of Defense that I felt the constraints legislatively 
placed upon the discretion actually imposed greater hardship 
and put us more in jeopardy by not having that kind of 
flexibility.
    I think other approaches that have been suggested, such as 
debt forgiveness, also is very important, again looking at ways 
in which we can be as creative as possible to encourage the 
Russians to help dispose of those materials or to secure them.
    And the use, as Senator Lugar has proposed, even beyond 
Russia--there may be circumstances in which there are other 
countries where these nuclear materials or chemicals or 
biologicals may be present. And the Secretary of Defense would 
need some flexibility in responding to an emergency type of 
situation and then, of course, responding to Congress, again in 
its oversight capacity.
    Mr. Chairman, let me conclude by simply pointing out that 
the clock is ticking. This is not an overly dramatic statement, 
certainly, by me. I could go back and point to some fiction 
writing, you know, ``one minute before midnight.'' It is 1 
minute before midnight, if you think in terms of historically 
and the universal clock, and it is ticking.
    We do not have a lot of time in which to reduce the nature 
of the threat that is out there. And every moment that we 
hesitate, every moment that we fail to do whatever we can to 
reduce the amount of nuclear materials, chemical, biological, 
in existence, we come closer to that kind of armageddon that we 
all want to avoid.
    We know that there are groups that we do not know about who 
have great ambitions and grave intentions. And I think 
September 11 taught us that a known enemy can hit us in 
unexpected ways. But the apocalyptic cult Aum Shinrikyo and the 
American terrorist, Timothy McVeigh, they taught us that 
totally unknown enemies can be lurking in our midst, pursuing 
evil on a massive scale.
    And one of the most striking things about the Aum Shinrikyo 
is that it built an international network of financing and 
technical experts in Japan, in Russia, in the United States, 
and elsewhere. They raised over $1 billion, and they pursued 
nuclear, biological, and chemical weapons. And yet we only 
became aware of the group after the second chemical attack.
    So those who seek to harm us on a massive basis, they know 
that the quickest route, once again, is to gain a capability 
lying in the disorder and even the poverty or destitution that 
still characterizes much of the Russian establishment 
responsible for securing those nuclear weapons and that 
material that is biological and chemical.
    And this makes it incumbent on us to spare no effort to 
stop them. And we do not have a moment to lose, Mr. Chairman.
    [The prepared statement of Mr. Cohen follows:]

   Prepared Statement of Hon. William S. Cohen, former Secretary of 
     Defense, Chairman and Chief Executive Officer, The Cohen Group

    This is the first time I have appeared before this committee since 
leaving office, and it will probably be the last time I do so before 
Senator Helms joins me as a private citizen. Senator Helms has had a 
remarkable career. Few people have exercised the powers of a Senator 
with greater influence on U.S. policy for the things in which he 
believed. The world knows well that he has been tenacious. But few 
outside this institution have appreciated that even more than 
tenacious, he has been gracious. While we have not always agreed with 
each other on substance, he has always been a gentleman of civility who 
has respected his colleagues and the important role of this 
institution.
    After he retires from this body, many who share his views will miss 
him for his passionate and effective advocacy of his beliefs. Others 
who have differing views will miss him for agility and wit in debate. 
But all of us who have had the opportunity to call him ``my dear 
colleague'' will miss his personal warmth and gentlemanly spirit that 
he displayed to us day in and day out when we served together.
    I appreciate the opportunity to appear before you to discuss what 
is perhaps the premier national security issue facing our country: as 
President Bush and Senator Lugar have put it, keeping the world's most 
dangerous weapons out of the hands of the world's most dangerous 
people.
    While our counter-proliferation and counter-terrorism efforts have 
many facets, a key one has been the Nunn-Lugar Cooperative Threat 
Reduction program.
    History will view the CTR program as one of the most successful 
defense programs our Nation has ever undertaken.
    It has facilitated the complete denuclearization of Belarus, 
Ukraine, and Kazakhstan, something that is frequently noted but almost 
universally under-appreciated because it is taken as a given, an 
inevitability. But it was not inevitable. At the time, there were 
voices in those countries, and even prominent voices in the U.S., 
calling for those countries to retain the nuclear arsenals on their 
soil.
    Imagine what the world would be like if Mr. Lukasheriko were in 
possession of a small nuclear arsenal. Or that, in the wake of the 
Indian and Pakistani nuclear tests, Kazakhstan had decided that it 
needed to maintain and modernize a nuclear force. Or that the periodic 
bouts of political and economic tension between Moscow and Kiev had 
occurred in the shadow of nuclear tensions.
    Would the world be a safer place? Would our efforts to stem the 
proliferation of weapons of mass destruction have been enhanced or 
undermined? Would Russia's internal political situation have developed 
with greater or lesser trouble than has been the case, with extreme 
nationalism an ever stronger force?
    I think the answer is in each case is that American security 
interests would be worse off, possibly much worse.
    And all of this is beyond the straightforward calculation that the 
CTR program has helped to destroy:

  <bullet> nearly 500 nuclear ALCMs;

  <bullet> over 400 ICBMs;

  <bullet> nearly 300 SLBMs;

  <bullet> nearly 200 nuclear test tunnels; and

  <bullet> nearly 100 long-range bombers.

    As a result of this unprecedented destruction of nuclear delivery 
vehicles, thousands of nuclear weapons that had been aimed at America 
have been deactivatated.
    And programs are moving forward to securely store both nuclear 
weapons and fissile materials, as well as reduce the risk that 
scientists and others with technical expertise in nuclear, biological 
and chemical weapons are not enticed to sell their skills to those 
seeking such weapons.
    The importance of this last point has been highlighted by September 
11. We have known for some time that terrorist groups, including al 
Qaeda, have been seeking WMD capabilities.
    I and my colleagues who served in the Clinton Administration 
discussed this at length when we attacked a terrorist leadership 
meeting in Afghanistan, killing a number of terrorist operatives and 
very nearly killing Usama bin Laden, and destroyed the al Shifa 
facility in Khartoum, which we believe had links to both Usama bin 
Laden and to the Iraqi chemical weapons program. Not everyone listened.
    But such wishful thinking is not possible after September 11 and 
after American troops found al Qaeda documents confirming their desire 
for such weapons.
    Enemies of the United States, both countries and terrorist groups, 
are working hard to lay their hands on weapons of mass destruction, and 
particularly in the case of terrorist groups there is no doubt that 
they would use them. Those pursuing these weapons know that the fastest 
route to obtaining them is to acquire weapons or weapon materials from 
the enormous stockpiles that still sit in Russia and other countries of 
the former Soviet Union, or to hire technical experts from the former 
Soviet Union, large numbers of whom continue to struggle to care for 
their families and face great temptation to sell their talents to the 
highest bidder.
    In this sense, ensuring a flexible, well-funded CTR program is 
among the most important responses we can make to the tragedy of 
September 11.
    Before I am accused of being a member of the choir, let me note 
that I have not been an uncritical supporter of the Nunn-Lugar program. 
In fact, a few of you may recall that the original Nunn-Lugar program 
was rejected in the Senate Armed Services Committee when it was first 
proposed in 1991, and that I was among those opposing the original 
version at that time.
    One reason was that it would have provided job training and housing 
benefits to Soviet officers at a time when such benefits were not being 
provided to American military personnel being released from service in 
the biggest U.S. military drawdown since Vietnam. Another reason was 
that I felt there were inadequate assurances that U.S. assistance to 
the Russian nuclear weapons establishment would not simply serve to 
subsidize ongoing Russian nuclear weapon programs.
    After revising the proposal to address these concerns, we adopted 
the Nunn-Lugar CTR legislation.
                    do not link ctr to other issues
    I still believe care is needed to assure ourselves that our CTR 
assistance is being used to reduce the threat, and well-drafted 
legislative conditions can contribute to that. At the same time, we 
should recognize that so long as the CTR program is fulfilling its 
mission of reducing the threat of weapons of mass destruction, then 
they are in our national interest--and we only harm ourselves if we 
condition CTR assistance on Russian behavior in other areas.
    While Russian behavior on human rights, Russian actions in 
Chechnya, Russian debt repayment and many other issues merit our 
attention, it would be contrary to our own interests to withhold CTR 
assistance if Russian behavior in these other areas falls short of what 
we would like.
    A fundamental fact is that CTR is a U.S. defense program, it is not 
foreign aid. That is why the Defense Department has supported funding 
much of it within the ``050'' budget function for national defense. It 
is why the Bush Administration, after a careful review of the program, 
has wholeheartedly endorsed it.
                   the need for flexible authorities
    Similarly, while Congress has the responsibility to oversee how 
these funds are spent, excessive restrictions can interfere with the 
effectiveness of the program, and in doing so may pose a threat to our 
security.
    Secretary Rumsfeld has complained about the limited flexibility the 
Secretary of Defense has in managing defense programs due to legislated 
constraints. I am not unsympathetic to his concern. There were 
certainly times when I would have liked greater flexibility to deal 
with emergency situations.
    All too often, DOD leaders find themselves forced to combine funds 
from scattered small pots of money to meet critical national security 
requirements, sometimes to the anxiety of department lawyers.
    DOD has repeatedly sought greater flexibility in managing the CTR 
program and for various counter-terrorism efforts. I would urge the 
Armed Services Committees and Congress to give favorable consideration 
to such proposals, while safeguarding the Senate's understandable 
concern that these funds not be diverted to other purposes.
    Also, I would urge support for Senator Lugar's legislation to 
expand the scope of the CTR program to activities in countries outside 
the former Soviet Union when the Secretary of Defense believes it 
appropriate. This would be especially valuable in urgent situations 
requiring immediate action, where it might be difficult to cobble 
together the necessary authority and funding in time. But it also would 
be useful in less urgent situations.
    One of the things that has become apparent in recent years is the 
invalidity of the old proliferation model of either indigenous 
development or direct sale from one country to another. Instead, just 
as development and supply chains of legitimate industry have 
globalized, so have they for WMD and missile proliferation.
    A missile program in a rogue state, for example, might involve a 
complex web of technical assistance and missile equipment coming from 
several countries, both former Soviet and non-Soviet countries, all 
aiding an indigenous development effort in exchange for cash, access to 
missile test data to support the suppliers own missile programs, or 
even reciprocal assistance on WMD weapon programs.
    We should seize any opportunity to punch holes in this complex 
supply chain, whether the opportunity presents itself in former Soviet 
countries or elsewhere. And so I strongly encourage you to act upon 
Senator Lugar's bill and, in doing so, provide as much flexibility as 
possible to the Administration without compromising your oversight 
responsibilities.
    Finally, I would urge an open mind to other, perhaps more 
controversial, approaches intended to enhance the security of Russian 
nuclear weapons and nuclear material and other WMD. Senator Biden, with 
Senator Lugar, has proposed a structure to forgive debt if it resulted 
in greater funding for such material security efforts. The Russian 
Energy Ministry, the Clinton Administration and others worked on a 
concept in which Russia would establish an international spent nuclear 
fuel repository provided that the revenues would fund efforts to 
protect nuclear weapon material.
    While I am not in a position to discuss such ideas in detail, I 
believe that we should not rule out anything out of hand if it could be 
structured in such a manner as to significantly increase the safety and 
security of WMD materials.
                               conclusion
    The CTR program represents a race against the clock, but a rather 
peculiar one in which we do not know all the players or the rules by 
which they are playing and we do not know how much time remains before 
someone who wishes us ill obtains WMD capabilities. But what we do know 
is that there are enemies of America diligently seeking to acquire 
nuclear, radiological, chemical and biological weapons and that they 
would not hesitate to use such weapons on the American people.
    We know that Usama bin Laden and al Qaeda have actively sought such 
capabilities and have threatened to use them if they acquire them.
    We know that there are other extremist Islamist terrorist groups 
hostile to the U.S. that will seek to fill the void as al Qaeda is 
dismantled.
    We know that others, whether we call them ``rogue countries'' or 
``states of concern,'' have pursued such capabilities for decades, and 
in some cases, are willing to sell any capability they may have to the 
most attractive bidder.
    And we know that there are groups we do not know about with great 
ambitions and grave intentions. September 11 taught us that a known 
enemy could hit us in an unexpected way. But the apocalyptic cult Aum 
Shinrikyo and American terrorist Timothy McVeigh taught us that totally 
unknown enemies can be lurking in our midst pursuing evil on a massive 
scale. One of the most striking things about Aum Shinrikyo is that it 
built an international network of financing and technical experts in 
Japan, Russia, the U.S. and elsewhere that raised over a billion 
dollars and pursued nuclear, biological and chemical weapons, and yet 
we became aware of the group only after its second chemical attack.
    Those who seek us harm on a massive scale know that the quickest 
route to gaining such a capability lies in the disorder and destitution 
that still characterizes much of the Russian establishment responsible 
for securing nuclear weapons and material, biological weapons and 
agents, and chemical weapons and agents. And this makes it incumbent on 
us to spare no effort to stop them.

    The Chairman. Thank you very much, Mr. Secretary.
    We will go just 5 minutes, a shot back and forth, in case 
you have to leave. And interrupt, Dick, if you have any add-ons 
to what I ask.
    Let me address the first question first. And that is the 
argument that has been used against Nunn-Lugar, or expansion of 
Nunn-Lugar types of initiatives, which is basically to say that 
with the cooperation of the Russians we are going to go to them 
and pay to have them eliminate and/or stop doing something that 
is bad, that is against our interest. And the argument used in 
plain language is: They will take that money that they would 
have had to use for that and use it for something else that is 
fungible.
    And there has been an argument made, and it was raised by 
you, concerned by you, initially back in 1991, I guess it was.
    Mr. Cohen. Right.
    The Chairman. What would they do, if we give x number of 
dollars to help them destroy alchems or whatever else? Would 
they just take that money and go ahead and invest it in another 
program, or would they invest it in programs for other 
countries?
    Now, most of that has sort of dissipated in the sense that 
there has sort of been an emerging notion that, ``Look, if 
there is x number of ICBMs aimed at the United States, then my 
choice is I get to destroy them, and that money may be taken to 
build a short-range weapon; I am still better off, I mean, in 
the worst case scenario.''
    But what is your sense now about whether or not the money 
that we invest as a Nation in threat reduction in Russia is, in 
effect, creating an opportunity for the Russians to then spend, 
even though we can account for that money being spent for that 
purpose, they will take money they would have had to spend to 
build a chainlink fence around a chemical weapons site or put 
bars on a window or whatever, and they will do something 
against our interest with it?
    Would you speak to me a little bit about your thinking 
after having been Secretary of Defense?
    Mr. Cohen. The fact is that they could take the money they 
otherwise would spend for security and spend it on other items. 
For example, if we contribute this amount of money to the CTR 
program, you could argue that they would then turn around and 
build other types of military capabilities, or they might use 
it to help pay for housing, which was not included in the CTR 
program, or for various retirement benefits, et cetera.
    I think the answer to the question is: We have an entirely 
different relationship with Russia today than we had back in 
1991 and really until the past year, since September 11. 
Everything has changed, if you look at the world after 
September 11. I mean, Senator Enzi pointed out it is 
astonishing that he would think that he would be able to sit 
down across from Russians after what he went through in growing 
up as a child. All of us, I think, could make that same 
statement.
    But the fact is that since September 11, you have seen a 
geopolitical shift that is perhaps unmatched in historical 
terms with us having a relationship with Russia, with Russia 
saying ``You can put bases without our objection into 
Tajikistan, Uzbekistan. We will work with you on this anti-
terrorist campaign.''
    A lot has changed, for their own self-interest, to be sure. 
They have a self-interest in aligning themselves in this war 
against terror, because they are also the potential victims. 
They have been victims.
    In fact, I was in Moscow when one of the apartment 
buildings was blown up. And I went on television, state-wide 
television, so to speak, in Russia the day after it happened to 
say that we should join with Russia in combating terrorism, 
because they were at risk and we were at risk.
    So September 11 has changed that. Now you have the 
potential for the same nuclear materials ending up in the hands 
of people who will threaten Russia just as much as they will 
threaten us. So there is a different dynamic at work today.
    Do we always have to be on guard? Yes. Do we always have to 
insist that certain standards be met and that we have certain 
measurements that we can make; and is there a possibility it 
could be used for other things? The answer is yes. But to the 
extent that we establish a relationship with Russia, to the 
extent that groups, Senator Lugar, Senator Enzi, yourself and 
others, continue to ``engage'' the Russians, we have a much 
greater chance of working together cooperatively to reduce the 
mutual threat than if we sit back and say, ``Well, yes, they 
could use it for this, and we are only easing their burden.''
    But the fact is, as long as those piles of nuclear 
materials are out there and as long as al-Qaeda and other 
groups are seeking to get their hands on it, we are all in 
danger.
    The Chairman. Well, let me conclude by saying to you: I do 
not think any of us in 1991, myself included, thought that in 
the year 2002 the estimate for the Russian military budget, the 
entire Russian military budget, would be $5 billion. I mean, 
you know, think of that. Their entire estimated budget, and 
assume we are off by 150 percent, is $30 billion.
    I would respectfully suggest to those who worry about 
fungibles, there is nothing to fund you out there. These boys 
are in real trouble. If we spend $200 million on cooperative 
threat reduction, it is not like they have $200 million to go 
spend on anything else. We are talking about an incredibly, 
incredibly limited budget here. And I think----
    Mr. Cohen. Mr. Chairman, the great irony is that during the 
cold war, we feared Russian strength. In the post-cold war, we 
fear their weakness.
    The Chairman. I think we are right on both scores.
    Mr. Cohen. Yes.
    The Chairman. And by the way, I have been here too long, 
because I was just handed a note. I am getting prophetic. The 
11:30 vote has been moved to 2:30.
    Mr. Cohen. Well, in that case, I will read my entire 
statement.
    The Chairman. I am sure it is not because I said it.
    Senator Lugar. It is, though.
    The Chairman. Senator Lugar.
    Senator Lugar. It is because you said it, Mr. Chairman.
    The Chairman. It is bad news for you. You are going to have 
to stay a little longer, Bill.
    Senator Lugar. Secretary Cohen, I want to continue with the 
chairman's thoughts about the fungibility issue, because, 
really, this is the major attack upon cooperative threat 
reduction sort of year-in, year-out. Someone has a new 
discovery that somehow the Russians are using our money for 
unintended purposes.
    As you know the cooperation we have enjoyed with Russia is 
totally counter-intuitive. Would you have guessed a decade ago 
that Russian military leaders would invite American contractors 
and military into nuclear facilities, leaving aside the 
chemical and the biological, to discuss dismantling of their 
weapons. Now one of the reasons they did so, is because of 
concerns they had about safety and security of their own 
forces.
    If accidents were to occur, a lot of Russians would die as 
opposed to anybody else that the weapons might be intentionally 
used upon.
    The sheer expertise and expense of dismantling these 
weapons and then storing the fissile material are very, very 
difficult propositions. As the chairman has pointed out, they 
reside in a country that was near bankruptcy. Now even at this 
point--and the figure that I got in preparation for the hearing 
was that the Russian military budget is now the equivalent of 
$7.5 billion in the current year.
    But it may be, as the chairman suggested, the higher 
figure. But nevertheless, we are talking about $7.5 billion or 
this higher figure as compared to our budget of roughly $390 
billion. Most Americans have never quite grasped the enormity 
of that difference. But that is why it is important to point 
out.
    And I would say that, as we proceed with our war on 
terrorism, we should be concerned that every chemical facility 
have a fence around it; and not only a fence, but some 
reasonable security. And so are the Russians.
    But the Russians raise the question, ``How are we going to 
pay for it? We have officers that have pensions that are not 
getting paid, hundreds of thousands of them. We have all kinds 
of dependencies from the past that are totally unfunded. And we 
have political problems with our citizens in a democracy. Now 
you have a problem worrying about the al-Qaeda coming in and 
taking out chemical weapons, but we have a problem just simply 
of keeping our government alive.'' And it is a serious problem.
    Now there could be those in the Congress or the 
administration that would say, ``Well, that is their tough 
luck. After all, if they cannot protect those weapons at 
Shchuchye, where, as you know, two million chemical weapons are 
lying on shelves in old buildings, guarded by systems provided 
by the United States. Hopefully, we are on the threshold of 
destroying some of those before somebody carts them away.
    Unfortunately in order to get to that point, we had to 
convince some of our countrymen that it is a good idea to 
destroy them and that we ought to spend some money doing that, 
and enlist the Norwegians and the British and the Canadians and 
the Germans, as we have been doing. And they have been pledging 
to provide assistance and cooperation with the United States.
    One of the problems we face is that one day our country is 
very excited about the possibilities of being attacked, and al-
Qaeda might appropriate some of these weapons and kill a lot of 
Americans right here in the United States. But on other days, 
we are quibbling as to whether we ought to give the Russians $5 
million to put a fence around a chemical weapons plant where 
all the stuff was created. It may not yet be in Iraq or Iran 
right now, but the Russians do have it now and we must do what 
we can to eliminate the threat before it proliferates.
    I believe the No. 1 national security threat facing the 
United States is the nexus of terrorism and weapons of mass 
destruction. As a result, we must go after the weapons very 
vigorously, while we have, a relationship that is qualitatively 
different with President Putin and with others and Mr. Pak, who 
now heads the chemical situation, yearning for assistance. I 
have taken Mr. Pak to breakfast with members of our own House 
of Representatives to try to at least illuminate what is 
possible if our two countries cooperate.
    Now having said that we had a good hearing with Howard 
Baker and Lloyd Cutler. They provided a good timetable and a 
cost. I think $30 billion was the sum that they recommended 
over 10 years to respond to this treat.
    But this did not necessarily excite anybody to begin doing 
these things. That is one purpose of this hearing.
    And I applaud the chairman again. And I applaud him for 
having you and the distinguished witnesses that will follow, 
because we need to have revival meetings to appreciate that 
this is still a dangerous world. All of this is still out there 
and really requires persistence.
    So, you have answered my question. You said at the initial 
stages of the Armed Services Committee in 1991 you raised some 
of these questions. The debate on the floor of the Senate, all 
kinds of stipulations were put on Nunn-Lugar as to how to stop 
the spending, and pretty well succeeded for a while. It was 
quite a while before this got on track.
    And you will recall from your own experience there were 
some years it was cumbersome; we were following the money so 
closely to make sure not a dollar got lost that none of it got 
spent. The appropriation ran out. They took it off the table, 
and we are back at it again.
    So I appreciate very much your testimony. I do not have a 
question. I just have applause for you and for the chairman for 
getting this revival meeting going again, which I think is 
timely.
    Mr. Cohen. Let me respond to your non-question. First of 
all, this notion, this argument that is being made, this--even 
before I am before this committee, this is not a foreign aid 
program. This is a national defense program. This is not 
charity. We are taking action to reduce the threat to the 
American people.
    Now a few years ago, I went on one of the television 
programs and held up a 5-pound bag of sugar and----
    The Chairman. It had dramatic impact.
    Mr. Cohen [continuing]. I tried to point out that if you 
took just 5 pounds of anthrax, and you distributed it during a 
day in which the wind conditions were right, with the right 
kind of dispersal mechanism, you could wipe out a large 
percentage of the city the size of Washington, DC. There are 
hundreds of tons of anthrax in existence.
    Now imagine if bin Laden or an al-Qaeda or Islamic jihad or 
others acquire pounds, if not tons, of anthrax and have it 
distributed, once again, either through the mail or some other 
mechanism. How long was the Senate shut down last year with 
just a small amount of anthrax? Now let us assume that it is 
distributed on a very wide basis with multiple terrorist 
actions taking place across this country. How long would that 
shut down so many of our operations?
    So this is not charity, and it is not foreign aid. It is 
national defense. And so to those who argue that we are simply 
giving money away when the Russians should be doing it, the 
fact is that they do not have the capacity right now.
    And I will make another argument. I am not trying to--I 
always try to look at this through the eyes of the opponent, so 
to speak. But if you were a Russian general today, and you 
said, ``Well, let me think about this. The United States has a 
budget of $390 billion, roughly. NATO has been enlarged by 
three. It might be enlarged by five, six, possibly eight or 
nine other members. We are now talking about the Baltics being 
included in NATO membership, not to mention the southern tier 
of Europe. The United States has embarked on a national missile 
defense program. There are bases in the central Caucus, in 
Georgia, Uzbekistan, Tajikistan, and elsewhere,'' well, I would 
have some question about the U.S. intentions at this point.
    So are there elements inside the Russian military who are 
very concerned about the United States still? And the answer is 
yes. How do we overcome that, or do we need to overcome that? 
Now we can try to beat them down even further, but I will tell 
you from my own judgment, Russia will be back at some point. 
The Russian people are very talented. The intellectual quotient 
is very high. They have vast natural resources. They have a 
strong history, as a matter of fact. So they will come back at 
some point.
    The question is how they come back. Will it be as a full 
integrated partner in the international community, or as an 
inward-looking, nationalistic, militaristic power? And so we 
have a--assuming we can all make it to that point, assuming all 
those piles of nuclear material and anthrax and all the other 
things that have been developed do not fall into hands other 
than Russian.
    We have an opportunity to work with them over a period of 
time in order to make sure that as we all evolve in the future, 
that our relationship is one that is cooperative and 
collaborative, rather than antagonistic, which is not to say 
that we are never going to have disagreements with Russia. We 
have them with our allies all of the time, but we are able to 
sit down and somehow work out and rationalize those differences 
in ways that are at least peaceful.
    So it is not foreign aid. It is for defense. I point out 
that 80 percent of the money being spent on Nunn-Lugar is going 
to U.S. contractors. So most of the money is going to us, in 
that sense.
    Mr. Chairman, I simply point out that we cannot afford--if 
you look at that in very simplistic terms, you have piles of 
dangerous material on the other side of this fence which has 
large, gaping holes in it. And we have enemies who are seeking 
to get their hands on that before we do, who will use it to 
destroy us.
    I do not think we can afford to sit back and say, ``Well, 
the Russians may benefit in some other way and use the money 
that is being used to reduce that threat in ways that might 
pose a danger to us down the line.'' I do not think we can 
afford to wait that long and to use that argument to defeat 
this program.
    The Chairman. Very important point to emphasize here in the 
context of the revival, as my friend from Indiana said.
    You served on the Intelligence Committee and as Secretary 
of Defense. You controlled a significant part of the 
Intelligence Committee, the Defense Intelligence Agency. We 
have sat on the Intelligence Committee. I think all of us have. 
We have known for a long time--we have not been able to say, 
but we can say now because it happened--there are individuals 
and groups attempting to purchase, purchase by whatever means, 
the talent in terms of the personnel, wholesale constructed 
weapons, nuclear, chemical, biological, raw products like 
refined--that is a contradiction in terms--anthrax.
    There is a bazaar out there. People are walking up to the 
table. There have been people arrested because there are sting 
operations in effect out there. This is not something that is a 
hypothetical. The American people should understand: People are 
attempting to purchase weapons.
    And last--and I am going to ask my staff for the quote, it 
came from a closed hearing, but the quote is from the general 
literature. There is some quote in effect from a famous nuclear 
scientist that says, in effect: Anybody who thinks it is easy 
to build a sophisticated nuclear weapon is wrong. Anyone who 
thinks that it is difficult, it is impossible, to build a crude 
nuclear weapon is wrong. And I will get the exact quote.
    The only thing that keeps some of these outfits or 
individuals from building a nuclear weapon, is having the 
material, not the material to construct the casing, not the 
material to make it go boom--I cannot get any more specific 
than that--but the actual enriched uranium or plutonium, the 
weapons grade material. And there is tons of it.
    I will conclude with this: I was telling this to my mother, 
whom you know, Bill, is a very bright lady, incredibly well 
read, 85 years old and, as they say, sharp as a tack, watches 
everything on C-SPAN. And I come home, and she is now, because 
my dad is ill, living with us. So I came home after a hearing, 
oh, a couple weeks ago, just before the recess.
    And she said, ``Why would they not spend the money to build 
a fence?''
    And I started the explanation. She said, ``Joey, that's 
biting our nose off to spite our face.''
    Ever hear that expression, biting your nose off to spite 
your face? ``We will teach those Russians. We are not going to 
help them build that damn fence,'' figuratively speaking. ``We 
will show them.''
    It is yours, Mr. Enzi. It is your floor.
    Senator Enzi. Thank you, Mr. Chairman.
    And I come from that part of the United States that has 
sacrificed its uranium industry in order to be able to use up 
that highly enriched uranium from that part of the world. It is 
important that we do that, and it is part of the plan.
    I want to mention, too, that when I went to Russia, I was 
accompanied by three professors from the University of Georgia, 
two of whom grew up in the Soviet Union. The third one was from 
the United States but had spent a great deal of time in 
education in Russia. So all three of them spoke Russian.
    And, of course, all of the conversations over there were 
through interpreters. And I was so glad that I had some 
interpreters from the United States. Their culture has changed, 
but their vocabulary has not been able to catch up with the 
changes. They have not had words for ``management'' and 
``contracts'' and ``corporations.'' Those parts I could 
understand, because they have adopted the English version. 
Management is management. So they just took the same word and 
made it----
    The Chairman. Like my neighborhood.
    Senator Enzi. Their word for ``security'' and ``safety'' is 
the same. And those are two absolutely different responses. And 
had I not had some interpreters with me that had the U.S. 
perspective of it, there could have been a lot of difficulties 
in the discussion when it came to security and safety.
    One of the things we have been trying to do here, of 
course, is to get a State Department liaison in the Senate part 
of the building, much as we have the military liaisons. And I 
hope the committee will help me to push for them to get some 
space, so that we have easier capability, when we get foreign 
visitors, to be able to get interpreters, for one thing, people 
to sit in on the meeting who have a broader background on what 
is happening.
    There were a lot of instances where my interpreters were 
able to jump into the interpretation and add in a little more 
depth, so that they understood exactly what we were talking 
about, instead of having some of the confusion.
    One of the points that was helpful was when we were talking 
about the ``evil axis,'' Iran and Iraq and North Korea. And I 
have to say, they are very sensitive on that in Russia. I was 
surprised that they were most sensitive about North Korea, more 
so than Iran. Now that is one of the things that I and the 
interpreters picked up from the lengthy discussion we had about 
what could be done with those countries to make sure that 
technologies they are getting are not going to be harmful to 
the Russians or to us.
    And, Mr. Secretary, I was wondering if you could share with 
us what the United States could do to persuade, from your 
perspective, Russia to stop the transfer of sensitive nuclear 
missile technologies to Iran and North Korea? Are you aware of 
any sticks or carrots that we could employ to do that?
    How do we resolve investing more money in nonproliferation 
programs in Russia while witnessing this continued 
proliferation? Any ideas on what we can do with those 
countries?
    Mr. Cohen. Well, for one thing, we have to continue to deal 
with the Russians in a cooperative fashion. I know the word 
``engagement'' initially was not well embraced or 
enthusiastically embraced by the administration, but I do not 
know another word for it, whether it is dialog, discussion, 
collaboration.
    I think engagement really does summarize what we have to 
do, which is to work with the Russians to say, ``There has to 
be a better option than you gaining revenues from the sale of 
`commercial nuclear technology' to a country like Iran that we 
are satisfied is dedicated to acquiring weapons of mass 
destruction and the means to deliver them. There has to be a 
better way in terms of your relationship with the United States 
and the West than transferring similar technology to the North 
Koreans.''
    They might point out, for example, that it is a bit 
inconsistent on our part, since we have a program with the 
North Koreans to help develop their capability to produce 
commercial nuclear power. And they might say ``You are 
operating on a different standard here.''
    But, of course, the Bush administration might say ``You are 
right, and we want to cease and desist from that assistance to 
North Korea.''
    But it does put us in a somewhat awkward position to say 
that they should not be transferring commercial technology. Our 
fear is that that level of technology--and this is for the 
experts to testify to--but that level of technology could be 
converted for military uses. And that is an issue of concern to 
us.
    But I think the only answer to that is to try to engage 
them more actively in other pursuits with the United States on 
a trade basis.
    Senator Enzi. They did mention, of course, that they were 
working on export controls and were further ahead than we were 
on getting their legislature passed.
    Mr. Cohen. Well, you know, the fact of the matter is that 
they are looking for ways to acquire revenues any way they can 
that is consistent with their national interest.
    What we have tried to persuade them, and will continue, I 
assume, is that transferring sophisticated technology to Iran, 
Iraq, or North Korean could pose a long-term threat to them, as 
well as to us. And therefore, we have a joint interest in 
trying to prevent that from taking place. ``And are there not 
ways that we can work together to find some other avenue or 
stream of revenue for you to help build your economy while 
reducing the threat, the long-term threat, to both of our 
countries''?
    Senator Enzi. We did find that the small businessmen that I 
met with have utilized some of those engineers in different 
ways than they are used to happening. They found a way to add 
more sugar to sugar beets. And they found a way to keep 
chemicals from leaking into their water systems. And they have 
gotten some of the engineers excited about working on those 
kinds of projects for profit. But profit is still a difficult 
motive for them to adjust to. Making a living, they are used 
to. Getting perks, they are used to. But making a profit, they 
are not.
    Mr. Cohen. Well, this is something that is going to take 
perhaps generations. The Russians, certainly in the last 
century, have not had any experience with profit. From 
imperialism to communism and now to a democratic capitalism, it 
is new for them. And it may take some time before that is 
ingrained.
    So the question for us is how do we work with them, because 
our livelihood and our lives are at stake as well in this 
particular endeavor.
    If I could take just a few more moments of your time, 
Senator Enzi, to respond to what both Senator Biden and Senator 
Lugar have said. And I come back to this whole issue of, is 
this really in our interest to do that? I think all of us are 
familiar with the sort of steps that we take when we talk about 
national security, deterrence, first line of defense.
    Then we go to crisis management. Then we go to consequence 
management. And all of us are familiar with what we are trying 
to do. Now, what happens if, and CSIS, the Center for Strategic 
International Studies, at a program last year ran an experiment 
called Dark Winter with the release of a smallpox virus in 
multiple sites and what would happen under those circumstances. 
So it is all involved in consequence management.
    But then it evolves into questions about preemption. And it 
is something that we have to give serious consideration to, as 
we are, as a matter of fact, in Iraq. As you discuss what is 
going to be our policy toward Iraq, we are saying, here is a 
country dedicated to acquiring chemical, biological, nuclear 
weapons and the means to deliver them. And should not we seek 
to remove Saddam Hussein and his regime and to prevent that 
from ever taking place? So it is a form of preemption that we 
are considering right now with Iraq.
    Is this not another form of preemption that we are talking 
about, that we are seeking to preempt an attack upon the United 
States with a willing partner, that we provide the money? Think 
about how much money we are going to spend if an attack takes 
place. And I am making no commentary at this particular point 
in terms of what our policy is or should be or one that might 
take place. But how much would be involved if we were to 
militarily take down Saddam Hussein's military infrastructure?
    This is a small fraction of what would be involved in such 
an endeavor. And it has equally, if not much greater, 
consequence to allow that much material to sit unguarded or 
underguarded to the future of this country.
    I see the Nunn-Lugar program as a preemption of sorts, that 
we are preempting an attack upon the United States by groups 
that are dedicated to killing us and to use the most massive 
means at their disposal to produce these kind of casualties. 
And that comes in the form of nuclear, radiological, 
biological, and chemical weapons. So this is a program of 
preemption by non-military means with a cooperating partner in 
the form of the former Soviet Union.
    Senator Enzi. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I apologize. What I was trying to get here 
with the staff is to put a lot of this in perspective, what you 
said, Mr. Secretary. And we will not keep you much longer.
    If I add up what most folks would look at and think of as 
threat reduction-type programs, they are the programs relating 
to nuclear weapons, the programs relating to chemical weapons, 
and the programs relating to biological weapons. And they range 
from the Nunn-Lugar Cooperative Threat Reduction Program--I 
just want to list a couple of these--to the Materials 
Production Control and Accounting Program, the MPC&A Program, 
the U.S./Russian Plutonium Disposition Effort, the Highly 
Enriched Uranium Purchase Agreement, the Initiatives for 
Proliferation Prevention and the Nuclear Cities Initiative, two 
separate programs, the International Science and Technologies 
Centers, the Bioreduction Program, and the Export Control and 
Border Security Assistance. They all relate to these issues.
    As I calculate it, based on funding levels for this coming 
year that would allow us to, in effect, fully fund on a level 
that, within 10 years, we would make significant progress in 
dealing with, again, the 17,000 to 22,000 strategic and 
tactical nuclear weapons that remain in the Soviet Union, in 
Russia, 160 metric tons of weapons grade separated plutonium, 
approximately 1,000 metric tons of highly enriched uranium, 10 
nuclear cities with 120,000 scientists and skilled personnel, 
and so, 60,000 scientists and personnel in the biological 
weapons programs, et cetera.
    You take all these potential places for mischief, and if we 
were to fully fund--I will submit this for the record--I will 
not bore you, because you know all this.
    [The following information was supplied by committee 
staff.]

    <bullet> $167 million in additional funding per year to accelerate 
the pace of the Materials Protection, Control, and Accounting (MPC&A) 
program so that we will not have to wait until the end of the decade 
before all Russian fissile material is stored at securely guarded 
facilities.

    <bullet> $250 million per year to finance an expansion of the 
Highly Enriched Uranium Purchase Agreement to buy more processed 
nuclear fuel down-blended from Russian stocks of highly enriched 
uranium. Doubling the size of that program from 500 metric tons of HEU 
to 1000 metric tons would safeguard enough material for 20,000 nuclear 
weapons--material that terrorists could readily use, if they got their 
hands on it.

    <bullet> $200 million in additional funding per year to incentivize 
and assist Russia in moving faster on its plutonium disposition under 
the August 2000 U.S.-Russian agreement, possibly to include additional 
plutonium beyond the original 34 metric tons agreed upon.

    <bullet> $67 million in additional funding to help jump start 
Russia's chemical weapons destruction as called for under the Chemical 
Weapons Convention.

    <bullet> $125 million in additional funding for International 
Science and Technology Centers/Bio Redirect to engage more Russian 
scientists in collaborative projects; one idea is to organize them into 
a massive public health effort to research and treat drug-resistant TB 
and other infectious diseases.

    <bullet> $100 million per year to help replace plutonium burning 
reactors in Russia and Kazakhstan and begin securing radioactive 
sources in the former Soviet Union.

    The Chairman. But if we were to fully fund to the level 
that we were able to get what was envisioned by each of these 
programs finished within the timeframes when the agreements 
were made, we would have to add roughly another $900 million to 
the--I am going to refer to them all as threat reduction, and 
that encompasses everything. We would have to add roughly 
another $900 million to the total threat reduction effort 
underway, which right now includes in fiscal year 2003 
roughly--how much is the administration asking for?
    Staff Member. They are asking for $1.6 billion.
    The Chairman. Asking for $1.6 billion. So $2.5 billion 
total spending on everything relating to threat reduction out 
of a budget, including the Department of Energy's portion that 
relates strictly to defense, of somewhat in excess of $380 
billion.
    We are talking about a relatively small percentage here of 
the total amount of the budget. The total is, I am told by my 
staff, three-quarters of 1 percent or equally in a plus-up of 
one-quarter of 1 percent of our total defense spending. And the 
reason I raise this is--and I realize we have varying degrees 
of agreement and disagreement on the utility, the efficacy, and 
the soundness of seeking a national missile defense. And I am 
not trying to juxtapose them as a tradeoff.
    I know my friend from Maine supports national missile 
defense. My friend from Wyoming, I do not know, but I suspect 
he supports a national missile defense program. Senator Lugar 
supports one. And I think he is waiting to see the detail of 
it, like I am. I am the least enthusiastic about it, depending 
on exactly what it is. I am not opposed to it. I voted for over 
$100 billion in my 30 years here for research on national 
missile defense.
    But regardless of what position we all take, just to 
juxtapose this, in terms of an immediate threat to the United 
States of America in the near term, the idea that out of a 
close to $400 billion, $380 billion probably, counting, you 
know, maybe as high as $390 billion on what you count as 
defense related, that we are not prepared to spend, that we are 
not prepared to spend $2.5 billion to fully fund all these 
programs, I find close to mindless. I mean, I really do.
    It is not like Senator Lugar and myself--and I do not want 
to put words in Senator Enzi's mouth, but Senator Enzi is 
obviously very concerned about this--are asking for there to be 
gigantic tradeoffs here. It is not like I am saying to the 
administration, ``Look, if you fully fund this, you are not 
going to be able to maintain the end strength of the military. 
If you fully fund this, you are going to have to drastically 
cut back the conventional weapons program. If you fully fund 
this, you have to shelve national missile defense.''
    The idea of putting additional silos in Fort Greely, 
Alaska, in the near term versus doing this in the near term, I 
do not think are even remotely comparable in terms of our 
security.
    And so I wonder, because you are an incredible--I mean, you 
and I have been personal friends for 30 years or, to be precise 
28 years. You were elected in 1974.
    Mr. Cohen. In 1972.
    The Chairman. In 1972. I was--actually 30. I am wrong. I 
was right the first time.
    One of the things I have found out about you is you have 
the ability, Bill, more than most with whom I have ever worked 
in or out of the government, to be able to get a sense of what 
is moving, what pieces are moving on the board here, in terms 
of national politics, international politics, the public 
opinion.
    What do you think is the reluctance? Am I missing something 
here? Is there some underlying concern beyond fungibility that 
prevents us from doing what I think--if you had been on Mars 
the last 30 years, you got dropped back on Earth today, and 
they laid out to you the players on the globe and what the 
threats were, I mean, I cannot imagine anybody, whether they 
were a right wing conservative or a left wing pinko, whoever 
they were, saying, ``Hey, wait a minute. $380 billion, $2.5 
billion, deal with all these programs to fully fund''--why 
would you not do that? What is going on?
    Mr. Cohen. OK. I----
    The Chairman. And I realize I am asking you to be a 
political commentator here, but I know you too well and know 
how smart you are. What is your----
    Mr. Cohen. Well, I do not want to assume the role of any 
kind of a national psychotherapy either, but----
    The Chairman. No. I know that. But I would like you to just 
think out loudly.
    Mr. Cohen. First of all, we have been dealing with a 
country--we are coming out of this post-cold-war world with 
them as well. There are still a lot of lingering doubts. For 
example, I think some who are not here today would say, ``Is 
not Russia simply pleading poverty, when in fact they have much 
more resources available to them than they are fessing up to?'' 
That would be one sentiment that probably could be reflected on 
the part of some.
    ``Are they not just using Uncle Sam? Are they not taxing 
our people when, in fact, they should be cutting back on 
whatever else they are expending their resources for in 
developing either new ICBMs or counters to the national missile 
defense program or whatever it might be? Are they not just 
using us to fund those programs? Are they not just going to 
divert this money to other purposes? Are we not subsidizing a 
dying Russian military?''
    Then the question would be, ``Why do we not just let them 
sink into the primordial ooze of history?'' That is a sentiment 
that runs at least in some segments of our society.
    The answer to that, I think, is: They are not going to go 
away. They are not going to sink into history. They are 
brilliant people, who--if there is anything we have learned 
about them over the years, it is, when it comes to ``their 
national security,'' they will sacrifice everything else in the 
process. So they are not going away.
    They are going through a very difficult period of time now. 
And the question for us to answer is: Is it better for us in 
the long term to try to help them regain their economic status, 
to help evolve that particular country in a way that is 
consistent with our own ideals and our own democratic processes 
and our commitment to democratic capitalism, or is it better to 
let them sink as low as they can, feeding their own internal 
nationalism, their frenetic contempt for the United States, 
their fear, as I tried to outline?
    If you are looking at it through a Russian eye to say, ``We 
are looking at what the United States is doing, and they are 
getting pretty close. And they are building a national missile 
defense system. And they say it is not against us, but who 
knows what 5 or 10 or 15 years might be with the ability of the 
United States to have space-based systems to counter our ICBM 
program,'' et cetera.
    You could make a case that there are elements inside of 
Russia today that see us as an enemy, a long-term enemy, as 
well as a short-term one, in which they need to rebuild their 
country to defeat that. What we have to do is to say: Is there 
a way that we can reach across this divide that we have had 
over much of the 20th century, and to find a way to help lift 
them up into a level of prosperity?
    And with that prosperity comes the interest of preserving 
that and promoting it. And as long as we can continue to engage 
them in a constructive way, that has the chance of reducing the 
fears on the part of some in their society from spreading and 
becoming a majority opinion, turning inward and using their 
vast size, the 11 times zones that we have talked about, and 
using those natural resources with whatever assistance they can 
find from wherever they can find it, using those in ways that 
are disadvantageous to the United States.
    So I come back to this point. We tend to go from 
oscillating between what Alan Greenspan might call geopolitical 
irrational exuberance in terms of what our relations should be 
to one that is manic depressive. And what we have to understand 
is that Russia will be a powerful country in the future. When 
that takes place remains to be seen. I have no doubt that it 
will take place. They will regain, if not all of their power, 
then a good part of their power because of their intuitive 
capabilities, indigenous capabilities.
    What we have to do to reduce tensions between us and to 
have a better relationship is to work with them. As I indicated 
to Senator Lugar and Senator Enzi, this is a program of 
preemption. This is a preemption program. We are preempting 
terrorists from getting those assets that they currently have. 
And it is in our interest to do that.
    I think that the more discussion, whether you call it a 
national revival, Senator Lugar, whether we call more and more 
hearings to raise this level of concern to the American people, 
if we, once again, weigh what it will cost to take down Saddam 
Hussein's capability, just weigh that in these programs and 
say, ``There is much greater chance that terrorists will get 
access to these materials in the former Soviet Union and we 
know will use them against us, causing untold billions of 
damage, as well as massive loss of life,'' then this is a small 
investment by any standard.
    This is a mere--I hate to use the word ``bagatelle'' 
because it will be taken out by the Wall Street Journal as 
someone saying Cohen has lost his ability to calculate here. 
But it is a small amount of money compared to the amount of 
damage that will be done to us in terms of lives and in terms 
of our economic livelihood if we fail to do this.
    Now the other argument is: There is no guarantee. There is 
no guarantee, if we do all of this, that that will present.
    The Chairman. Absolutely.
    Mr. Cohen. There may, in fact, be some loss of these 
revenues. There may be some diversion. But in terms of what the 
risk and the consequence is to failing to act in promoting this 
program, I think that anyone, anyone of common sense, would 
look at this as a pretty good investment. It is a pretty small 
downpayment in terms of ensuring our security compared to what 
the consequences are if we do not.
    The Chairman. In the Maine tradition, you have been a great 
Senator and held a significant Cabinet post. This is my 
concluding question.
    In the Baker-Cutler report, they made reference to a lack 
of coordination between U.S. nonproliferation programs as one 
key impediment to greater success. Senator Lugar and myself and 
others, we introduced with Senator Hagel the Nonproliferation 
Assistance Coordinating Act last year--I am not asking you to, 
since you have not seen the legislation, comment specifically--
to provide greater coherence in existing U.S. efforts.
    Drawing on your experience as the Secretary of Defense, can 
you give us a sense about whether we should have a coordinating 
body? I am just giving you the context in which I ask the 
question.
    And if you want to comment, then please do, but a sense of 
the level of the coordination between the various departments 
and agencies on nonproliferation assistance that you 
experienced. I mean, you sat there, you know, at the top of the 
pyramid. Is there a need for greater coordination? I am sure 
there are other ways than what Senator Lugar and I have 
proposed. Or is it pretty well coordinated? Do you feel pretty 
confident about it?
    Mr. Cohen. Well, I agree with what Senator Baker and Lloyd 
Cutler concluded in their analysis. There is not sufficient 
coordination amongst agencies. And I tried certainly with 
setting up the Cooperative Threat Reduction Agency and tried to 
consolidate. But there are still many gaps.
    And I think any mechanism that can be devised to get 
greater coordination is going to make the program that much 
more efficient.
    The Chairman. Thank you very much.
    Senator Enzi. I have no more questions, Mr. Chairman. I 
thank the witness.
    The Chairman. Mr. Secretary, I found those quotes I 
referenced. I am just going to read them.
    One says: ``Those who say that building a nuclear weapon is 
easy are very, very wrong. But those who say that building a 
crude nuclear device is hard, they are even more wrong.''
    The second quote is an alternative version that came from 
the American Physical Society meeting in Albuquerque. And it 
said, ``Those that think it's easy to build a plutonium 
implosion bomb are very, very wrong. But those who say that 
it's hard to fashion a uranium gun bomb are even more wrong.'' 
And by the way, a uranium gun bomb could, if able to be done, 
could easily generate a one kiloton explosion. Nagasaki or 
Hiroshima was six kilotons, to put this in perspective.
    Nobel prize winner Dr. Louise Alvarez did write to the 
effect that--and I will paraphrase the following sentence. I do 
not have the exact quote, but it is close to this. It says: 
Making an implosion bomb is one of the most difficult jobs in 
the world. But making a uranium gun bomb is one of the easiest. 
You could almost do it by dropping one piece of uranium on 
another.
    Now that is a paraphrase. I want to make that clear.
    The bottom line here is: It is hard, but it is far, far, 
far, far, far from impossible. And we know full well what has 
been attempted, what people are attempting to do.
    Mr. Cohen. Just remember what----
    The Chairman. Those two Pakistani scientists were not on 
vacation in Afghanistan.
    Mr. Cohen. I was just going to say, just remember how 
dedicated bin Laden and his legions are. They are determined to 
destroy this country, to inflict as much damage as they 
possibly can. We have seen the consequences of just a small 
amount of anthrax going through the mail.
    If you think about the hundreds of tons in existence and 
the creative ways in which that might be distributed and 
dispersed, you can see what could take place just with anthrax 
itself, not to mention what would happen if you had nuclear 
materials that could be constructed, either to have a nuclear 
explosion or a radiological explosion.
    This is something that really cannot wait. Again, Nunn-
Lugar and the Cooperative Threat Reduction Program is not the 
panacea for everything. It may not ultimately succeed in 
preventing our worst nightmares. But I think the absence of it 
will accelerate the future in ways that we will not want to 
see.
    The Chairman. I cannot thank you enough, Mr. Secretary, for 
being here. And I know you will be available for us if we ask 
for more help. And we will be asking, I am sure, as time goes 
on. It is great to see you. And thank you for coming.
    Mr. Cohen. Thank you.
    The Chairman. We now have as our second and concluding 
panel two esteemed scientists. And I thank them for being here.
    Dr. Siegfried Hecker is a senior fellow at Los Alamos 
National Laboratory. And Dr. Constantine Menges is a senior 
fellow at the Hudson Institute.
    Dr. Hecker served as the Director of Los Alamos National 
Laboratory from 1985 to 1997 and participated in some of the 
initial lab-to-lab exchanges between the United States and 
Russia during the early 1990s. Last summer Dr. Hecker published 
an article on ``An Integrated Strategy for Nuclear Cooperation 
with Russia'' and offered a number of intriguing proposals. I 
hope that he will expand on some of those proposals and discuss 
them with us today and give us his sense of which ideas deserve 
our immediate attention.
    Dr. Constantine Menges has previously served as a professor 
at George Washington University, where he directed the program 
on Transition to Democracy and initiated a project on U.S. 
Relations with Russia. He has also served on the National 
Security Council and as a national intelligence officer.
    With that, I turn to Senator Lugar, if he would like to 
make any comment.
    Senator Lugar. I welcome the witnesses and look forward to 
your testimony.
    The Chairman. And why do we not proceed in the order in 
which you were called? Doctor, if you would begin, I would be 
happy to hear what you have to say.

STATEMENT OF DR. SIEGFRIED S. HECKER, SENIOR FELLOW, LOS ALAMOS 
              NATIONAL LABORATORY, LOS ALAMOS, NM

    Dr. Hecker. Thank you, Mr. Chairman.
    Senator Lugar, very nice to see you again.
    As you said, Mr. Chairman, I have two statements for the 
record. And what I had planned to do was summarize them 
briefly. But because of the hour, I will try to summarize them 
even more briefly. But I do want to state at the outset, much 
as Secretary Cohen did, how much I personally appreciate the 
leadership that both of you have shown in this very, very 
important subject.
    And I know, Senator Biden, that the March 6 hearing that 
you held on radiological terrorism, and I think what you also 
called basement nukes, really should be required reading for 
people on that subject. It was very, very educational.
    And, of course, Senator Lugar is very well known not only 
in this country, for cooperative threat reduction, but the 
place where I travel a lot, which is in Russia, including in 
the closed cities.
    In the extensive paper that I have offered for the record, 
I try to tackle the issue of solutions. You have very well 
outlined the problems. And the solutions are quite specific. As 
you saw, there are two tables. The tables are based on a 
methodology of looking at the following. First, define what 
sort of relationship we want to have with Russia.
    When I wrote this paper in August of 2001,\1\ that was not 
clear. So I actually wrote it for three potential scenarios, 
one of not friend, not foe, which is, I think, where we were 
then, to potential ally. And I said the best we probably could 
get to was what I call the France model, which is an 
independent-minded ally. And the third was reemerging 
adversary.
---------------------------------------------------------------------------
    \1\ The paper referred to can be accessed at the following Web 
site: http://cns.miis.edu/pubs/npr/vol08/82/heck82.htm
---------------------------------------------------------------------------
    I think that situation has been cleared up since last 
August because of the tragic events of 9/11 and also the 
decision made by President Putin to ally himself with the 
United States. So clearly, we should be looking in my tables at 
the ally scenario.
    But then also, in looking at a hierarchy or risk, I thought 
it was important to set priorities because, as you have already 
indicated, the U.S. programs in this arena are not necessarily 
terribly well-structured and coordinated. And so I offer a 
hierarchy of nuclear risks from the very worst that could 
happen to things that are still important. And the bottom line 
is that I believe we need a comprehensive strategy to tackle 
the entire set of nuclear issues in Russia.
    I also believe that there is no single silver bullet to 
solve this problem. I also believe strongly that what you had 
just indicated, Mr. Chairman, the importance of funding, that 
money is essential. In other words, it is necessary, but it is 
not a sufficient condition.
    Today how we run these programs, how we actually work with 
the Russians is at least as important as how much money we put 
in these programs. And in fact, and I outline this in my 
written statement, we have lost our way from the early days of 
remarkable cooperation between the nuclear complexes of Russia 
and that of the United States to the last 4 or 5 years, during 
which that spirit of partnership has essentially drifted away.
    And I personally believe that we will not make the progress 
that you have called for so far this morning without 
reestablishing a set of common objectives. After all, the 
materials that you talked about, the dangers that you talked 
about, these are Russia's responsibilities. They are their 
responsibilities; they cannot delegate those responsibilities. 
All we can do is help. We cannot dictate. We cannot buy our way 
into the Russian nuclear complex.
    And so structuring how we run these programs is absolutely 
crucial to making progress. Nevertheless, the solutions that I 
outline, I think, are still as applicable today as when I wrote 
them. However, in the written statement I also update, let us 
say, the scenario of risks that I view today; that is, nuclear 
risks in the world after 9/11.
    The single thing that really hits me is that today, as we 
look at the urgency of problems, there are nuclear risks 
outside of Russia that are actually more urgent today than 
those within Russia. Now as I also state, the risks and 
vulnerabilities within the Russian complex remain high because, 
although we have made much progress through the Nunn-Lugar 
program, through the lab-to-lab programs, the fundamental 
problems have not been resolved in the 10-years that we have 
been working together.
    But as we look today, the problems are also international. 
And I lay out--and actually, Senator Lugar, this was inspired 
by your effort and your speech in December, where you talked 
about broadening the solution to look at the international 
problem. There are three pieces to the strategy.
    First and foremost, we should make sure that the nuclear 
weapons themselves are safe. And that means in the five nuclear 
powers, as well as in India, Pakistan, and Israel, for example. 
That we must develop rigorous what we call MPC&A--and that is 
the Materials Protection Control and Accounting programs--not 
only in Russia, but wherever those materials might be. I mean 
weapons-useable materials. That means materials that are 
originated in either the defense programs of a country or those 
that are part of the civilian programs.
    And particularly the ones I am concerned about today are 
materials associated with research reactors around the world. 
As a result of President Eisenhower's initiative for Atoms for 
Peace in 1953, these were distributed around the world. And of 
course, the International Atomic Energy Agency has 
responsibility.
    But as we look at the security of those materials today, 
especially in light of the concerns that you mention about gun-
type weapons, that means highly enriched uranium, and that is 
what is in many of these research reactors, that needs 
reconsideration today.
    The commercial nuclear power situation is one where today I 
feel quite comfortable that we have adequate safeguards. But 
many people believe that the way to the future in energy is 
more nuclear power. And even if we do not believe it ourselves, 
let me tell you, the Russians do. There is hardly a day that 
passes that you do not read in the newspaper of yet another 
deal of Russia with some country to build a commercial nuclear 
power station. So if there is an expansion of commercial 
nuclear power, we must also be certain that those materials are 
guarded.
    And then the third piece to the overall integrated 
international strategy is the one that you adequately covered 
in the March 6 hearing. This is not new, but it has really been 
brought to our attention since 9/11. And that is the threat of 
radiological terrorism. And that is not just weapons-useable 
material to make a bomb, but to scatter radioactive materials 
either through some sort of a dirty bomb or radiological 
dispersal device.
    The Chairman. If I could interrupt you just for a second. I 
am not--I have no personal knowledge of this, just reporting on 
a report, though, on Sunday in the Washington Post. According 
to--I mean, today. Was it the Post--in the Post today that Abu 
Zubaida, the highest al-Qaeda operative allegedly, told U.S. 
interrogators on Sunday that al-Qaeda was working on a dirty 
bomb radiological weapon and that they ``know how to do it.''
    Dr. Hecker. Let me just--I can summarize to some extent the 
bottom line of your hearing on March 6. And that is that a 
dirty bomb is not a weapon of mass destruction. It is a weapon 
of mass disruption. And there are things that can be done to 
avoid that disruption, because it comes from fear and panic. 
There are lots of things that can be done.
    There are also, then, things that can be done in terms of 
getting rid of or controlling these materials worldwide. And I 
believe that should be part of an international program now 
that we have had the events of 9/11.
    So that is what I have laid out in my statements. I just 
wanted to briefly reiterate those points. And, of course, I 
will be happy to answer any questions that you may have.
    The Chairman. Thank you very much.
    [The prepared statement of Dr. Hecker follows:]

   Prepared Statement of Dr. Siegfried S. Hecker, Senior Fellow, Los 
                       Alamos National Laboratory

    Mr. Chairman, I am honored to share my views about what can be done 
to increase our nonproliferation efforts in the Former Soviet Union. 
Many of the questions raised in your letter of invitation are covered 
in detail in my Summer 2001 Nonproliferation Review article on nuclear 
cooperation with Russia. With your permission, I would like to enter it 
into the record. In my written statement, that I would also like to 
enter into the record, I address how the nonproliferation risks have 
changed since September 11. I will summarize my statement this morning. 
Specifically, I want to make three points.
    First, the risks and vulnerabilities in the Russian nuclear complex 
remain high. Fortunately, in the ten years that have passed since the 
dissolution of the Soviet Union, nothing really terrible has happened 
in the Russian nuclear complex. Most of the credit must go to the 
Russians, although initial progress made by cooperative programs 
sponsored by the United States had a significant positive impact. 
However, many opportunities were missed to build a lasting partnership 
and to tackle the root causes of the problem.
    Second, following the tragic events of 9/11 and President Putin's 
decision to ally Russia with the West, we should ask Russia to join 
with us in a new cooperative effort to reduce the threat of terrorism 
and proliferation of weapons of mass destruction by improving nuclear 
security worldwide, and to redouble her own efforts to improve nuclear 
security within Russia. Today, the nuclear security challenge outside 
Russia is even more urgent than that within Russia itself. The events 
of 9/11 and the recent violence in the Middle East have heightened our 
concerns about nuclear security in South Asia, Central Asia, and the 
Middle East.
    Third, to keep nuclear weapons, their constituent materials, and 
other dangerous radioactive materials out of the wrong hands worldwide, 
we should mount an intense, comprehensive international nuclear 
security initiative with three thrusts: 1) Ensure rigorous security and 
control of nuclear weapons in each of the five nuclear weapons states, 
as well as in India, Pakistan, and Israel; 2) Develop and enforce 
rigorous protection, control, and accounting for all weapons-usable 
nuclear materials whether designated for peaceful or defense purposes, 
and 3) Address the threat of radiological terrorism by developing 
effective security, control, and disposition measures for radioactive 
materials. Improving security at nuclear facilities to protect against 
sabotage is an important part of this third thrust.
    i. 1991-2002: important progress, but also an opportunity lost.
    The attempted coup in August 1991, and the attendant uncertainties 
about the control of the Soviet nuclear arsenal, underscored a vital 
concern: how Russia manages and protects her nuclear assets will affect 
our security and potentially threaten our people and assets around the 
world. In the years that followed, the threat of ``loose nukes'' and 
the ``clear and present danger'' posed by Russia's large and poorly 
secured stock of weapons-usable materials--plutonium and highly 
enriched uranium (HEU)--emerged as vital national security issues for 
the United States whose solution required cooperation with Russia.
    I had the opportunity to witness the new environment in February 
1992 as one of the first Americans to visit the Russian nuclear weapons 
complex. This visit occurred only two months after the dissolution of 
the Soviet Union. I was struck by how the Soviet Union's strength--an 
enormous nuclear weapons complex, huge number of weapons and weapons-
usable materials--had suddenly turned into a liability because Russia 
could no longer afford them or secure them adequately. In spite of 
popular reports to the contrary, Russian nuclear weapons appeared to be 
adequately protected, at least as long as the military organizations 
responsible for security maintained the high level of discipline that 
had distinguished them for many years.
    The security of nuclear materials, however, was of great concern as 
Russia made a wrenching transition from a centrally controlled police 
state to a more open, democratic form of government. During Soviet 
times, the nuclear complex had an admirable record of nuclear security. 
Now, however, the upheaval of political, economic, and social 
structures in Russia created unacceptable nuclear security 
vulnerabilities in Russia and for the rest of the world. A much more 
rigorous nuclear safeguards system in which modern technology and 
practices are combined with personnel and physical security was 
urgently needed to replace Soviet guns, guards, and gulags.
    As we now look back over the last decade, the good news is that 
nothing really terrible happened in the Russian nuclear complex in 
spite of the enormous hardship endured by the Russian people. The early 
years were marked by surprising cooperation between our governments in 
the nuclear area, through unilateral actions on both sides (most 
notably, the presidential initiatives in the fall of 1991) and through 
the initial implementation of the Nunn-Lugar Cooperative Threat 
Reduction (CTR) program. By the end of 1996, the CTR program helped the 
newly independent states of Ukraine, Kazakhstan, and Belarus return to 
Russia the nuclear weapons inherited from the Soviet Union. Much of the 
strategic missile and nuclear weapons infrastructure in these states 
was destroyed. Technical assistance was rendered to Russia to protect 
nuclear weapons in transit. Some vulnerable nuclear materials in 
Kazakhstan were removed to safety in the United States. Construction of 
a large modern, safe storage facility for excess Russian fissile 
materials was begun. And, a landmark agreement led to the conversion of 
weapons-grade uranium to low enriched uranium (LEU) reactor fuel sold 
to the U.S. nuclear power market (the so-called HEU/LEU deal).
    In parallel, the informal scientific network (lab-to-lab 
cooperation) established between U.S. and Russian nuclear scientists 
during our first visit to Russia ten years ago began to tackle problems 
such as nuclear materials safeguards that were stalled or moving very 
slowly in formal governmental diplomatic channels. In June 1994, with 
the strong encouragement of then Under Secretary Charles Curtis, I 
signed the first contracts for cooperative nuclear materials 
protection, control, and accounting (MPC&A) with Russian defense and 
civilian nuclear institutes on behalf of the Department of Energy. In 
addition to strong backing from Mr. Curtis and others the Executive 
Branch, a bipartisan coalition in Congress, led by Senator Pete 
Domenici, provided both political and financial support for the lab-to-
lab MPC&A activities. With their support and the remarkable spirit of 
cooperation based on mutual respect and shared objectives between the 
U.S. and Russian laboratories, we were able to break the logjam and 
rapidly accelerate improvements in nuclear safeguards in Russia. 
Senator Domenici's leadership in building support for the lab-to-lab 
program also extended into many related threat reduction programs and 
was instrumental, along with that of Senators Nunn and Lugar, in 
establishing the comprehensive and wide-ranging cooperative threat 
reduction programs that have accomplished so much over the last decade.
    However, most of the credit for avoiding disaster in the Russian 
nuclear complex must go to the Russians--most importantly to the 
loyalty and patriotism of the Russian nuclear workers. Their discipline 
under conditions of personal hardship was remarkable. We must also 
credit the leadership of the nuclear complex during and right after the 
transition, specifically former Minister of Atomic Energy, Viktor N. 
Mikhailov, and First Deputy Minister, Lev D. Ryabev, as well as the 
directors of the nuclear institutes and enterprises. Their actions 
early in the transition managed against difficult odds to sustain the 
complex through those turbulent times and prevented it from fragmenting 
into even more dangerous and desperate entities. Also, although their 
decision to keep the most sensitive defense facilities and towns (so-
called nuclear cities) closed undoubtedly had several distinct 
motivations, in retrospect, it was the right decision from the 
standpoint of nuclear security. Although this restrictive approach 
hampered much-needed business development, defense conversion, and 
downsizing efforts in these cities, it helped protect nuclear materials 
and nuclear secrets. Civilian nuclear facilities and some defense sites 
located in open cities generally experienced a more abrupt and 
difficult transition. In fact, these facilities along with the Russian 
Navy posed by far the greatest immediate proliferation risk. Several 
confirmed thefts of nuclear materials, albeit of small quantities, in 
the early 1990s highlighted the vulnerability of the Russian nuclear 
complex.
    Much of the initial success in the MPC&A program must be credited 
to the partnership approach between the Department of Energy 
laboratories and the Russian facilities and to the remarkable access 
the laboratories had to Russian nuclear facilities. I believe that only 
a self-declared ``hawk'' such as Minister V.N. Mikhailov was capable of 
providing the requisite political cover and he had the clout with 
Russian security services to enable this progress. In fact, he opened 
the door for the first American visits to the Russian nuclear weapons 
laboratories shortly after he led the Russian scientific delegation to 
the 1988 Joint Verification Experiments and the subsequent nuclear 
testing talks at Geneva. During the ramp-up of the MPC&A program in the 
mid-1990s, the U.S. side was able to make a convincing case to the 
Russians that the program was in their interest. In spite of the fact 
that Russian security services took control of the program, progress 
was rapid because of the strong partnership between U.S. and Russian 
institutes and the fact that the Russian institutes acted as the 
intermediaries to some of the key sensitive sites in the Russian 
complex. For example, the Kurchatov Institute was the lead laboratory 
for the Russian Navy to help it address some of the most urgent nuclear 
materials vulnerabilities.
    The bad news is that the problems in the Russian nuclear complex 
were much greater and more pervasive than either Russians or Americans 
realized ten years ago. The Russian nuclear complex in 1992 was vastly 
oversized and overstaffed for post-Cold War defense requirements, and 
had been in difficult economic straits for years. Yet, unlike in the 
United States, dramatic downsizing of the Russian complex was believed 
too risky by its government. Such downsizing was painful in the United 
States, but was ameliorated by significant increases in federal 
environmental budgets at DOE nuclear sites, an innovative community and 
worker transition program, and by a healthy U.S. economy. In Russia, on 
the other hand, the closed cities were embedded in a country with a 
bankrupt federal government whose governing institutions were 
collapsing. Laying off workers in the closed cities risked serious 
social unrest. Opening up the cities for business development posed a 
major proliferation risk. Consequently, the Russian government chose to 
proceed with a slow but deliberate conversion-in-place program. Such an 
effort would have been difficult under conditions of a healthy economy 
and was extraordinarily difficult for these isolated cities in a 
chaotic national economy. U.S. programs designed to help the Russian 
nuclear complex conversion received inadequate support from Congress. 
Moreover, some of the initial efforts were misguided and elicited 
strong negative reactions from the Russian side. Some of the problems 
been rectified during the past year and substantial progress is now 
being made in some of the programs that experienced difficulties 
earlier.
    Today, serious concerns about security of weapons-usable materials 
in Russia and the other states of the former Soviet Union remain 
because progress slowed dramatically in the second half of the 1990s as 
mistrust replaced cooperation. What went wrong? Why did we miss the 
chance to help Russia further improve nuclear security in its complex 
and put our relationship with Russia on firmer ground? I believe that 
some of our leaders were slow to recognize that we truly were 
threatened more by Russia's weakness than her strength. Consequently, 
instead of developing and maintaining an integrated strategy based on 
such an overriding guiding principle, the executive agencies and 
Congress independently developed their own projects resulting in a 
patchwork quilt of programs. Although each may have been useful and 
justified on its own terms, overall strategic direction was missing and 
little effective coordination existed, either with Russia or within the 
U.S. interagency community. Some programs pushed by the U.S. side ran 
counter to Russia's national security interests or energy strategy, 
forcing Russia to choose between her national interest and receiving 
much-needed financial assistance. Moreover, the overall political 
relationship between our countries was severely strained by NATO 
expansion, the bombing of Serbia, national missile defense, and 
disagreements over Iran, Iraq, and Chechnya.
    Concurrently, partially to placate a skeptical Congress, executive 
agencies dramatically changed the execution of key nuclear materials 
security programs with Russia. They began to take a confrontational 
line with Russian counterparts, replacing partnership with a 
unilateral, bureaucratic approach that insisted on intrusive and 
unnecessary physical access to sensitive Russian facilities in exchange 
for U.S. financial support. During a trip this March, I was told by one 
of my Russian colleagues: ``The nuclear materials arena is very 
sensitive for the Russians. Despite this sensitivity, the American side 
constantly tried to get access everywhere and to obtain sensitive 
information. This must have been motivated by various reasons (implying 
that Russia suspected an intelligence motivation). This American desire 
for extensive information and access backfired. It caused the 
strengthening of the security services--back to their previous role and 
prominence.'' I believe that the Russian bureaucracy and security 
services made a strong comeback on their own for other reasons, but the 
change in tactics on the U.S. side made matters worse and accelerated 
the trend. Furthermore, it eroded the spirit of partnership and nearly 
depleted the bank account of trust and good will. Consequently, 
progress in nuclear materials protection in key Russian nuclear defense 
facilities has slowed substantially in recent years. The jury is still 
out whether or not the recently signed access agreements will put us 
back on a more productive path, but we hope they will be a springboard 
for repairing the damage of the last few years and returning to a 
pattern of genuine cooperation. Thanks to congressional action, the 
current funding for the MPC&A program is plentiful. However, we must 
not make the mistake of trying to buy our way into the Russian 
facilities. Instead, we must re-examine our common objectives, re-
establish the spirit of partnership, and together tackle the remaining 
challenges in the Russian nuclear complex.
    During the past five years, several other cooperative threat 
reduction programs ran into similar difficulties as U.S. and Russian 
objectives progressively diverged. The HEU/LEU purchase deal, which 
initially provided the Russian complex much of the funds for conversion 
of its facilities, has been on the ropes periodically for several 
years. The plutonium production reactor conversion project was ill 
conceived from the outset and had to be overhauled several times. 
Progress on implementing the plutonium disposition agreement in a 
timely manner remains elusive. And the proposed moratorium on civilian 
fuel processing never got off the ground. Meanwhile, the financially 
desperate nuclear ministry aggressively marketed its civilian nuclear 
technologies around the world, including to potential proliferant 
states such as Iran. Russian nuclear cooperation with Iran has greatly 
alarmed the U.S. government and seriously hampered many of the U.S.-
Russian cooperative programs. Concurrently, the partial recovery of the 
Russian economy based mostly on the global rise of energy prices and 
the August 1998 devaluation of the ruble changed the economic situation 
in the nuclear complex for the better, giving Russia greater 
independence from U.S. financial support.
    So, as we look back over the past decade, much has been done to 
help Russia deal with the clear and present danger resulting from the 
turmoil in its nuclear complex following the breakup of the Soviet 
Union. And although Russia avoided the worst during this difficult 
transition, the United States lost a promising opportunity to help 
shape the future direction of Russia's nuclear enterprise and together 
with Russia to build a new era of global security. Neither side focused 
on the historic opportunity to jointly reduce the nuclear dangers. 
Before 9/11 the window of opportunity appeared to be closing, both 
because Russia did not need our money as desperately as before and 
because the security services were once again closing up the complex.
          ii. post 9/11: another chance to build a partnership
    The tragic events of 9/11 combined with President Putin's decision 
to ally Russia with the West in the struggle against terrorism provide 
another chance to build a partnership. The terrorist attacks crossed 
the threshold of inflicting mass casualties and underscored our 
vulnerability to the nexus of terrorism and mass destruction. Therefore 
the statement made by Presidents Bush and Putin at their Crawford Ranch 
meeting last November--``Our highest priority is to keep terrorists 
from acquiring weapons of mass destruction''--should form the basis of 
a new partnership against the threat of terrorism and proliferation of 
weapons of mass destruction. Because of the events of 9/11, this threat 
is now more urgent than that posed by the Russian nuclear complex. We 
should now challenge Russia to work with us side by side to tackle the 
most urgent international nuclear dangers. We should re-examine the 
highly debatable proposition that Russia is the world's greatest 
proliferation threat, and we should place the Russian threat, important 
as it is, in its proper perspective among the full spectrum of threats. 
Although significant differences are bound to remain in U.S. and 
Russian security objectives, we have much more to gain than to lose by 
cooperation, especially in the nuclear arena.
    The events of 9/11 call for a greater sense of urgency in dealing 
with international nuclear security matters. For example, the fragile 
nature of Pakistan's government and that divided nation's strong anti-
Western sentiments heighten our concerns about the security of its 
nuclear weapons and materials. This situation is exacerbated by the 
tense situation in Kashmir, and has the potential of a spillover to 
India and its nuclear arsenal. The renewed violence in the Middle East 
highlights long-standing concerns about the potential, sooner or later, 
for nuclear conflict in that region. It is especially important to 
thwart the nuclear ambitions of Iraq and fran. The war in Afghanistan 
highlights the need to keep nuclear weapons and materials out of 
Central Asia. Fortunately, the Nunn-Lugar program facilitated the 
return of nuclear weapons from Kazakhstan to Russia, but dangerous 
weapons-usable nuclear materials remain in Kazakhstan. A renewed joint 
U.S. and Russian commitment to nonproliferation and export controls may 
also help to hold in check North Korea's nuclear ambitions and prevent 
other states or groups from obtaining nuclear weapons. The United 
States and Russia can play separate but supportive roles to effectively 
and quickly help enhance nuclear security around the world.
    To deal with the likelihood that some weapons-usable materials are 
already in dangerous hands, the United States and Russia should now 
prepare to respond jointly to potential nuclear terrorist incidents or 
threats. Such preparations may include sting operations against 
suspected targets to recover missing materials and joint emergency 
response exercises spanning the gamut from disabling nuclear devices to 
mitigating the consequences in case of nuclear attacks. The well-
intended ``Atoms for Peace'' program promoted nuclear research reactors 
in countries of the world that now do not have the financial means or 
political stability to maintain and protect them. Together we should 
accelerate work with the International Atomic Energy Agency (IAEA) to 
expedite the conversion of weapons-grade fuels at all reactors and the 
removal of reactors from countries that are judged willing or can be 
persuaded to give them up.
    The events of 9/11 have also brought our vulnerability to 
radiological terrorism into starker focus--dispersing nuclear materials 
(without a nuclear explosion) or sabotaging a nuclear facility. 
Although the consequences of a radiological act are dramatically less 
than a nuclear detonation, the likelihood of such an event is also much 
greater because of the relative ease of obtaining suitable materials--
which include nuclear waste, spent fuel, and industrial and medical 
radiation sources. Together, our countries should lead efforts to 
counter radiological terrorism.
    Although international vulnerabilities represent the most urgent 
nuclear concerns today, many of the vulnerabilities in the Russian 
nuclear complex resulting from the dissolution of the Soviet Union and 
the subsequent economic hardship remain. Therefore, it is imperative 
that Russia redouble her efforts to safeguard her own nuclear 
materials. This responsibility is an inherently governmental function 
of the Russian Federation. It cannot be delegated; it cannot be 
compromised. The United States can only offer to help, we cannot 
dictate; we cannot demand. We must rebuild the spirit of partnership 
that characterized initial cooperation. The threat of international 
terrorism offers another chance to rebuild this partnership because the 
United States and Russia have common objectives to counter this threat 
and both bring substantial skills to the table. Also, the activities 
under the new partnership should be viewed as less threatening by 
Russia or accusatory toward Russia and should allow us to restore good 
will and trust.
    Such a partnership should allow the United States to restructure 
nuclear cooperation with Russia, putting in practice the belief that we 
are threatened more by Russia's weakness than her strength. We should 
first focus our efforts to help Russia downsize its complex and to 
become self sufficient in all aspects of safety and security of its 
complex--its nuclear weapons, its nuclear materials, and its nuclear 
experts. This effort should be considered a transitional phase with the 
objective of helping the Russian Federation develop its own modern, 
indigenous MPC&A system. We should not impede progress by insisting on 
unnecessarily intrusive physical access to sensitive Russian 
facilities. Instead, our support should be focused on helping the 
Russian Federation develop and implement its own system, while ensuring 
ourselves that U.S. money is spent properly and effectively.
    Beyond this transitional phase, we should strive to develop an 
equal partnership--one without money changing hands--to jointly lead 
international efforts to fight terrorism and prevent the proliferation 
of weapons of mass destruction. Such a partnership should include a 
commitment to reduce all nuclear dangers worldwide while promoting the 
beneficial contributions of nuclear technologies. In fact, the 5Oth 
anniversary of President Eisenhower's ``Atoms for Peace'' initiative in 
December 2003 provides an opportune occasion to announce a truly new 
vision and new partnership that reflect the dramatically different 
political environment of today.
    iii. an outline of a u.s.-russian partnership to fight nuclear 
                      terrorism and proliferation
    To meet the urgent concerns highlighted by the events of 9/11, we 
should begin immediately to build a partnership on the foundations of 
the Nunn-Lugar-Domenici legislation and the lab-to-lab cooperation. I 
briefly outline the three components of a joint U.S.-Russian initiative 
to fight nuclear terrorism and proliferation.
1. Rigorous security for nuclear weapons
    The events of 9/11 prompted a reexamination of the security 
controls for nuclear weapons by each of the five nuclear weapon states. 
We can assume that the same occurred in India, Pakistan, and Israel. 
Concerns over the security of nuclear weapons and nuclear materials in 
these countries have been increased dramatically by the war in 
Afghanistan and the resulting tensions in Pakistan, the ethnic unrest 
and terrorist activities in India and Pakistan, and the escalating 
violence in the Middle East. The United States should do everything in 
its power to work with all of these states to prevent the loss of 
control of nuclear weapons and its devastating consequences.
    The five nuclear weapon states could share the lessons learned from 
their own reexaminations of nuclear weapons security. They could share 
ideas and information on recommended practices and standards for 
nuclear weapons security. They should take additional steps if 
necessary to demonstrate to the world, without divulging sensitive 
details, that their weapons are secure. Such cooperation falls within 
the bounds of historical relations of the United States, Great Britain 
and France, and to a lesser extent Russia. During the Cold War, there 
was virtually no interaction with the Soviet Union on matters of 
nuclear weapons security, but in recent years a substantial cooperative 
effort has been mounted with Russia under the Nunn-Lugar program. Some 
preliminary work has also been started on safety and transparency. 
Although delicate, these efforts should all be accelerated and 
expanded. Cooperation and transparency should be explored, including 
revisiting the possibility of an agreement for cooperation that would 
permit limited sharing of certain kinds of classified information under 
carefully established rules and procedures.
    Any dialog with China on nuclear weapons security would require 
delicate diplomacy. China adopted the old Soviet model of security, 
which is effective only in a tightly controlled, closed society--a 
model that may not work in the China of tomorrow. The initial U.S. 
contacts in the mid-1990s that focused on security of civilian nuclear 
materials were suspended late in the decade as result of the furor over 
potential Chinese nuclear espionage. Now, however, heightened concerns 
over nuclear security call for a re-evaluation of limited, focused 
dialog with China on nuclear security. Exchanges focusing on the 
security of civilian nuclear materials could be revisited before 
attempting to deal with defense materials or the security of nuclear 
weapons themselves. Such exploration must, of course, be done within 
the context of the larger U.S.-China security relationship.
    The most striking and urgent nuclear security concern today is the 
security of nuclear weapons and materials in Pakistan, coupled with 
closely related concerns in India. The U.S. government has opened a 
limited dialog with both countries on these matters. For many years, 
any sort of cooperation with, or assistance to, the nuclear programs of 
Pakistan and India was out of the question, because of nonproliferation 
imperatives. Now, a reassessment is unavoidable. Clearly, it is in the 
interest of the international community that India and Pakistan 
implement rigorous nuclear safeguards in their nuclear weapons 
programs. But there is a fine line between helping them avoid disaster 
and tacitly appearing to approve their nuclear weapons status and 
programs, in effect undermining the nonproliferation regime. The U.S. 
government must re-examine where to draw that line. At a minimum, we 
must do what we can to make sure India and Pakistan each devote 
adequate attention to the issue and that they take a sufficiently 
broad, systematic approach to matters of nuclear security (both for 
weapons and for materials). Given that, they can probably do the job 
themselves. Similar dialog is necessary with all countries where this 
threat exists.
2. Rigorous protection, control, and accounting for all weapons-usable 
        nuclear materials whether designated for peaceful purposes or 
        for defense programs
    To be successful in this endeavor, we must first and foremost 
finish the job we started with the Russian nuclear establishment to 
help it protect its vast storehouse of nuclear materials. I described 
above how these programs should be restructured to help Russia build 
and implement a modern, indigenous MPC&A program. One of the key 
components of getting the job done is the consolidation of the number 
of sites--addressing hundreds of tons of material, not just the few 
tons being addressed in the existing material consolidation and 
conversion effort--and a continued reduction of the total amount of 
material (through programs such as the HEU/LEU purchase and disposition 
of excess weapons plutonium).
    Second, we have unfinished business in the other states of the 
former Soviet Union. As mentioned, the Nunn-Lugar program helped to 
return Soviet nuclear weapons from the newly independent states of 
Kazakhstan, Ukraine, and Belarus. However, weapons-usable materials 
remain, most of which are no longer needed for their original purpose. 
So, now we must tackle the more difficult job of converting or removing 
all unneeded weapons-usable materials from these and all other newly 
independent states. Until that can be accomplished, all materials must 
be protected by a rigorous nuclear safeguards system.
    Focusing on weapons-designated materials is not sufficient. 
Weapons-usable uranium and plutonium are also fuel and/or byproducts of 
the civilian nuclear fuel cycle. Although most current commercial power 
reactors in the world use uranium enriched only to 3 to 4% uranium-235 
(the weapons-usable isotope), they produce plutonium that can be (and 
in some countries is) separated from the spent fuel. Moreover, smaller 
reactors such as those used for research are often fueled with uranium 
enriched to more than 20% uranium-235 (the IAEA threshold for weapons-
usable uranium). Commercial power reactors today enjoy a very good 
record of nuclear materials safeguards. This problem will become more 
challenging as more reactors are built around the world, especially in 
some less stable nations. The IAEA plays an important international 
role here. With sufficient vigilance this problem can be adequately 
addressed even in a future with increased nuclear power.
    The situation with research reactors (and other nuclear research 
facilities) is more problematic. The ``Atoms for Peace'' program 
encouraged the export of research reactors to all parts of the globe. 
In retrospect, reactors, often fueled with HEU, were in some cases 
located in politically unstable, technologically unprepared, and 
economically disadvantaged countries (currently 43 countries, including 
Uzbekistan, Ghana, and Algeria, for example). The IAEA and the U.S. 
government have encouraged the conversion of research reactors from HEU 
to LEU (an agreement was recently reached with Uzbekistan, for 
example). However, the current effort is insufficient in light of the 
concerns raised by the events of 9/11. A large number of these reactors 
(many of which are no longer operable) should be shut down, 
decommissioned and the nuclear materials withdrawn completely. A 
significant number of reactors or nuclear research facilities are 
located in the states of the former Soviet bloc; states that can no 
longer afford them or adequately provide for their security. Solutions 
to these problems are urgently needed and will require an expensive 
effort and difficult choices. Among the major challenges is dealing 
with the spent fuel and radioactive waste. Solving these problems will 
require strong leadership from the United States, Russia and other 
reactor-exporting countries working closely with the IAEA.
    The IAEA should have a major role in the effort to enhance the 
security of nuclear materials in civilian applications worldwide. The 
Nuclear Threat Initiative has pointed the way, through its monetary 
contribution announced in Vienna in October 2001. The U.S. government 
pledged a matching contribution in November when Energy Secretary 
Abraham addressed the IAEA Board of Governors, and other countries have 
followed suit. But a great deal of heavy lifting will be necessary to 
translate these initial steps into a meaningful action-oriented program 
on the worldwide scale that is needed. Congress will need to take 
strong action. And the Executive Branch must follow through with major 
bilateral and multilateral efforts to enlist the strong support of 
other countries. In parallel, the United States and Russia could lead a 
campaign to down-blend all of the world's HEU not required for 
legitimate purposes to less than 20%, thereby eliminating its 
proliferation danger. There is much less need for HEU today than was 
envisaged in the early days of nuclear power.
3. Expand security measures to radioactive materials for radiological 
        terrorism
    Radiological dispersal devices (often referred to as ``dirty'' 
bombs) that spread radioactive materials without a nuclear detonation 
are weapons of mass disruption rather than weapons of mass destruction. 
The disruption resulting from the 9/11 attacks had a devastating ripple 
effect, both economically and psychologically, across the entire 
nation. Had the attack also involved the dispersal of dangerous amounts 
of radioactive material in a populated area, the resulting disruption 
would have been significantly greater. We must improve our efforts to 
avoid and respond to radiological terrorism.
    The source materials for radiological terrorism are highly diverse 
and relatively accessible, much more accessible than weapons-usable 
nuclear materials. Materials for radiological devices include all 
radioactive materials of the nuclear fuel cycle (both civilian and 
military) as well as radiation sources used in medical and industrial 
applications. They vary enormously in their radiotoxicity and their 
lethality. Moreover, radioactive materials from the nuclear fuel cycle 
(including fresh fuel, spent fuel, and nuclear waste) are present in 
dozens of nations, and radiation sources are present in most nations of 
the world. If and when Al Qaida or other terrorist organizations decide 
to use radiological weapons, there is little doubt--under current 
conditions--that they will be able to obtain them. In addition, 
sabotage of nuclear reactors or other fuel-cycle facilities poses a 
serious potential threat.
    Securing radioactive materials that constitute a radiological 
threat presents an enormous challenge. Even in the United States, where 
extensive government regulations control the handling and 
transportation of radioactive materials, the security of such 
materials, in light of new, post 9/11 concerns, needs more attention. 
For example, as of 2001, close to 5,000 orphaned radiation sources 
(sources without a current owner) were identified in the United States. 
Prior to 9/11, the orphan source problem was recognized and the steps 
and the resources required to solve the problem were well understood, 
but there was no sense of urgency. Post 9/11, there is little excuse 
for delay.
    Annually, more than 200 radiation sources are reported stolen, 
lost, or unaccounted for in the United States alone. Internationally, 
110 countries do not even have adequate regulations controlling such 
materials. We must challenge our experts now to devise a way to deal 
with this problem internationally. We should explore establishing an 
aggressive international orphan source program. In some countries or 
for new problems, we may want to focus on information exchange and 
sharing best practices and standards. Also, we must strengthen our 
capability to respond to acts of radiological terrorism, if and when 
they occur. Effective response can greatly reduce the harm from a 
radiological event. One of the most important aspects of homeland 
security against radiological threats will be to inform the public 
concerning the real hazards before an incident occurs. If one can 
clearly communicate the fact that radiological weapons are not weapons 
of mass destruction, then we may be able to avoid mass disruption.
    A high priority radiological security initiative should include 
both a domestic and an international component. The domestic part would 
necessarily involve the various agencies with responsibilities and 
expertise in this area, under the coordination of Governor Ridge's 
office. The international component should build on the capabilities 
and experience of the IAEA, which has already assembled the basic 
building blocks of a comprehensive international program. However, 
Congress and the Executive Branch must act aggressively, through 
bilateral as well as multilateral channels, to enlist strong 
international support and commitment.
    Mr. Chairman, I want to close my remarks by restating my three main 
themes. 1) We are fortunate that a major disaster in the Russian 
nuclear complex has been avoided in the 10 years since the dissolution 
of the Soviet Union. However, risk and vulnerability of the Russian 
nuclear complex remains high because we lost a grand opportunity to 
help Russia build its own, sustainable nuclear safeguards system and to 
develop a partnership for greater global security. 2) Post 9/11, we 
have another opportunity to rebuild the partnership by focusing on the 
fight against international terrorism and proliferation of weapons of 
mass destruction. 3) I briefly outlined the three elements of a program 
to meet the urgent concerns of today and I described the opportunity 
that we have to build a better, more strategic partnership with Russia 
in the spirit of revisiting the ``Atoms for Peace'' initiative at its 
50th anniversary next year.
    Thank you Mr. Chairman for giving me the opportunity to share my 
views on these important issues.

    The Chairman. Dr. Menges, welcome.

  STATEMENT OF DR. CONSTANTINE C. MENGES, SENIOR FELLOW, THE 
                HUDSON INSTITUTE, WASHINGTON, DC

    Dr. Menges. Senator Biden, it is a pleasure to be with you 
and you, Senator Lugar.
    I have been working on the Soviet Union and issues of 
Soviet and Russian foreign policy for more than 35 years. And I 
am pleased to have had the opportunity to serve my government 
three times. And I commend the enormous leadership you both 
have shown in this whole matter, this important matter of the 
control of weapons of mass destruction that are on Russian 
territory. And I think the Cooperative Threat Reduction Program 
has been one of the most important initiatives, one of the most 
farsighted that the Senate has launched. And I think it has 
been extremely--and I support it completely.
    My focus in the testimony that I prepared for you, and I 
summarize briefly in my overview of what we should do, but my 
focus has been not on the question of weapons of mass 
destruction on Russian territory, but on Russia's transfer of 
weapons of mass destruction, components, and expertise on 
ballistic missiles, to regimes the United States of America 
correctly considers hostile.
    And I have a very, I think, nicely summarized, one-page 
chart \2\ in my testimony of North Korea, Iran, and Iraq, and 
the transfer of weapons of mass destruction materials, 
chemical, biological, nuclear ballistic missiles by China and 
Russia--our report dealt with both China and Russia--derived 
entirely, may I say, from the U.S. Government sources, from 
U.S. Government intelligence reports that are declassified, 
that themselves are the result in my view of a farsighted and 
sensible congressional view to have the intelligence community 
of the United States report on this regularly on a biannual 
basis.
---------------------------------------------------------------------------
    \2\ The chart referred to is on page 54.
---------------------------------------------------------------------------
    So I will begin with a brief statement on what Russia is 
doing and has continued to do year after year after year. I 
think it is important to focus on that.
    Russia has continued to provide for North Korea significant 
assistance with its chemical and biological weapons of which it 
has large stocks capable of killing hundreds of thousands that 
it has integrated into its combat doctrine for use against our 
ally, South Korea. Russia has also provided significant help 
with North Korea's ballistic missile program.
    And North Korea in turn, as you know, has provided 
significant help, as the Rumsfeld Commission documented, to 
many other hostile terrorist-supporting states in other 
countries with their missiles and other programs.
    In the case of Iran, which the Department of State calls 
the most active supporter of state terrorism in the world as a 
regime, in its annual report, Russia has provided significant 
help with its development of chemical and biological weapons, 
of which it now has large stocks, as well as with its help for 
nuclear weapons.
    And this continued after September 11, 2001, regrettably, 
as we saw when Secretary of State Powell visited in November 
2001 in Moscow. He brought the issue up, and once again, as has 
happened year after year since 1995, the Russian Government 
turned aside the concerns of the United States about Iran's 
development of nuclear weapons.
    Russia has also provided major help with the development of 
Iran's ballistic missile capabilities, the medium-range and the 
long-range ballistic missile, the 9,200-mile range missile, the 
9,200-mile range missile, which can reach us directly, which, 
of course, is a variation of the North Korean 9,200-mile 
missile.
    Finally, Russia has provided major help to Iraq in its 
development of large stocks of chemical weapons, biological 
weapons, unknown in the matter of its nuclear weapons from the 
intelligence community point of view, and help with its 
ballistic missile program.
    Now I take those three countries because they are three of 
the terrorist-supporting regimes that are significant and 
important and I think pose a direct threat to us. And I would 
say that I would simply like to place on your agenda of 
concern, the agenda of concern of the U.S. Government and our 
public policy, that while it is very important to help Russia 
control weapons of mass destruction on its territory, it is, I 
would say, of equal importance to reduce the spread of these 
weapons and the transfer to regimes that are hostile and that 
we know intend to do the people of the United States harm.
    We know that those regimes intend to harm us. We also know 
that they are intending to harm our close allies, South Korea, 
Israel, regional allies. And, of course, I think it is 
important to point out they also pose a direct threat to Russia 
and to Russia territory. And this is where I come to the 
question, ``Well, what do we do? What should we do in terms of 
public policy?''
    I offer in the concluding two pages of my testimony an 
overview in broad terms of what we should do and then eight 
specific steps. Let me categorize the broad terms.
    First, I begin with information. And here, Senator Lugar, I 
think again you are absolutely right. We have to dramatize for 
our citizens, for our public--you both are correct--the threat 
that these weapons pose, both on Russian territory and the 
threat that they pose when transferred to these hostile 
regimes. We have to make this much more a matter of discussion 
and concern. I think that is the first thing we have to do.
    I think, second, we have to control the spread of U.S. 
technology. That is, we have to be more effective in terms of 
our programs to maintain and guarantee the security of our own 
military and dual-use technology under U.S. law.
    Third, I believe we need to reestablish effective export 
controls. I think it was a mistake to dismantle the COCOM 
system that had worked so well for many years and denying a 
dual-use and advanced military technology to potentially 
hostile powers, or to proliferating powers. And I think we have 
to reestablish that, and I offer some particular examples.
    Fourth, I think it is very important to move beyond words 
with Russia. And here I want to--I began my testimony in the 
written form with the perspective on our approach to Russia 
since the unraveling of communism, which I think has been 
exactly correct. I think there has been bipartisan consensus 
since 1991 and 1992, led by you both, if I may say, that we 
want to see and help Russia to develop as a pluralist political 
democracy, a market-oriented economic system, and to control 
these weapons. Those have been our three fundamental purposes. 
They have been good purposes and correct purposes. They 
continue. They should continue.
    I believe there has been progress in Russia. I have just 
completed a book on U.S. relations with Russia and China. So I 
have examined the internal political evolution, as well as the 
foreign policy of Russia in some depth. I think that is 
progress, but there is a mixed picture, as we well understand, 
internally in Russia.
    Nevertheless, I think our assistance program should 
continue. However, it is important to put this in perspective. 
Since 1991/1992, our bilateral assistance, according to the 
latest executive branch reports, has totaled more than $35 
billion to Russia, of that--to the former Soviet Union--and 
about $18 billion to Russia alone. And that is about evenly 
divided between grant assistance and insurance and commercial 
loans and so forth.
    At the same time, the United States has supported the very 
large program of multilateral assistance. And, of course, many 
of our democratic allies have provided assistance. Based upon 
the available data, the democracies, the major democracies, 
have provided Russia since 1991/1992 to the present about $150 
billion in assistance. This is extremely generous. It is 
significant. The money comes, as we all understand, from the 
working men and women of all the democracies.
    The Chairman. Doctor, does that count--is that $150 billion 
total, including us, or is that----
    Dr. Menges. Yes, it includes us. It includes our $35 
billion bilateral. And that includes, also, some of the debt 
forgiveness and debt restructuring. So that is about $150 
billion. So there is a lot of money that has been provided, a 
lot of----
    The Chairman. I am sorry to--I want to just make sure I 
understand. And that is since----
    Dr. Menges. Since 1992.
    The Chairman. Since 1992. Thank you very much.
    Dr. Menges. Yes. And that also includes all the cooperative 
threat reduction funds and the bilateral assistance.
    I did--by the way, a few years ago, I did an assessment of 
our aid over the first 6 years. And I testified on that before 
the Senate--I was pleased and honored to do so--on just how we 
have done, what we have done with it, how it has worked so far, 
and so forth. That was quite a task, as you could imagine. And 
I think we could do better, as in everything we do in life.
    But keeping with that in mind, with the fact that we have 
and are providing a lot of assistance to Russia, I think it is 
now time to go beyond words and say in a polite, but firm, way 
to the Government of Russia, ``We have asked you to stop this 
selling and transfer of weapons of mass destruction, components 
and expertise year after year after year, through two 
Presidents, two administrations, and it continues. And it 
continues after September 11, 2001, unfortunately, in the new 
context of a more cooperative relationship.''
    Now I would suggest that it is time to consider reducing 
U.S. economic assistance. Not cooperative threat assistance, 
because I agree with you both, this is part of our defense, 
this is in the strong interest, but to reducing the assistance 
in direct proportion to the added cost to the United States and 
its major allies of defending against the military threats 
resulting from Russia proliferation.
    I think this is the time to do this. That is a difficult 
number to estimate. We understand that. But it can be done, and 
I think it is time to do that.
    Now that is where my testimony ends in terms of the overall 
approach. But I would like to add another thought, which I have 
also published in the past and talked with many Russian leaders 
about. And I discuss it in my book.
    And that is, I am also--I believe in disincentives and 
being practical and tangible, but I also believe in incentives. 
And we understand that one of the major priorities for Russia 
and for President Putin is to help the Russian economy develop. 
And it seems to me that it should be possible for the 
industrial democracies, which have a combined GDP of roughly 
$30 trillion, to put together--that is a lot of money, $30 
trillion GDP combined--to put together a grant program for 
Russia on the order of $10 billion to $15 billion a year. A 
grant program, not a World Bank program, not a loan program, 
but a grant program for the development of consumer production 
industries in Russia, consumer production----
    The Chairman. That is a good idea.
    Dr. Menges [continuing]. And tie that into conversion of 
the defense sector; and put that grant program together with 
cooperation as a kind of a Marshall Plan, as it were, in which 
Russia's--the professed need to earn this money from the 
transfer of the weapons of mass destruction, components and 
expertise is put aside. But Russia would have to fulfill the 
conditions.
    What cannot continue to go on, in my view, is for Russia to 
receive the funds and never to comply with the requests that 
are reasonable.
    And so my view is that Secretary Cohen is right in response 
to Senator Enzi's question ``What do we do?'' that dialog is 
where it should start. And I think part of the dialog also has 
to be to make tangible and practical to the Russians, looking 
at the ready eye of the missiles and other things, how 
dangerous this is for them. After all, a number of these are 
Islamic regimes. One never knows where they are going to go 
with their hostility.
    Russia is dealing with the Islamic movement in Chechnya and 
has 70 million to 90 million Islamic population. There is a lot 
going on in the former Soviet Union and in Russia itself. And 
it is contrary to Russia's interest to building up these 
dangerous weapons near its borders, that actually can reach it 
in direct terms before they can reach us.
    But beyond dialog, I think we also need to do the other 
things I have just mentioned. So I would just summarize: 
Information to inform our public and leaders about the problem 
much more actively; the control of U.S. technology; reestablish 
export controls in an effective way; overall economic 
disincentives for Russia; cutting the assistance in other 
domains, not cooperative threat reduction, unless this transfer 
stops; and finally, propose also an incentive, design and 
propose an incentive program; but there would have to be 
complete compliance.
    In my book I talk about this. And I describe a situation 
where I think the administration of the program would have to 
be by American officials on Russian territory, who would take 
the $9 billion or $15 billion and allocate it in grants 
themselves, would monitor that it really goes to civilian 
production, that it really involves defense conversion; and, if 
not, that it is cutoff immediately, so that there cannot be 
this lag of a year or two to find out what is going on. There 
would have to be sort of conditions. But I think the grant 
program could be very attractive.
    In conclusion, I think it is important to understand, as we 
look at our relations with Russia, that there are good 
opportunities for an improvement in relations, a continuing 
improvement in relations, as we go forward. And I believe, as I 
indicate in the article in the Washington Post, from the 
Washington Post that I have attached,\3\ on the Russia/China 
relationship, that part of having a good relationship with 
Russia is understanding the new relationship it has with China 
and being realistic about what that means.
---------------------------------------------------------------------------
    \3\ The article referred to is on page 55.
---------------------------------------------------------------------------
    You may have noted, Senators, that very few people in 
Washington have discussed the fact that in June of last year, 
Russia and China signed the Shanghai Cooperation Agreement 
establishing a security alliance among Russia, China, and four 
Central Asian countries. They also, Russia and China, also 
signed for the first time since 1950 an alliance agreement in 
July, a bilateral alliance agreement.
    Now I believe that the strategy that Russia and China are 
both following toward us is to have a two-level relationship; 
one to be normal and civil in relations with the United States 
and to obtain tremendous amounts of economic benefits, Russia 
through assistance and trade, China through the one-way trade 
it has had, which has led, as you know, to a Chinese surplus 
from 1990 to 2000 of $720 billion with the industrial 
democracies, $480 billion with us alone. So that has worked 
very well for them at one level.
    At the second level, I believe Russia and China have 
decided, as we see this in the annual summits and I discuss it 
in my new book called ``The Preventable War, the Strategic 
Challenge of Russia and China,'' I believe that they have 
decided that they want to limit the United States, and they 
want to do this in as discreet a way as possible.
    But regrettably, I believe the proliferation, the transfer 
of these weapons of mass destruction to these regimes hostile 
to the United States and its allies, are part of this method, 
are part of this method of limiting the United States and the 
world, doing it discreetly, doing it indirectly.
    And I believe we, too, should have a two-part strategy 
toward Russia and China, a normal civil relationship at one 
level, but on the other level a realistic relationship, which 
involves certain conditions on the economic benefits they 
obtained from the United States, so using our economic benefits 
as a positive instrument to in fact ensure a future of peaceful 
relations with both countries and both powers. And I think we 
can do that, and I think it would make all the difference, if 
we would now move to that kind of approach.
    Thank you very much.
    The Chairman. Thank you very much, doctor.
    [The prepared statement of Dr. Menges, including additional 
material, follows:]

 Prepared Statement of Constantine C. Menges,\1\ Ph.D., Senior Fellow, 
                          The Hudson Institute
---------------------------------------------------------------------------

    \1\ Constantine C. Menges Ph.D., a Senior Fellow with the Hudson 
Institute, served as Special Assistant for National Security Affairs to 
the President and as National Intelligence Officer with the CIA. His 
forthcoming book is 2007: The Preventable War: The Strategic Challenge 
of Russia and China. [Contact tel. #s 202/974-2410 or 202/223-7770]
---------------------------------------------------------------------------
         russia and the transfer of weapons of mass destruction
U.S. Purposes and Assistance
    Following the unraveling of the Soviet Union and the establishment 
of the Russian Federation in 1992, presidents and political leaders in 
both major parties in the United States have supported a large program 
of assistance for Russia. The purposes have been to encourage a 
transition to ever more broad based and stable political democracy 
together with a market oriented economy and to assist Russia in 
controlling and reducing its large arsenal of strategic and tactical 
nuclear weapons, other weapons of mass destruction, and its ballistic 
missiles. These were seen by the leaders in the United States and 
Russia as being in the interests of both countries since a more 
democratic and market oriented Russia would more likely be peaceful 
internationally and provide for greater prosperity and well-being for 
its citizens.
    From 1991 until the end of 2000, the United States has provided 
more than $35 billion in bilateral assistance to all 15 post-Soviet 
republics: $17 billion in direct funding together with an additional 
$18 billion in commercial financing and insurance. Russia has received 
more than $17 billion including $8 billion in direct funding and $9 
billion in commercial financing and insurance.\2\ This funding 
continues. At the same time, the United States has joined with the 
other major democracies to provide an estimated additional $120 billion 
in economic assistance through bilateral programs and international 
financial institutions.\3\ Further, on several occasions the 
democracies have canceled or generously refinanced more than $40 
billion of Russia's external debt. Therefore, we can estimate that as 
of this time total expenditures and grants by the United States and its 
democratic allies in assistance for Russia have been worth more than 
$150 billion dollars since the unraveling of the Soviet Union.
---------------------------------------------------------------------------
    \2\ U.S. Government Assistance to and Cooperative Activities with 
the Newly Independent States of the Former Soviet Union, Department of 
State, January 2001.
    \3\ Speaker's Advisory Group on Russia, Christopher Cox, Chairman, 
Russia's Road to Corruption, U.S. House of Representatives, September 
2000.
---------------------------------------------------------------------------
    This is an important starting point for considering Russia's 
continuing transfer of components and expertise for weapons of mass 
destruction and the ballistic missiles to launch them. It is often said 
that these highly dangerous transfers have occurred because Russia and 
various Russian weapons manufacturing organizations need and want the 
funds they derive from these transfers. The question facing the current 
leadership of the United States is whether it is the national interest 
to continue the many forms of economic assistance for Russia even 
though its government either denies or fails to stop the proliferation.
Russian Proliferation
    For more than a decade, there has been bipartisan agreement among 
U.S. presidents and the political leadership in Congress that the U.S. 
and its allies are gravely threatened by the continuing transfer of 
weapons of mass destruction and ballistic missiles to dangerous regimes 
such as those in North Korea, Iran, Iraq, and Libya, among others. 
Those dictatorships support international terrorism, threaten U.S. 
regional allies, and year after year have demonstrated by their words 
and actions, that they intend to threaten and if possible harm the 
people of the United States.
    In the mid-1990s, the U.S. Congress decided that the Clinton 
Administration needed to act more effectively to stop proliferation and 
that this might occur if the intelligence agencies were required to 
provide biannual classified and unclassified reports to Congress on 
this major issue. As a result, the unclassified reports have become a 
means through which the legislature, citizens and experts could inform 
themselves about an activity that is largely conducted in secrecy, with 
some degree of deception and frequent denial.
    In 1997 the U.S. Congress established a bipartisan Commission 
chaired by the Honorable Donald Rumsfeld to examine this question. It 
had access to all available government information and produced both a 
classified and an unclassified report. As an example of the dangers 
deriving from this proliferation, the Rumsfeld Commission predicted in 
1998 that Iran could have an intercontinental range ballistic missile 
able to reach the U.S. ``within five years'' \4\. Informed experts 
believe Iran could have its own nuclear weapons within two years; if so 
Iran might then be in a position to launch or threaten a nuclear attack 
directly against the U.S. as well as Israel. In December 2001 a senior 
Iranian cleric publicly threatened to ``totally destroy'' Israel when 
Iran has its own nuclear weapons.\5\
---------------------------------------------------------------------------
    \4\ Report of the Commission to Assess the Ballistic Missile Threat 
to the United States, Executive Summary, Washington, DC July 15, 1998.
    \5\ From FBIS, World News Connection, cited in Constantine Menges, 
``China, Russia, Iran and Our Next Move,'' The Washington Times, 
February 10, 2002.
---------------------------------------------------------------------------
    The latest annual U.S. Department of State report identifies Iran 
as ``the most active'' state supporter of terrorism in the world.\6\ 
Starting in the early 1980s, Iran has provided training, weapons and 
other aid for Hezbollah and Hamas, terrorist organizations attacking 
Israel. This continuing Iranian indirect war of terrorism against 
Israel was again revealed in January 2002 when Israel captured fifty 
tons of weapons and explosives on a freighter, the Karine A. Its 
Palestinian captain admitted that the Palestinian Authority had 
obtained the weapons from Iran, and many of the weapons containers bore 
Iranian markings. These terrorist supplies included about 3,000 pounds 
of C-4 explosives, which could be used by suicide bombers against 
civilians.\7\
---------------------------------------------------------------------------
    \6\ Patterns in Global Terrorism, U.S. Department of State, April 
30, 2001.
    \7\ Menges, ``China, Russia, Iran,'' op. cit.
---------------------------------------------------------------------------
    The unclassified government intelligence reports on proliferation 
conclude that Russia and China are the two countries that have been 
most consistently active in transferring weapons of mass destruction 
and ballistic missile components and expertise to hostile regimes.\8\ 
The following table is drawn from the most recent unclassified CIA 
report, released on January 30, 2002. It concludes that Russia has done 
the following:
---------------------------------------------------------------------------
    \8\ Central Intelligence Agency, Foreign Missile Developments and 
the Ballistic Missile Threat to 2015, Summary of a National 
Intelligence Estimate released in January 2002 and Central Intelligence 
Agency, Unclassified Report to Congress on the Acquisition of 
Technology Relating to Weapons of Mass Destruction and Advanced 
Conventional Munitions, 1 January through 30 June 2001, released 
January 30, 2002.

  <bullet> for Iran--assistance in building its stocks of chemical, 
        biological weapons, with its nuclear weapons program, as well 
        as with its mid range ballistic missile and its planned ICBM, 
---------------------------------------------------------------------------
        the 9200 mile Shahab 4/5;

  <bullet> for Iraq, major assistance in building its large stocks of 
        biological and chemical weapons, as well as aid for its short 
        range (370 miles) ballistic missile;

  <bullet> for North Korea--provided major assistance in building its 
        large stocks of chemical and biological weapons, as well as 
        major assistance in building its No-dong medium range ballistic 
        missile and aid in building its 9200 mile intercontinental 
        ballistic missile, the Taepodong.
Background on Russia's Current Transfers of Weapons of Mass Destruction
    It is a fact of international politics that virtually all the 
Soviet-linked anti-U.S. dictatorships of the cold war era outside 
Europe survived during the 1990s. These include Iran, Iraq, Libya, 
Syria, North Korea, Cuba--all of which have been judged by the United 
States government to be states which support international terrorism. 
The Middle Eastern anti-U.S. regimes, Iran, Iraq, Libya, Syria continue 
to seek to build weapons of mass destruction for possible use against 
the United States as well as against U.S. allies such as Israel and the 
Persian Gulf oil states.
    These are the states which during the 1990s have been supported by 
Russia and China politically and with weapons transfers at ever 
increasing tempo. In the congressionally-mandated public reports, the 
Director of Central Intelligence has indicated that Russia and China 
are the countries which provide the largest number of conventional 
weapons and the most weapons of mass destruction to these and other 
hostile regimes.
    The Soviet purpose in working for 30 years with these regimes in 
the Middle East was essentially to use them and their hostility against 
Israel and its alliance with the United States as a means of helping 
radical pro-Soviet groups gain control of the Middle East oil wealth. 
This included unsuccessful attempts to overthrow the moderate Persian 
Gulf oil regimes--Saudi Arabia, Kuwait, United Arab Emirates. The 
Soviet view was that with radical pro-Soviet regimes in charge of those 
oil resources and Europe and Japan depending on these for about 70 
percent of their energy supplies, it would be possible to neutralize 
Europe and Japan by imposing political conditions such as leaving NATO 
and other U.S. security alliances on further supplies of Middle Eastern 
oil to Europe and Japan.
    In the 1990s, Russia and China sold weapons to the anti-U.S. 
regimes in the Middle East to earn hard currency, to support their own 
military producers and also to establish closer relations and build up 
these regimes as another means of counterbalancing the United States. 
In addition to China's transfer of weapons of mass destruction to these 
countries, starting in 1994, Russia began to sell a large number of 
weapons to Iran along with nuclear weapons-related equipment which 
reportedly led a 1999 U.S. government analysis to conclude, ``if not 
terminated, can only lead to Iran's acquisition of a nuclear weapons 
capability.'' \9\ The conventional weapons Russia sold to Iran during 
the 1990s included many aimed at the U.S. Navy including three 
submarines, a variety of long-range guided torpedoes for the 
submarines, a large number of anti-ship mines, as well as tanks and 
armored personnel carriers.\10\
---------------------------------------------------------------------------
    \9\ Bill Gertz, ``Letter Showed Gore Made Russian Deal,'' 
Washington Times, October 17, 2000, A-1.
    \10\ John M. Broder, ``Despite Secret `95 Pact by Gore, Russian 
Arms Sales to Iran Go On,'' New York Times, October 13, 2000, A-1.
---------------------------------------------------------------------------
    Years after the event, reports revealed that in 1995 Vice President 
Gore had entered into a secret agreement with Prime Minister 
Chernomyrdin of Russia that the United States would not implement 
sanctions required by the Gore-McCain Nonproliferation Act of 1992 if 
Russia promised to stop selling these conventional weapons to Iran. 
This surprising revelation led Senate Majority Leader Trent Lott and 
Senator Jesse Helms to write President Clinton on October 13, 2000 
saying, ``please assure us . . . the Vice President did not in effect 
sign a pledge with Victor Chernomyrdin in 1995 that committed your 
Administration to break U.S. law by dodging sanctions requirements.'' 
\11\ In fact, Russia did not stop selling such weapons. Despite U.S. 
diplomatic protests, Russian weapons transfers continued into the years 
2001 and 2002.
---------------------------------------------------------------------------
    \11\ As cited by Bill Gertz, op.cit., October 17, 2000.
---------------------------------------------------------------------------
The New Russia-China Alliance After September 11, 2001
    Although Russia has cooperated in important ways with the United 
States since the massive terrorist attack of September 11, 2001, there 
is no evidence that Russian transfers of components and expertise for 
weapons of mass destruction and ballistic missiles have changed in any 
significant degree. In November 2001 it was reported that Secretary 
Powell raised these issues in his visit to Moscow without any 
success.\12\ Nor is there any sign that the several summit meetings 
between Presidents Putin and Bush have led to any marked decrease in 
Russian proliferation activities.
---------------------------------------------------------------------------
    \12\ Tyler, ``U.S. and Russia to Complete Talks on Arms Control 
Pact,'' New York Times, December 11, 2001, A13.
---------------------------------------------------------------------------
    To the contrary, Russian President Putin has publicly stated that 
the U.S. should take no action against Iraq, Russia has continued to 
work to have the sanctions against Iraq lifted, and Russia has 
indicated that it continues to have a close relationship with the 
clerical dictatorship in Iran.
    It is important to understand that the United States faces a new 
strategic situation as a result of the June 2001 Russia-China treaty 
establishing the Shanghai Cooperation Organization (SCO) involving six 
countries and the July 2001 Russia-China bilateral alliance treaty. 
Together the countries of the Shanghai Pact, as it is referred to by 
President Jiang Zemin of China, have a population of 1.5 billion, they 
control thousands of strategic and tactical nuclear weapons, and these 
combined conventional military forces number 3.6 million.
    Iran hopes to join the Shanghai Pact soon. This may have been 
discussed during the visit of Chinese President Jiang Zemin to Iran on 
April 18, 2002.\13\ Reports are that at the coming June 2002 Shanghai 
Pact summit Russia and China might agree on adding Iran while China 
would also like to add Pakistan, and Russia reportedly wants India in 
the Shanghai Pact as a participant. If all these joined, the Shanghai 
Pact could include about 2.8 billion people and it might become much 
more than the current mostly paper alliance.\14\
---------------------------------------------------------------------------
    \13\ ``China's President Visits Iran,'' UPI, April 18, 2002.
    \14\ See C. Menges, ``China, Russia, and What's Really on the 
Table,'' Washington Post, July 29, 2001 [This article is attached].
---------------------------------------------------------------------------
    My analysis of the new Russia-China strategic relationship suggests 
that its current negative effects, from the U.S. perspective, include:

          1. Russia and China both transfer expertise and components 
        for weapons of mass destruction and ballistic missiles to North 
        Korea, Iran, Iraq, Libya and have not reduced this after 
        September 11, 2001;
          2. Russia continues selling its avanced weapons to China 
        which aims these at U.S. forces in the Pacific--about $18 
        billion have already been sold and $30 billion more are 
        scheduled for the next four years;
          3. The political and military-to-military relationship with 
        China is strengthening authoritarian groups within Russia.
Possible Constructive U.S. Actions
    The U.S. needs to be more effective in dramatizing how this 
proliferation of weapons of mass destruction might result in immense 
tragedy for countries near these hostile regimes such as those in 
Europe, South Korea, Israel and other friendly states in the Middle 
East as well as countries more distant such as the United States. In 
addition, the U.S. should become more effective in preventing the theft 
and illegal export of its own advanced military or dual use technology, 
should move to reestablish effective international export controls to 
keep such technology from potentially hostile regimes and from 
proliferating states such as Russia and China, and should reduce its 
economic support for Russia until it halts this dangerous activity.
    In terms of specific actions and steps to accomplish these 
purposes, the United States should allocate the skilled manpower and 
budget resources necessary to:

          1. Maintain the integrity of and control over classified 
        information within the U.S. government and among all U.S. 
        contractors with sensitive military technology information;
          2. Significantly improve and expand U.S. counterintelligence 
        operations in order to prevent, deter, and defeat Russian, 
        Chinese and other espionage operations. From 1975 to 2000, more 
        than 127 U.S. citizens were convicted for spying, most on 
        behalf of the Soviet Union/Russia, some for China.\15\ The 
        repeated spy scandals of the 1990s and the compendium of 
        information in the bipartisan report produced by the Select 
        Committee chaired by Representative Christopher Cox on 
        successful Chinese military espionage led the Congress to 
        instruct President Clinton to improve U.S. security.\16\ This 
        resulted in Clinton signing a Presidential Decision Directive 
        on Dec. 28, 2000 on ``U.S. Counterintelligence Effectiveness-
        Counterintelligence for the 21st Century.'' Instead of the 
        ``piecemeal and parochial'' approach in place up to then it 
        urged, in the words of Sen. Richard Shelby, then Chairman of 
        the Intelligence Committee in the U.S. Senate, a ``more policy 
        driven . . . proactive . . . approach to identifying . . . the 
        information to be protected enhanced information sharing 
        between counterintelligence elements.\17\ The administration of 
        President Bush should make this a major priority.
---------------------------------------------------------------------------
    \15\ Sen. Richard Shelby, Intelligence and Espionage in the 21st 
Century, Washington D.C.: The Heritage Foundation, May 18, 2001, 1.
    \16\ U.S. House of Representatives, Select Committee on National 
Security and Military/Commercial Concerns from the People's Republic of 
China, Washington D.C., May 25, 1999.
    \17\ Ibid, 6.
---------------------------------------------------------------------------
          3. Terminate all launches of U.S. satellites on the rockets 
        of Russia, China or any other foreign country except for close 
        U.S. allies. Such launches give a country the experience, 
        technology and additional financial resources to bring about 
        important improvements in its military ballistic missile 
        capabilities since the systems are so similar--this is 
        fundamentally contrary to U.S. national security interests. The 
        EU is drafting a new code of conduct on missile proliferation 
        to be introduced in 2002. While still urging advanced states to 
        ``exercise the necessary vigilance'' when aiding other 
        country's space launch programs, the new language would be more 
        lenient than the current restriction under the MTCR (Missile 
        Technology Control Regime) rules.\18\
---------------------------------------------------------------------------
    \18\ Brooks Tigner, ``EU Hopes Code of Conduct Will Cool Missile 
Proliferation,'' Defense News, July 9-15, 2001, pp. 1, 4. The U.S. 
should resist such liberalization, but cannot effectively do so when 
violating the spirit of the rules itself by aiding China's missile 
program through satellite launchings.
---------------------------------------------------------------------------
          4. Military exchanges with Russia and China should focus on 
        building understanding and relationships among the participants 
        and should help foreign military personnel understand the truth 
        about U.S. international purposes and activities. These should 
        not involve the transfer of military skills from the United 
        States to these other countries.
          5. The U.S. must restore the full, objective functioning of 
        the elements of the Department of Defense (such as the Defense 
        Technology Security Administration [DTSA]) and the intelligence 
        community responsible for the review of the potential military 
        sensitivity of U.S. defense technology exports.\19\ The 
        ``export virtually everything'' approach of the Clinton 
        Administration resulted in pressures on and a weakening of 
        these organizations. In the present and future they must be 
        fully staffed by competent professionals who are able to 
        provide independent analyses of the national security 
        implications of possible military/dual use technology exports.
---------------------------------------------------------------------------
    \19\ Reps. Dan Burton, Curt Weldon and Dana Rohrabacher wrote the 
Secretary of Defense in May 2001 to express their support for an 
effective DTSA, see Bill Gertz, Roman Scarborough, ``Inside the Ring,'' 
Washington Times, June 15, 2001, A 12. The investigative reporter, 
Kenneth R. Timmerman, (Selling Out America, Ex Libirs, 2000, Chapter 8) 
wrote that a high technology area of California could be called 
``China's 22nd province'' because there were hundreds of such front 
companies for the Chinese military and military production system with 
offices there, many listing no telephone numbers or having any of the 
facilities for normal business operations.
---------------------------------------------------------------------------
          6. The United States should expel all companies which 
        function as fronts for any military or intelligence related 
        entities in Russia, China or any other non-allied state.
          7. Establish and restore an effective multilateral entity 
        such as the Coordinating Committee on Trade with Communist 
        Countries (COCOM) that for so many years served to prevent the 
        U.S. and its main allies from exporting military technologies 
        to the former Soviet Union and its allied states. In 1999, the 
        U.S. Congress urged that this step be taken in view of the 
        relative ineffectiveness of the existing multilateral 
        organizations such as the Nuclear Suppliers Group (NSG), the 
        Missile Technology Control Regime (MTCR), and the Wassanar 
        Arrangement of Conventional Arms and Dual-Use Goods and 
        Technologies.\20\ In April 2001 a bipartisan congressional 
        study group, involving leading members of both the House and 
        the Senate recommended improving the U.S. export control 
        process and also working to strengthen ``multilateral export 
        controls based on . . . enhanced defense cooperation with close 
        allies and friends.'' \21\ This provides a good basis for 
        making rapid progress in this little known but very significant 
        domain of international policy.
---------------------------------------------------------------------------
    \20\ CSIS, Study Group on Enhancing Multilateral Export Controls 
for U.S. National Security, Washington, DC April 2001, 1.
    \21\ Ibid.
---------------------------------------------------------------------------
          8. Last and perhaps most important--link current U.S. 
        economic aid to Russia ending its proliferation. Since years of 
        requests to Russia to end this dangerous transfer of weapons of 
        mass destruction and ballistic missile expertise and components 
        have produced very few results, the time has come for the 
        United States to inform Russia in a polite but clear way that 
        U.S. economic support for Russia will be reduced in direct 
        proportion to the additional costs to the United States of 
        defending its allies and people against the ever more serious 
        threats resulting from these weapons in the arsenals of the 
        hostile dictatorships. During the first year that would 
        probably suggest a minimum reduction of 20% in direct bilateral 
        assistance and perhaps comparable reductions in U.S. support 
        for international financial assistance and measures to relieve 
        or stretch out payment of Russia's approximately $150 billion 
        foreign debt.

    In international politics, words and declarations alone often do 
not bring about improvements changes in the negative actions of foreign 
governments. It is time for the United States to act with seriousness 
of purpose to persuade Russia to completely terminate its continuing 
proliferation of components and expertise for weapons of mass 
destruction and ballistic missiles.

                                                         North Korea, Iran and Iraq: Weapons of Mass Destruction and Ballistic Missiles*
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                           Assistance from:
             Country                       Type of Weapon                Model (Range in Miles)        --------------------------------------------------------              Numbers
                                                                                                                   China                      Russia
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
North Korea                        Chemical                       ....................................  major                       major                       large stocks \1\
                                   Biological                     ....................................  major                       major                       large stocks \1\
                                   Nuclear                        ....................................  Unknown                     Unknown                     1 to 5
                                   Ballistic Missile              Hwasong 5/6 (175-425) \2\             No                          No                          at least 500
                                   .............................  Nodong (900) \3\                      Yes                         major                       12-100
                                   .............................  Taepodong (9200) \4\                  Yes                         Yes                         in development
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Iran                               Chemical                       ....................................  Yes                         Yes                         large stocks \1\
                                   Biological                     ....................................  Unknown                     Yes                         in development
                                   Nuclear                        ....................................  Yes                         Yes                         no, intends to develop
                                   Ballistic Missile              Shahab 1/2 (175-425) \2\              No                          No                          600+
                                   .............................  Shahab 3 (900) \3\                    major                       major                       in development
                                   .............................  Shahab 4/5 (9200) \4\                 major                       major                       in early development
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Iraq                               Chemical                       ....................................  Unknown                     major                       large stocks \1\
                                   Biological                     ....................................  Unknown                     major                       large stocks \1\
                                   Nuclear                        ....................................  Unknown                     Unknown                     in development
                                   Ballistic Missile              Al-Hussein (370) \2\                  No                          Yes                         Unknown
                                   .............................  Likely Taepodong \4\                  No                          No                          Intends to buy upon
                                   .............................  ....................................  ..........................  ..........................  end of UN sanctions
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ ``large stocks'' mean that each nation keeps enough warheads of this kind to kill several hundred thousand civilians or soldiers.
\2\ These missiles are variants of the Soviet SCUD. Hwasong 5/6 are North Korean variants. Shahab-1/2 are the Iranian names for the Hwasong 5/6, which it purchased and produces. Al-Hussein is
  the Iraqi name for its own indigenous variant of the SCUD.
\3\ The Nodong is designed to hit Japan, including the U.S. bases there. The Shahab-3 is a modification of the Nodong intended to hit Israel and the Gulf States.
\4\ The Taepodong is under development, but the U.S. government believes that the final version will be an intercontinental missile capable of hitting the United States.
Sources for the Table:
Central Intelligence Agency, Foreign Missile Developments and the Ballistic Missile Threat to 2015, published January 9, 2002.
Central Intelligence Agency, Unclassified Report to Congress on the Acquisition of Technology Relating to Weapons of Mass Destruction and Advanced Conventional Munitions, 1 January through 30
  June 2001, published January 30, 2002.
Office of the Secretary of Defense, Proliferation: Threat and Response, January 2001.
* This table is taken from North Korea, Iran, and Iraq: Building Nuclear, Chemical, Biological Weapons and Ballistic Missiles, Briefing Note from the Russia, China Security and Democracy
  Project, Hudson Institute, March 2002.


               [From the Washington Post, July 29, 2001]

              Russia, China and What's Really on the Table

                       (By Constantine C. Menges)

    Russian President Vladimir Putin's surprise agreement last week to 
begin a discussion with the United States on offensive and defensive 
strategic nuclear forces was widely praised. And indeed, it was good 
news. Putin's willingness to talk might in time produce the ``new 
framework for peace'' that President Bush seeks--although, as national 
security adviser Condoleezza Rice correctly cautioned, talking does not 
guarantee final agreement.
    But it was only part of a larger picture. This is the same Putin 
who on July 16 signed a treaty of cooperation with Chinese President 
Jiang Zemin at their summit in Moscow.
    While the treaty states that it ``is not aimed at any third 
country,'' it explicitly seeks to promote a ``new international 
order.'' This is the phrase China and Russia use to describe 
international politics when the United States no longer has or seeks 
what they call ``unilateral military and security advantages.''
    Since their first meeting a year ago, Putin and Jiang have met 
eight times to coordinate what the new treaty describes as their ``work 
together to preserve the global strategic balance.'' The two events 
clearly illustrate a dual-track strategy of Russia and China toward the 
United States. That strategy should worry the White House.
    First, the two countries maintain a sense of normal relations with 
the United States and other democracies so that they will continue 
providing China and Russia with vitally needed economic benefits. (Bush 
noted that he and Putin had also discussed ``economic cooperation'' and 
that he would send Treasury Secretary Paul H. O'Neill to Moscow ``to 
discuss a wide range of topics.'' These might include concessions on 
Russia's $150 billion foreign debt. Meanwhile, China's yearly trade 
surplus with the United States is about $85 billion--and growing.)
    Second, Russia and China are using mostly political and covert 
means to oppose the United States on security issues and to divide 
America from its allies. This was the preferred KGB approach when Putin 
served there (1975-1991), and this has been China's approach during the 
Jiang years.
    This month's China-Russia summit followed a little-noticed 
agreement signed on June 15 by the presidents of China, Russia and four 
former Soviet Central Asian republics establishing a political-military 
coalition, the Shanghai Cooperation Organization. Jiang called it the 
``Shanghai Pact,'' perhaps intending to evoke the former Warsaw Pact. 
He said that these six countries had agreed on political, military and 
intelligence cooperation for the purpose of ``cracking down on 
terrorism, separatism, extremism'' and to maintain ``regional 
security.'' Moscow said the agreement would improve ``global 
security.''
    Then, for the first time in its history, China agreed to 
participate in joint military exercises, with its fellow Shanghai Pact 
members this fall. Together, the Shanghai Pact countries have a 
population of 1.5 billion; they control thousands of strategic and 
tactical nuclear weapons, and this combined conventional military 
forces number 3.6 million. Iran, Mongolia and Turkmenistan hope to join 
the pact soon. They would add another 78 million people and bring the 
combined military forces to nearly 4.2 million.
    Such an arrangement could grant protection to Iran, which continues 
to support terrorist attacks against Israel and other states. Iran 
recently sent 8,000 katyusha rockets to Hezbollah guerrillas in 
Lebanon. Iran could also link the Shanghai Pact with the Middle East, 
where Russia and China already provide political and military support 
to Syria, Libya and Iraq--three former Soviet allies that might also be 
welcomed into the pact. In addition, Putin reportedly hopes that India 
will join, while China would like Pakistan to participate. If all these 
countries became part of the Shanghai group, it would include 40 
percent of the world's population and could still be open to North 
Korea, Cuba and the pro-Castro Chavez regime in Venezuela, which in May 
became a ``strategic partner'' of China and of Iran.
    Judging by its initial public response, the Bush administration may 
believe that these new treaties are nothing more than symbolic acts--or 
it simply may not have taken the time to explore this issue fully. The 
July treaty, according to State Department spokesman Richard Boucher, 
``is a treaty of friendship, not an alliance. It doesn't have mutual 
defense in it or anything like that.''
    That view ignores two facts: first, mutual defense is implicit in 
the treaty, which states that ``if a threat of aggression arises,'' the 
two sides ``will immediately hold consultations in order to eliminate 
the emerging threat''; and second, China and Russia have another 
agreement for mutual defense in the Shanghai Pact, a point well made by 
a senior Chinese official who said candidly that the July treaty did 
not explicitly include military cooperation ``because we have ample 
agreements on that issue.''
    The new China-Russia treaty marks a complete turnabout from 1992 
and 1993, when the previous president George Bush and Russian president 
Boris Yeltsin met three times and agreed on the need for changes in the 
Anti-Ballistic Missile Treaty of 1972 to permit missile defense against 
third states. Back then, Russia spoke of strategic partnership with the 
United States and kept communist China at a distance. After 1996, 
because of pressures from communists and ultra-nationalists in Russia 
and the failure of the Clinton administration to follow through on some 
of the Yeltsin-Bush initiatives, Russia and China formed a strategic 
partnership, which China steered increasingly in an anti-U.S. 
direction.
    Putin has said this month's China-Russia treaty was Jiang's idea, 
and it seems clear that the Shanghai group was as well. Over the past 
five years, the China-Russia alignment has had many negative effects on 
the United States. Russia has accepted much of China's anti-U.S. world 
view, and the relationship with China has strengthened authoritarian 
tendencies within Russia. The two countries have frequently issued 
joint statements opposing missile defense for the United States or its 
Asian allies. And the Russia-U.S. discussions proposed in Genoa are 
unlikely to change that. Moreover, Russia has sold about $18 billion in 
advanced weapons to China; some $30 billion more are scheduled for the 
next four years, all aimed at U.S. forces in the Pacific. Chinese and 
Russian aid to Iran, Libya and North Korea includes expertise and 
components for weapons of mass destruction and expertise.
    Evidence of the potential new military risks to Washington and its 
allies came this past February in the form of Russian military 
exercises that included large-scale simulated nuclear and conventional 
attacks against U.S. military units ``opposing'' a Chinese invasion of 
Taiwan, according to a report based on U.S. intelligence published in 
the Washington Times. But significant challenge to the United States, 
at least early on, is more likely to come from Chinese-Russian 
political and covert actions aimed at reducing Washington's 
international role. Consider the recent defeat of the U.S. proposal for 
``smart sanctions'' against Iraq: First China extracted economic 
concessions from Washington in return for not using its veto in the 
U.N. Security Council to stop the U.S. plan. Then Russia stepped in 
with a veto.
    Broader examples of Russian-Chinese political cooperation may well 
include actions to oppose or delay U.S. missile defense plans; to 
intimidate and lure Taiwan into accepting China's terms; to continue 
the North Korean partial or pseudo-normalization; and to use Chinese 
economic opportunities for financially pressed Japanese businesses, in 
tandem with the possibility of Russian territorial concessions, to 
persuade Japan to begin moving away from its U.S. security alliance.
    Two months ago, Russian and Chinese officials announced they would 
coordinate policy toward Colombia and Cuba. Russia and China have 
political and military relations with Cuba as well as electronic 
monitoring bases aimed at the United States. This joint policy might 
well include more help for Castro as he works with the Chavez regime to 
support anti-U.S. radical groups seeking to take power in Colombia and 
other Latin American countries, now even more fragile due to the global 
economic slowdown. Jiang and Putin might see this as a way of keeping 
the United States occupied near its borders and less involved in 
Eurasia.
    The Clinton administration ignored early signs of strategic 
cooperation between Beijing and Moscow. There is no need for a public 
sense of crisis at this stage, but the Bush administration should avoid 
repeating that mistake. It should give the China-Russia axis its 
immediate attention.

    The Chairman. This may surprise you: I agree a great deal 
with what you have to say about the relationship as well. I 
find particularly intriguing and, I would think, especially 
today worthy of serious, serious, not just discussion, but 
planning on the part of this administration or any successor 
administration to deal with the prospect of your putting 
together among the industrial nations a multi-billion-dollar 
grant program for the express purposes you have stated.
    You probably know, because you have testified, and I think 
not inaccurately, in the past about the spottiness of our 
efforts to provide assistance to the emerging ``democracy of 
Russia.'' I am the guy that wrote that first piece called the 
Seed Program that became the Freedom Support Act in the Bush 
administration.
    I found that--knowing what I know now, I think I would have 
drafted it differently. I think probably President Bush, 
knowing what he knows now, George the first, President Bush, 
might have done it differently.
    This has been a learning experience. Hopefully, our 
learning curve is going to get sharper here. But I do not want 
to take your time now, but possibly either in person or on the 
phone--to followup with you on this large notion and idea you 
have. And I am curious as to whether or not you have gotten any 
response to the idea from any of your contacts within the 
administration.
    Now, granted, I do not say this as a criticism, because 
there has been obviously a preoccupation of late within the 
administration. But it is an intriguing notion to me.
    I also want to suggest to you that when President Putin was 
here last--I cannot remember whether Senator Lugar was in the 
room or not; there were several of us--I asked him a question 
about Iraq and why did he not understand that after at least 50 
years, and probably closer to 80, of a very spotty, if not 
hostile, relationship with the Muslim minorities within the 
former Soviet empire, why he did not think that Moscow might 
just as easily be a--or find themselves the victim of some of 
the initiatives that Russia was helping Iran with?
    And he was somewhat irritated in his response. He said 
something to the effect, and I am paraphrasing, Do you not 
think I understand that a longer range missile is equally as 
likely, if not more likely, to strike Moscow than New York some 
day?
    I followed up with, ``Why?'' I mean, there was initial 
hostility to my question. Because Senator Lugar and I had 
proposed a debt-for-nonproliferation swap here and the 
possibility of, although some of this has already been done in 
Germany, the possibility with Japan, Germany, other countries 
with whom there is a much larger debt, outstanding debt, that 
Russia absorb from the former Soviet Union.
    As you know, the due bill is coming due. So far, the 
Russians have met their obligations. But in 2003 and 2004 there 
is, in effect, a balloon payment coming up. They need very 
badly to have the World Bank and the IMF and others continue to 
essentially, my words, not literally applicable, but for those 
that are listening, grade their bonds highly, so that they can 
be lent to and/or get assistance.
    It seems to us there is a real possibility here. And I 
raised that with him. I said, ``Would you be interested?'' And 
he first launched into--how can I phrase it?--a response that 
was not particularly friendly. But as he spoke in Russian, you 
could see him starting to calculate this and realized I was not 
trying to be polemic with him; I was trying to figure out a 
way.
    He warmed up to the idea but then made the following 
statement, which gets me to my question. He said essentially, 
``We do not want to be told with whom we can trade. And our 
single most significant bilateral relationship we have in terms 
of trade surpluses is with Iran now.''
    Now maybe that is not exactly what he said, but that is the 
point he was making; and that there are others, other bilateral 
trade relationships with Iran that do not relate to technology 
and weapons technology and capability.
    My question is this: Any part of what seems to be a 
counterintuitive continuation of a relationship on weapons with 
Iran, is any part of that, in your view, related to the 
thinking on the part of the Russians that that need be done in 
order to have access to markets for non-defense-related items, 
or do you know?
    Dr. Menges. Yes, Senator, I think so. I am sure the uranium 
theocracy tries to make that point, ``Well, if you do this, we 
will look more favorably on other aspects of trade with you.'' 
I think that is undoubtedly used.
    And, of course, President Putin has been very explicit 
about the concern about repayment of the Iraqi debt to Russia. 
You know, he has looked at this in monetary terms quite a bit. 
And yet we know he has a very strategic mind. And in fact, I am 
very happy that you raised that question with him.
    And certainly the events in Chechnya, the tragedy there, 
and the degree of hatred that has evolved against Russia there, 
that could also directly impact other Muslim peoples in the 
former Soviet Union and in Russia, and has to be a major 
concern.
    And that relationship to the regimes, the clerical regimes 
of other radical groups, the Saddam Hussein regime, which is 
totally willing to work in any way that will work against its 
major enemy, the United States, and Israel and so forth, all 
has to--it is the kind of thing in which I think if he would 
talk with you both some more, I could see you raising the kinds 
of issues that would have a big impact.
    There is always--as we know, in decisionmaking in every 
country, there is always a coalition of interest groups that 
come together. And so you have the military industrial complex 
that does its--you know, has its relationships. And you have 
the trading groups. And you have the geopolitical thinkers, who 
say, ``Well, this is part of containing the United States.'' 
And we have a special relationship, the people who think, 
``Well, we have to appease them.'' So there are lots of 
different motivations that come together.
    But all this happens in the absence of the United States 
creating any consequences, because words by Secretary of State 
Powell at a meeting are not consequences. And so that is why I 
think it is time to create consequences. And so--that is why I 
think it is time to create consequences, either positive, as I 
think your debt swap idea is a superb idea of positive, or in 
terms of reducing opportunities economically.
    The Chairman. I would also suggest, it seems to me that 
with a little bit of imagination, we should be able to generate 
a win-win relationship with Russia on Iraq. They are owed, I 
quoted $8 billion to them. I think he responded $9 billion or 
whatever. And as you know, there are contracts that have been 
acquired for by Gazprom to be able to develop fields which they 
cannot get into to develop, and that they are estimating are 
worth tens of billions of dollars.
    And I do not know why it would be so difficult to walk and 
chew gum at the same time here. The fear of taking down Saddam, 
I think, on the part of the French and the Russians--and 
someone mentioned the French model are different, but they do 
relate to economic interests.
    And it seems to me that there ought to be a way to deal 
with that. But that is, as they say in my business, above my 
pay grade. We cannot make foreign policy. We can encourage 
folks, but----
    Dr. Menges. Right.
    The Chairman. Dr. Hecker, I would like to move to you, if I 
may. How can we best recreate those positive conditions that 
you cited on proliferation cooperation that in your testimony 
you have indicated have been absent for the last 4 years, or--I 
think you said 4 years, but in the recent past?
    And my question is this that relates to that: Is it because 
we have fundamental policy disagreements unrelated to 
nonproliferation that have caused this to occur--i.e., the 
withdrawal from the ABM treaty, expansion of NATO, other 
broader issues--or is it something that you think is happening 
inside the Soviet scientific establishment and military 
establishment that suggests that it is, for strategic reasons 
within Russia, less advantageous to cooperate? I mean, can you 
give us a sense of why you think this has occurred?
    Dr. Hecker. It is a combination, and let me try to lay them 
out in the order I see them. First, it starts with what you 
just mentioned. At the strategic level, the difficulties 
between our governments over the last 3 or 4 years related to 
the issues of ABM Treaty, the bombing of Yugoslavia, et cetera.
    The next level is the one you were just discussing, and 
that is, the disagreements over Iran. Any nuclear cooperation 
between Russia and Iran has made them, if anything else, more 
difficult.
    The next level, I would say, is one within Russia. And that 
is the re-emergence of the Russian security services. It turns 
out, right after the dissolution of the Soviet Union, they were 
sort of scattered in all directions. And that allowed much of 
that earlier cooperation, both in the military, as well as in 
the nuclear complex between the scientists. It took a few years 
for the security service to pull themselves back together. And 
let me just say: Today, it is much more difficult to get into 
those closed cities than it was to get in 10 years ago for me. 
So that is the third.
    The fourth level, which actually is the one that we can fix 
the easiest, is that we have lost the sense of partnership. And 
that is recognizing that these are their materials and their 
facilities. They have to safeguard them. And all we can do is 
help.
    And so the program execution over the last 3 to 4 years has 
gone in the direction of essentially saying, ``We will pay you, 
but you will do it the way we will tell you to do it.'' And 
that simply does not work. They are not going to let us into 
their sensitive closed facilities.
    So the issue boils down to--and that is what it has been 
the last two, two-and-a-half years, is requiring physical 
access of Americans in sensitive Russian facilities versus a 
system of assurances.
    ``Is there not some other way,'' the Russians would say, 
``that we can assure you that your money is spent well and we 
are actually making these upgrades?'' That is really the key 
today, because at least at the top level--I think President 
Putin has fixed that for the time being. Iran still remains a 
problem.
    But in this latter case, there was essentially a 2-year 
standstill or, let us say, a significant slowdown in defense 
programs related to MPC&A. There was a very important agreement 
signed in September of last year to allow better access. And 
hopefully, that will spring some of these things loose.
    However, along with that there has to be this change in 
approach back to saying, ``This is a partnership. We are going 
to help you do the job, and we will all be better off if you 
protect your materials.''
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Dr. Hecker, you have been on the scene with the MPC&A 
program an other department efforts and have testified to the 
merits of continuing these programs and projects. And I agree 
with you generally, that the last 2 years have been difficult.
    On the other hand, it is an ambivalent situation, at least 
I found from my own experience. By that I mean a good number of 
persons in either a chemical or a biological facility, 
scientists, people who have been running the show for quite 
awhile, have really personal needs to visit with Americans. 
Much has been made in the Judy Miller book of Andy Weber, this 
remarkable person with the Cooperative Threat Reduction program 
now, and his work in helping Americans to gain access, 
particularly in chemical and some biological facilities. And 
that has been a part of my experience that may be an off day 
with regard to the bureaucracy.
    But still, we are invited to come because the facilities 
are in terrible shape. They are run down. The material is in 
dangerous condition. The scientists are in disarray, strange 
commercial enterprises juxtaposed to weapons of mass 
destruction. And these Russians are worried about this. And 
this sort of gets to your first point, this question of how to 
forge the cooperative attitude, sometimes literally on the 
ground at the time that physically you are there and you have 
an opportunity to visit with the right people, and they say, 
``OK. Come along, and I will show you something.''
    I think that is important. I do not know how you foster 
that specifically, except I salute our people in cooperative 
threat reduction or on the ground, Jim Reed and Tom Kuenning, 
various other people, who are physically there a good part of 
the time. And I wish that somehow we were able to pay more 
attention to them, that their work sort of permeated higher 
realms in the Pentagon either in the last administration or 
this one. But we try to do that.
    What I am curious about and sort of interweaving what you 
have said with what Dr. Menges has said--because the Iran 
problem is one that everyone in our government has thought 
about and we continue to seek a solution. For years all of us 
have had a mission to ask, ``Why are you doing this?''
    Now for a while, it was total denial. Then more frankness 
came in this cooperative spirit. And they said, ``We need the 
money. It is as simple as we need the money. We are bankrupt. 
You have to understand that. Our programs are in disarray. The 
Duma does not appropriate money for us. Furthermore, in a 
spirit of democracy, we do not control everything anymore. You 
have to understand there are entrepreneurs who are out there 
doing these things. It is not a totalitarian state. Now could 
we control the entrepreneurs better? Perhaps. But on the other 
hand, they are useful in their own ways.''
    Clearly, the Russians have been ambivalent about this. This 
gets to Dr. Menges's point. This has helped guide Senator Biden 
and me in our work in thinking about the debt swap situation. 
There finally has to be some reason why the Russians would 
consider other alternatives. I think President Bush and 
President Putin, in their new relationship, have been starting 
to have a dialog about: What is to happen to the Russian 
economy? How constructively can something occur there? This is 
of considerable interest to President Putin, not an obsession, 
but very strong priority.
    I understand, there is sort of a dialog going along there. 
But from time to time, people have suggested that if we are 
serious about this, we are going to have to think of reasons 
why the Russian economy develops in a normal way, as opposed to 
these dangerous sales to Iran or Iraq or China or so forth.
    Now there could be people in the Russian hierarchy, whether 
they are in the military or nationalists and so forth, who 
still, as you suggested, want to control the relationship with 
the United States, want to control our ability to permeate the 
whole situation. We saw a little bit of that at the beginning 
of the September 11 dialog, when some Russians were quoted as 
saying ``Americans are simply not going to be permitted to do 
very much in Uzbekistan or Tajikistan. This is off limits.'' 
And then President Putin says something else, ``This is a war 
against terrorism. In fact, we are together.''
    Now you suggested, Dr. Menges, that rather than this being 
an ad hoc basis of the Biden-Lugar loans and so forth--and 
which some have criticized us for giving away debt owed to 
Germany or others, which is considerably greater than that owed 
the United States in our program--that we may approach this in 
a straightforward way, that there be a fund, free enterprise 
fund or what have you.
    In fairness, President Bush back in the earlier 
administration and some of his people had some ideas, Jim Baker 
and others, about doing a lot of this. It all sort of got 
frittered away in terms of enthusiasm as we became 
disillusioned with the lack of Russian reform or overt acts by 
Russians. They were purely hostile.
    So the Congress began to strip away one thing after another 
that might have addressed the commercial situation and the 
reform business, until we finally got down to the Nunn-Lugar 
program as the core part of the relationship. Well, that is not 
enough, although it is important. There has to be some hope out 
there for something more.
    In your dialog on this subject what do you believe is the 
political possibility of this in this country, quite apart from 
the views of other countries. If we began to work with Russia 
on normalizing commerce, but they continued to go to Iran for 
the money, would we stop the fund, because it is not clear to 
me, in visiting with some of our European friends that they are 
eager to be that abrupt. As a matter of fact, they have 
relations with Iran and Iraq. And in part, it is because of the 
money. It is debt and commercial relationships.
    So to internationalize, this gets beyond merely the Russian 
problem, but likewise our most intimate NATO friends or others 
and their willingness to be hard-nosed about this. Absent that, 
it seems to me we are back almost to a bilateral dialog with 
President Putin, in which we finally offer a good enough deal 
that he says, ``OK, I understand, and we are going to stop Iran 
and Iraq because this deal is superior.''
    Well, we have not come to that point. And in fact, the 
proposal has not come to the Congress at all. And if it did, if 
we are having a small problem on fungibility of the Nunn-Lugar 
funds, imagine the kind of debate if we talk about $10 billion 
of U.S. taxpayer funds doing this sort of thing in Russia, and 
people saying, ``My goodness, you folks really have been 
snookered. You have $10 billion out there, and the Russians are 
now building a super missile. And they have you again.''
    How do we overcome fungibility, the NATO allies? Are these 
aspects of your program that you have considered, as you have 
written or visited with your colleagues?
    Dr. Menges. Well, Senator Lugar, I think the answer is, in 
one word, ``comprehensiveness.'' I think there has to be a 
holistic look at this. And I was suggesting about $10 billion 
among all the industrial democracies.
    Senator Lugar. Yes.
    Dr. Menges. So the U.S. share might be $1 billion. It might 
be closer to the $900 million for the full funding or so for 
the testing programs. But aside from the particular amount of 
money, the point is really the important one, that this is an 
opportunity, a grant for, let us call it, the consumer 
enterprise fund, something like that. So the production has to 
be consumer production.
    And it has to be done in the context of a holistic 
relationship with Russia, in which the security and the 
political aspects, the proliferation aspects, are all 
considered together; and there is a shared agreement that is on 
a piece of paper that is signed, and there are consequences 
spelled out for not carrying through the agreement. And the 
consequences are in fact implemented by the United States and 
its partners in fact.
    I think there is a problem--we have a problem with 
implementation of consequences. We tend not to do so. And 
therefore, year after year governments, well, feel it does not 
matter what we say, what we sign. We could just forget about 
that and go on from there.
    So I think there is a possibility of doing this. And the 
opportunity for Russia is enormous, because, as we know, the 
dollars do not translate one to one. It is $10 billion, when 
scientists are earning $100 a month and not $10,000 or $8,000 a 
month, as they are here. It is sort of a 20 to 1 ratio in terms 
of purchasing power and what it means and what it can do for 
the people of Russia.
    And this is President Putin's highest priority. And he does 
not want to accept the World Bank loans and the IMF loans and 
get back into the debt cycle. So I think there is an 
opportunity now, and in fact I think you two are just among the 
people who could lead the way in proposing these kind of ideas 
because it does link directly to our fundamental national 
security interests in stopping and doing both with the weapons 
of mass destruction on Russian territory and stopping the 
transfer to these hostile regimes, which clearly menace us.
    By the way, we are--it is through divine providence, I 
think, so far that they have not transferred them. They, the 
regimes, have not transferred them to some of the terrorist 
groups. I mean, that has not happened so far and obviously 
could happen, which I think argues for the urgency of helping 
the good people in those countries replace the regimes. And I 
might just say to Senator Biden's point--and do it soon.
    I might say to Senator Biden's point about the Russian 
economic interest and Iraq, I think it is an important one. And 
I think it can be addressed by the Iraqi National Congress. And 
I know the leadership. And I think they are sensible people. It 
seems to me they could simply declare that they will honor 
previous debts, they will honor contracts. And if they succeed 
to government, as of the heads of moderate constitutional 
government in Iraq, that they will have a good relationship 
with Russia, a trading relationship, a normal relationship. 
They will give Russia the opportunities for exploration; 
France, the same; and other countries, perhaps the same.
    I know that they would be happy to do that. And I think if 
we had a clear political strategy, as well as the verbal 
strategy that seems to be in the air, then one would be moving 
toward a situation where the Iraqi National Congress and other 
representatives of a new, moderate constitutional government 
for Iraq would make those overtures and I think then maybe 
clear the way internationally to their moving toward ending the 
enormous danger, I think, represented by that regime.
    Senator Lugar. Well, I share the enthusiasm that Senator 
Biden expressed on hearing your ideas. And my questions are 
merely to try to refine them. I think this is an area that we 
really ought to think about very seriously for the reasons you 
have suggested, and even given all the hurdles that I might 
perceive.
    I want to take the chance with Dr. Hecker here to ask a 
technical question, because your work in the accounting aspect 
for these weapons of mass destruction has really been profound.
    There remains considerable disagreement on how much remains 
and where, which is almost bound to be the case given the 
stashes all over, given all the laboratories and storage sites. 
I remember earlier on, one of the small Nunn-Lugar grants were 
for some computers, in which people actually began to register 
some data, so that it was not kept in ink and paper in various 
locations around the place.
    But how goes this situation? What sort of a handle do we 
have in terms of mutual confidence as to how much material that 
deals with weapons of mass destruction is, in fact, in Russia 
presently?
    Dr. Hecker. In the end, we do not know. And the reason we 
do not know is because the Russians still keep that information 
classified. That is, they keep information about the specifics 
of the nuclear material classified.
    For example, what we call the isotopics of plutonium--how 
much of the different isotopes are in their nuclear weapons 
systems--the chemistry, the places where they are located, the 
quantities where they are located are classified? So ``we do 
not know'' is the bottom line.
    From a Russian standpoint, one of the programs we tried to 
start is actually to help them to get to know how much they 
have. And I am not being facetious because in the United States 
we did not know either necessarily. You know, these are 
industrial materials. You work with them. You chemically 
process them. You do not just keep them locked up in a safe. 
You make them, and then you work with them.
    So we had a program in the United States, and we published 
a report in the 1996 timeframe called ``Plutonium, The First 50 
Years.'' We went back and said, ``Look, this is how much we 
have produced. This is how much we have put in the atmosphere. 
This is how much we have put in the ground. This is where we 
think it is. This is how much is not actually accounted for, 
because it is lost in processing.''
    And so I worked with the Russians to begin a program like 
that. We called it the Plutonium Registry. And they said, of 
course, ``Well, you cannot do this on our classified 
materials.'' And I said, ``OK, we will do it together on the 
civilian materials, and then you use the methodology to do it 
on your own classified materials.''
    I think anything we can do in that direction would be 
extremely helpful so the Russians can use these themselves. The 
problem we have always gotten into is we tend to push one step 
too far. And we want to get into the areas that they consider 
sensitive and classified. And so then often the progress stops.
    But the bottom line is that right now there is a slight 
benefit to the fact that the security services have 
reestablished themselves. These places are more secure today 
than they were a few years ago. Now, you know, that has its 
detriments. If you are going to try to convert these 
facilities, then it makes it that much more difficult.
    Many of the easy targets that were there have been taken 
care of. Particularly, in my own opinion, the Russian nuclear 
navy and the highly enriched uranium was the most vulnerable at 
one time. And significant improvements have been made. 
Actually, some of the civilian facilities were very vulnerable. 
And significant improvements have been made.
    But what we need to look at is the long term, the whole 
mentality of how to do nuclear safeguards. And that still 
remains to be done. So the answer is, there is lots there. We 
are in much better shape. They are in much better shape today 
than they were 10 years ago. But the job is not done.
    Senator Lugar, if I may offer one comment on your dialog on 
Iran, and Senator Biden. When I asked the Russians this same 
question, my colleagues in the nuclear weapons complex ``Why do 
you do this with Iran,'' they first of all say, ``It is not 
just a matter of money.'' So it is more complicated.
    They say there are three principal reasons. The first one 
is money. The second one is what they do for that money 
provides jobs for the very people that they are worried about, 
the nuclear workers And in this case, thousands of jobs, not 
just a handful that we tend to establish with our programs. And 
that keeps down the turmoil in their nuclear complex.
    The third thing it offers is prestige. You know, they want 
to export nuclear reactors all around the world. And they want 
to demonstrate that they can do this.
    The other aspect, of course, from a political standpoint is 
that they view, as has already been said, Iran as a strategic 
trading partner. You know, to us it is a rogue state.
    So as they look, then, at the risks versus the benefits, 
they come up with a different answer. The one thing that we do, 
which has us stuck right now, is we fail to differentiate 
between those things that are done by the Russians in Iran that 
represent a true proliferation danger versus those that do not 
represent such a great danger. And specifically, as I point out 
in my paper, when it comes to a nuclear power plant, we have 
said ourselves that we are willing to put some in North Korea, 
that we can manage that proliferation risk. However, what the 
Russians also did because of their entrepreneurial institutes 
or people, and the Iranians very much pushed for this, is to 
develop the capabilities for the rest of the fuel cycle. And 
that is a no-no from a proliferation standpoint.
    So I think we must differentiate more specifically as to 
what is truly a nonproliferation problem and what can be 
managed. And I have not seen that distinction made sufficiently 
to break this roadblock. That is just my own opinion.
    Senator Lugar. That is very, very helpful.
    Mr. Chairman, I conclude just by saying that Dr. Hecker has 
offered an anti-fungibility argument, namely that the Russian 
security now is improved. They are doing more of it themselves, 
as a result. And it is an interesting problem, perhaps less 
open because of all of this. But nevertheless, for those who 
are worried about United States funds being transferred to the 
Russians, they apparently are deciding to use it on security, 
my hope is the same as yours, that they will find out how much 
they have. So if something is missing, they have some idea what 
they have lost. The real fear has been they really would not 
have any idea in some of these situations. And therefore, all 
of the strange arguments about the nuclear suitcases and other 
items which might have been stolen is difficult, because no one 
really knows; and until they know they could not share it with 
us, even if they wished to do so.
    Thank you, Mr. Chairman.
    The Chairman. We survived 50 years in a hostile 
relationship on these issues. I am quite confident--I would 
love to have them to have that capability, even if I did not 
know what the results were, because I am confident we can 
survive much better with an emerging democracy that has this 
control. So however the heck they get the control, I feel 
better for it, even though it is through the re-emergence of a 
security apparatus.
    And I turn to recognize my friend from Florida, who has a 
keen interest in this overall subject matter. I knew he was an 
astronaut. I knew he was a man of many talents. But I was 
recently in Florida with a fellow who looked like something 
right out of a novel, who was wearing alligator boots and a 
hat, you know, this cowboy hat. He would not call it a cowboy--
no, no, no, no. This fellow lives in the middle of the 
Everglades. I do not know where. He wrestles alligators and is 
a very successful businessman as well.
    He started to talk about my friend, our friend, from 
Florida, he said, ``This guy Bill Nelson is a great guy. And he 
goes through the Everglades with me. He has been out there. He 
goes out at night with me,'' et cetera.
    So from now on, in the tradition of Fritz Hollings, who 
gives us all nicknames, I am referring to the Senator from 
Florida as the Swamp Fox.
    So I yield now to the Senator, who I knew as an astronaut, 
who I knew as an accomplished legislator, but I never knew that 
he knew the Everglades as intimately as this gentleman, who I 
know knows the Everglades intimately. He invited me to come 
along, and I said I would rather go to space.
    But at any rate, I yield to my friend from Florida.
    Senator Nelson. Would you go in the Everglades with me 
sometime?
    The Chairman. With you, I would, as long as you are the one 
jumping out and wrestling the alligator.
    Senator Nelson. I have better sense than that.
    Thank you, Mr. Chairman, and Senator Lugar.
    The issue that I wanted to pursue here is the proliferation 
outside of Russia. And, Senator Lugar, your legislation, with 
your permission, I want to be a cosponsor.
    Senator Lugar. Great.
    Senator Nelson. I think it is very important. And what I 
wanted to ask for, because of the hour, just a quick commentary 
on your reflection upon what more the United States can do. Let 
me tell you about what I discovered on a trip that my chairman 
had authorized for me to take to Central Asia and the Middle 
East.
    In Uzbekistan, out in the Aral Sea, is the former Soviet 
anthrax and other bacteriological production. And the Aral Sea 
is evaporating. And the most recent international team that 
went out there to see it found all these tire tracks all around 
it. And this thing is unguarded. And there is no telling the 
anthrax spores that are buried, the carcasses that may be 
infected with plague that are buried. That is one thing.
    And then we go on to Pakistan, and we specifically talk to 
President Musharraf. And then we go to India and talk to Prime 
Minister Vajpayee and talk to them about reducing tensions, as 
their two nuclear armies are facing off each other. And so here 
is another area that we clearly have an interest in, that there 
is not a proliferation of those two countries. In that case, 
nuclear; in the other case, bacteriological.
    Your comments, please.
    Dr. Hecker. I agree with you completely, Senator Nelson. 
And that is why I laid out in my written statement the fact 
that today, say post-9/11, we realize that those type of 
problems that you have just brought up are actually more urgent 
than the serious problems that are left in Russia and need to 
be addressed.
    You made a good case for Uzbekistan and the biological 
weapons program. In my paper, I lay out on the nuclear side the 
equivalent challenge in Kazakhstan. You know, thanks to Nunn-
Lugar, and as the chairman had already indicated, we got the 
weapons back from Kazakhstan, Ukraine and Belarus into Russia; 
in my opinion, the single greatest accomplishment of the 
nineties in terms of nonproliferation.
    However, we did not get the weapons-useable materials back 
from those countries. And the greatest amount is left in 
Kazakhstan. And should you visit some of the places in 
Kazakhstan, nuclear places, you would find the same situation 
that you just indicated, whether it is the former Soviet test 
site or nuclear reactors. Fortunately, in some of the reactors, 
as part of the MPC&A program, some of those upgrades were made. 
However, there is also--on the Caspian Sea, there is an old 
Soviet-style reactor that produced a lot of plutonium.
    There are weapons-useable materials left in Kazakhstan. Our 
job is not done. Because of the concerns in Central Asia, those 
should be addressed in a comprehensive and urgent fashion.
    Then you go on to a reactor in Uzbekistan. You have a 
reactor in Belgrade. You have reactors in much of the former 
Soviet Union. Many of those had highly enriched uranium as the 
fuel. There are programs, spotty programs, either through the 
International Atomic Energy Agency or the Department of Energy, 
for those reactors, for reactors in Ghana, in Algeria, in 
places in the world that today you say, ``Why do we have 
reactors there, and why do we have, you know, potentially 
weapons useable material?''
    I think we need to look at that and develop a comprehensive 
strategy and figure out how we go after that proliferation 
risk. I think it is very important, and it is very serious.
    Dr. Menges. Senator, I share your concern. And I think it 
is a very important one, the issues you brought up. I think 
when you look at India and Pakistan--I will not deal with the 
Central Asian countries--it is important to note how it is that 
it came to the fact that in 1998 both powers tested nuclear 
weapons and now are soon to have them deployed. And, of course, 
we have just seen this very significant face-off between them 
from mid-December 2001 until the present to some degree. It 
really has not resolved.
    So the example of how serious the proliferation problem 
is--and that, of course, brings me to China, because it is the 
Peoples' Republic of China that has been the major source of 
the weapons technology for Pakistan. It has been part of its 
strategy to encircle India and to intimidate India. And that 
has been public. It is in the CIA reports, the unclassified CIA 
reports, that we can read as citizens. You have their 
classified information and reports.
    I think it really brings us to the fact that as we look at 
this issue of the transfer of weapons of mass destruction, we 
have to look at both Russia and China and pay serious attention 
and can give serious thought to, again, giving both powers 
reasons not to continue doing this.
    Senator Nelson. All right. Mr. Chairman, with your 
permission, Admiral Fargo is here, and I need to visit with 
him.
    The Chairman. We are going to end right now, but I also 
want to set the record straight. My staffer pointed out to me 
that when I said the exploration deal with Iraq was Gazprom, it 
is really Lukoil. I was wrong. It is not Gazprom; it is Lukoil 
that has the contract. And I thank Dr. Haltzel for that.
    Also, one of the reasons why I have been concerned, Dr. 
Menges, in light of your last point--and I am not looking for a 
response now. We are going to have some hearings on this as we 
go along. And with your permission, we may very well invite you 
back. I know that is the bad news. You impressed us both, and 
we may ask you back. It is like contributing and finding out 
you are on the list.
    But one of the reasons why I am a little concerned about 
the way the Nuclear Posture Review has been formulated, even 
though there is not a lot that is fundamentally new from the 
last administration, is it seems to give a green light to the 
possibility of renewed nuclear testing, which I find to be 
disquieting for the very reasons, doctor, you just pointed out.
    The nations most likely to benefit the greatest from that, 
from re-engaging the nuclear testing and would be given an 
absolute green light, in my view, internationally if we began 
it, if we did it, talk about risk benefit analysis, is China. 
And I am very concerned that we do not send the wrong signals 
here.
    But at another time I might ask you both, and at a minimum, 
with your permission, be able to pick up the phone or ask to 
meet with you privately to talk with you about that. And I am 
not making a generic criticism of the Nuclear Posture Review. 
If I look at it, there is not a whole lot that is fundamentally 
new in there. It is an emphasis that I am a little concerned 
about. But I just raise that for your thoughts at a later date.
    I cannot tell you how much I appreciate both of your 
efforts. And I will conclude by saying: Every once in a while 
we get asked questions by school children or college students 
or the press, who do not follow the specifics, that are more 
looking at profile kinds of approaches to the Congress or to 
the Senate or the individual Senator. And we often get asked 
the question, ``What is the single most valuable asset America 
has?'' And that goes right along with the ``Senator, do you 
have a bodyguard'' question. I do not, by the way. None of us 
do.
    And after I point out that our single greatest asset is our 
ideas and our values embodied in our Constitution, the single 
greatest physical assets we have--and you reinforce it, 
doctor--is the National Institute of Health and our 
laboratories. I cannot think of--if this were a Monopoly game, 
the last thing in the world I would trade--I would give up the 
Senate office buildings, I would give up the accoutrements of 
the Capitol, before I would give up those two institutions.
    And they are a product of you, and you are a product of 
them. I just wish Americans had a better understanding of just 
what an incredible, incredible set of assets those laboratories 
are and the men and women who work there.
    But I just wanted to state that, as they say, for the 
record. And I cannot thank you both enough. And as you know 
from experience, we will continue to trespass on your time and 
call upon your expertise.
    We are adjourned. Thank you.
    [Whereupon, at 12:57 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
